<html>
<title> - AFGHANISTAN: A PLAN TO TURN THE TIDE?</title>
<body><pre>[Senate Hearing 110-609]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-609

                 AFGHANISTAN: A PLAN TO TURN THE TIDE?

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             SECOND SESSION



                               __________

                            JANUARY 31, 2008

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
              http://www.gpoaccess.gov/congress/index.html







                     U.S. GOVERNMENT PRINTING OFFICE

45-330 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001













                 COMMITTEE ON FOREIGN RELATIONS        

            JOSEPH R. BIDEN, Jr., Delaware, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
               Antony J. Blinken, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        









                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware...........     1


Boucher, Hon. Richard, Assistant Secretary, South and Central 
  Asian Affairs, Department of State, Washington, DC.............     5

      Prepared statement.........................................     8


Holbrooke, Hon. Richard, Former U.S. Permanent Representative to 
  the United Nations, New York, NY...............................    49


Johnson, Hon. David T., Assistant Secretary, International 
  Narcotics and Law Enforcement Affairs, Department of State, 
  Washington, DC.................................................    12

      Prepared statement.........................................    14


Jones, General James L., USMC (Ret.), Former Commander, European 
  Command, and Supreme Allied Commander Europe, Mclean, VA.......    41


Lugar, Hon. Richard G., U.S. Senator from Indiana................     3


Pickering, Hon. Thomas, Former Under Secretary for Political 
  Affairs, Department of State, Washington, DC...................    43

      Prepared statement.........................................    45

                                Appendix

Responses to additional questions submitted for the record by 
  members of the committee.......................................    67

                                 (iii)


 
                 AFGHANISTAN: A PLAN TO TURN THE TIDE?

                              ----------                              


                       THURSDAY, JANUARY 31, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Kerry, Feingold, Bill Nelson, 
Cardin, Webb, Lugar, Hagel, Coleman, Corker, and Sununu.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order, please.
    Let me, in advance, apologize to my colleagues and the 
witnesses for my cold and my occasional coughing. I am--it's 
irritating to me, it's probably going to be more irritating to 
you, but I thank you very much for being here. We have a very--
two distinguished panels here today, and we're anxious to get 
going.
    As I see it, here's the situation in Afghanistan. Security 
is probably at its lowest ebb since 2001, much of the country 
is only nominally under the control of Kabul. The United States 
and coalition forces win every pitched battle, but the Taliban 
still grows stronger, day by day. Drug trafficking dominates 
the national economy, and narco-barons operate with impunity. 
Reconstruction efforts have failed to bring substantial 
improvement to the lives of most Afghan citizens, and the slow 
pace is causing widespread resentment of both the Karzai 
government and the West. And bin Ladin and top al-Qaeda leaders 
enjoy safe haven somewhere along the Afghan-Pakistani border.
    In fact, this summer, the NIE--the National Intelligence 
Estimates--on the terror threat, found that al-Qaeda has 
``protected or regenerated key elements of its homeland attack 
capability.'' The administration firmly believes that we're 
about to turn the corner, and that we just need to give our 
policy a chance to work. I am curious as to what that policy 
is, because, quite frankly, I tell you, I'm somewhat--I'm--it's 
not clear to me.
    But, that's exactly, as well, what we've been hearing for 
the past 5 years, ``the tide is about to turn.'' I sure hope 
so, I say to my witnesses--the witness from the administration, 
but I'm not prepared to bet on that, under the present 
strategy.
    If we're not going to hold another hearing in Afghanistan 
next year, and have another retelling of the same story, it 
seems to me we need a significant change in policy now.
    Last month, the Chairman of the Joint Chiefs of Staff, 
Admiral Michael Mullen, testified to another congressional 
committee that the Taliban support has tripled over the past 2 
years. In Iraq, he said, ``The United States does what it must, 
while in Afghanistan the United States does what it can.'' I 
appreciate the admiral's honesty. His statement, it seems to 
me, makes abundantly clear why our efforts in Afghanistan seem 
to be too little too late.
    We're not succeeding in Afghanistan, quite simply, because 
we haven't made the kind of priority, I think, that need be 
made; we've not made success there our priority.
    What would it take to achieve success in Afghanistan? At a 
minimum, it seems to me, from reading testimony, talking to 
other people, having briefings from the intelligence community, 
as well as discussions with my colleagues--at a minimum, it's 
going to take a significantly greater investment, including 
troops, and the type of troops, and including investment in 
rebuilding that country. But, it will still be a small fraction 
of what we have devoted to Iraq, thus far. We've spent about as 
much on development aid in Afghanistan over the past 6 years as 
we've spent on the war in Iraq--as we spend in the war in Iraq 
every 3 weeks.
    What could more development aid do? Can it do much without 
a reorganization of the way in which the aid is distributed and 
dealing with corruption?
    As every military expert to testify before our committee 
has noted, the battle against the Taliban is not going to be 
won with bullets and bombs alone. It's going to be won with 
roads, clinics, and schools.
    General Karl Eikenberry used to say, when he was in command 
of U.S. Forces in Afghanistan, ``Where the road ends, the 
Taliban begins.''
    We could have done--what could we have done with a fraction 
of the military resources we've spent in Iraq? Earlier this 
month, Secretary Gates announced the deployment of 3,200 
additional marines to Afghanistan. This is welcome news, at 
least in my view. But, does anyone truly believe that it's 
enough to turn the tide? What do we need to do to achieve 
success in Afghanistan? In brief, the same thing we should have 
been doing all along: First, establish security. If we should 
securing--if we should be surging forces anywhere, it's in 
Afghanistan, not Iraq. NATO troops and a new Marine deployment 
are necessary, but not sufficient. We have to focus not just on 
sending more forces, but the kinds of forces and equipment we 
need to have sent. We need more helicopters, more airlift, more 
surveillance drones.
    And we've got to do a better job of training the Afghan 
and--police and army. You know, that old, bad expression, 
``deja vu all over again''? As I read the reports that have 
been filed with regard to the police agencies, it is 
frighteningly reminiscent of the early reports about the police 
agencies in Afghanistan--excuse me, in Iraq. They're corrupt, 
ineffectual, and, most places, based on what I'm told--and the 
administration may have a different view--they're viewed more 
as the problem than the solution, by the population.
    We need far more funds. We need to use them far better. The 
Afghans are patient, but they're not seeing reconstruction 
worthy of a superpower or worthy of the commitment that we 
made--the President made--for a Marshall Plan for Afghanistan. 
After more than 6 years and more than $6 billion, the most we 
can claim is that life of ordinary Afghans isn't as bad as it 
was under the Taliban. We've got to aim much higher, I think, 
and we have to deliver much more.
    Third thing we have to do is deal with the 
counternarcotics--excuse me--we have to counter the narcotics 
explosion. We should target multimillion-dollar drug kingpins, 
not dollar-a-day opium farmers.
    Someday, aerial eradication may have its place, but, in my 
view, not until we've got an alternative livelihood set up and 
a judicial system capable of taking down the drug barons. Until 
then, we should focus on the top of the food chain, not the 
bottom.
    We have five witnesses, today, who can explain these issues 
in detail, with authority and expertise. First are Assistant 
Secretaries Richard Boucher and David Johnson, from the State 
Department; then, three outside experts, well known to this 
committee and widely respected, will be here: General James 
Jones, Admiral Thomas Pickering--excuse me--Ambassador Thomas 
Pickering, and Ambassador Richard Holbrooke.
    I believe the war in Afghanistan is winnable, but I don't 
believe we're winning. I believe we need a new strategy for 
success, and I hope this hearing can--and this committee--can 
help the administration produce one.
    Before I recognize Senator Lugar, I'd like to welcome our 
guest, Michael Wilson, the Ambassador of Canada.
    Mr. Ambassador, thank you so much for being here, and thank 
you for the really herculean effort your country is making and 
the sacrifices you're enduring to deal with the situation in 
Afghanistan. You're one of our closest friends, and your nation 
is shouldering a heavy load for the common good in Afghanistan, 
and we thank you very much.
    To date, at least 78 Canadian troops have given their lives 
in this struggle. And, of the dozens of nations participating 
in this struggle, only the United States and Britain have lost 
more troops. These represent the first combat deaths Canada has 
suffered since the Korean war, and I'm sure it has political 
repercussions at home.
    It's not always appreciated. We're not a--we don't always 
tell you, but our gratitude for your country is immense, and we 
thank you for being here.
    Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you, Mr. Chairman. I join you in 
welcoming our very distinguished panels. All of the witnesses 
are good friends of the committee who have appeared before us 
many times. We're especially grateful that they have come today 
to share their conclusions and insights on a subject of 
critical importance to United States national security.
    The ongoing international effort to stabilize and rebuild 
Afghanistan must succeed. There should be no doubt that 
Afghanistan is a crucial test for NATO. The September 11 
attacks were planned in Afghanistan. Al-Qaeda still operates 
there, and the fate of the country remains both strategic and 
symbolic.
    Afghanistan has experienced a 22-percent decrease in infant 
mortality since the Taliban were in power. In 2001, only 8 
percent of Afghans had ready access to health services. Today, 
almost two-thirds of Afghans enjoy this benefit.
    Since the fall of the Taliban, nearly 1,000 miles of main 
and secondary roads have been rehabilitated. This has 
contributed to a growing economy, which realized a 13-percent 
increase in GDP in 2007. School attendance has increased 
fivefold since 2002, with 5 million Afghan children attending 
schools and 60 million textbooks delivered.
    Thus far, the United States has invested nearly $5 billion 
in the reconstruction effort. The rest of the international 
community has invested even more. Yet, while these investments 
have yielded demonstrable gains, the overall situation in 
Afghanistan remains grave. Democratic institutions are fragile, 
and the government does not control significant regions of the 
country. A massive drug trade funds the Taliban, which, despite 
setbacks, seems to be able to regenerate its ranks.
    Now, these circumstances demand a resolute commitment by 
NATO countries and other coalition partners to help establish 
security and advance the causes of reconstruction, democracy, 
and the rule of law in Afghanistan.
    For its part, Afghanistan must be committed to building a 
sufficient army, raising an adequate budget, maintaining 
control of its own territory. NATO can only be a transitional 
force.
    At the end of the cold war, a debate ensued over the 
durability and purposes of the NATO Alliance. And, after much 
debate, the stability of Europe was greatly enhanced by the 
addition of new NATO members. This discussion flared again in 
the shadow of the Balkan conflicts. Each situation appears to 
have reinforced the value of the NATO Alliance. If the debate 
over the efficacy of the Alliance continues, as the NATO-led 
ISAF has encountered the limits of coordinated action among its 
members, there is a troubling shortfall of political commitment 
that is hampering the ongoing operations in Afghanistan. The 
time when NATO could limit its missions to the defense of 
continental Europe is far in the past. With the end of the cold 
war, the gravest threats to Europe and North America originate 
from other regions of the world, and this requires Europeans 
and North Americans to be bolder in remaking our alliances, 
forging new structures, and changing our thinking. To be fully 
relevant to the security and well-being of the people of its 
member nations, NATO must think and act globally. And I am 
pleased to hear that the Bush administration is reviewing its 
current approach in Afghanistan. I look forward to hearing more 
about that today.
    The decision to send 3,000 additional marines in 
Afghanistan should indicate to partners that the United States 
is committed and willing to dedicate the necessary forces to 
combat the insurgency. We also stand with the Canadians, the 
British, and the Dutch forces, who are calling for more support 
from partners.
    I believe strongly that NATO is capable of meeting the 
challenge in Afghanistan. NATO commanders have demonstrated 
that they understand the complexity of the mission. They know 
that success in Afghanistan depends on the attitudes of the 
people, the progress of reconstruction, and the development of 
the economy, as much as it depends on battlefield successes. 
But, NATO commanders must have the resources to provide 
security, and they must have the flexibility to use troops to 
meet Afghanistan's most critical security needs.
    I thank the chairman for holding this timely hearing, and 
look forward to excellent discussion with our witnesses.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ambassador, welcome.

 STATEMENT OF HON. RICHARD BOUCHER, ASSISTANT SECRETARY, SOUTH 
 AND CENTRAL ASIAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Boucher. Thank you, Senators.
    Mr. Chairman, I'm very pleased to be here today. I think 
it's very timely that we have this discussion of the situation 
in Afghanistan, and strategy on the way forward. And having 
received your letter about what you wanted to hear from us, I 
will try to be brief, but I would like to discuss the 
situation, talk about the strategy, and talk about how we're 
implementing it and what the next steps are, as far as we see 
it.
    As Senator Lugar described, progress is being made. I have 
many of the same numbers that he does, but, I think, if you add 
together the achievements in roads, achievements in education, 
achievements in health care, we see a profoundly changed 
situation in Afghanistan. The economic growth is one sign of 
that. The extension of the government, having gone through the 
Bonn process and help build up a national government, I think 
last year we saw a lot of progress at the provincial level. And 
if I could say anything about this year, it's probably that 
progress needs to be made at the district level, and that's 
where a lot of the focus is.
    The Taliban are losing on the battlefield, repeatedly, but 
they do remain a threat. But, over the last year they've been 
driven out of their strongholds in places like Panjshir, near 
Kandahar, Sanguin Valley in northern Helmand, and, most 
recently, Musa Qala, in Helmand. Unfortunately, as they've lost 
on the battlefield they've resorted, more and more, to tactics 
of pure terror, tactics of bombings, of IEDs, of kidnappings. 
So, we've had many successes, but we have not yet enjoyed 
success, and that's what we have to focus on.
    In the end, we've found that, if we provide good governance 
in places, we see development, we see security, we see, as my 
colleague will say, a decline in the poppy production. Good 
governance and the benefits of governance are what really make 
the difference in Afghanistan. Those are the things that will 
win the war. It requires military force, it requires good 
leadership, both in the international and the Afghan side, and 
it requires continuing flow of sufficient resources from the 
international community to help the Afghan Government.
    So, the first conclusion about what we've seen in the last 
year and the years before is, we know what works in 
Afghanistan. We just have to make sure we're doing it, and that 
we do it more and better.
    The first element that we have to do is provide people with 
security. We're using the necessary force to fight the enemy. 
U.S. troops are at an all-time high; NATO, as well. Afghan 
forces are increasing in number, and are increasingly out in 
front. I think, some of the provinces I've visited, most of the 
security is provided by Afghan forces now; and NATO forces, 
U.S. forces, are there to support them and work with them.
    The extra marines will provide extra capability for us in a 
very key area, and allow us to do some things, particularly 
with training and with putting more people out in the field 
with the Afghan forces and the Afghan police than we have 
before, since that's one of the keys to winning on the 
battlefield.
    We have been accelerating police training, quite a rapid 
pace over the last year. The effort right now is focusing on 
what we call focus-development districts. General Cone, at the 
Combined Command Alpha, has a program that we call the Focus 
Development Districts, where they take the police out, put in 
some good national policemen, more capable, and take the police 
from a district and go retrain them, re-form them, reconstruct 
them, basically, and then put them back with mentors and 
supporters so that they can do a better job of holding 
territory and providing the basic service that people want from 
their government, which is safety and security.
    The narcotics problem is--my colleague Ambassador Johnson 
will talk about--but, I think it's fundamentally a matter of 
watching the map, at this point, that the--we're going from 
six--we went, last year, from six provinces that were poppy, to 
three to thirteen. We see the narcotics problem, while 
exploding, but exploding in particular areas. And the 
insurgency and the narcotics trafficking are increasingly 
feeding off each other. And so, as we address the narcotics 
problem, we have to look at it in that context. And, as I said, 
that's what we're doing.
    In terms of providing people with the services that they 
expect, they want safety, they want justice, they want economic 
opportunity, and they want health care and education from their 
government. Major push this year is in expanding the 
governance, the ability of government to provide services and 
safety to people at the local level. We've got about--if you 
add up the base request plus the supplemental that's still on 
request, we've got over $500 million devoted to governance this 
year. We've got more money going through our Provincial 
Reconstruction Teams, which are spent locally to support the 
extension of the Afghan Government and give people new 
opportunities.
    The Afghans are doing their part. They've provided a new 
Office of Local Governance, working out of President Karzai's 
office, that's started to appoint governors and district chiefs 
who are vetted, who are there for their quality, and not just 
for their connections. And these people have already shown, I 
think, great promise, in terms of how they deliver governance 
at a local level.
    Expanding justice at provincial levels is also a big part 
of the new budget. There's about $70--about $91 million, either 
appropriated or on request this year, that will go into 
expanding justice at the provincial level.
    The third big item is the one you referred to by quoting 
General Eikenberry, the--``Where the road ends, the insurgency 
begins.'' And that's the opportunity that's provided by 
infrastructure, by roads and electricity, in particular. We're 
now moving from the Ring Road, which is, but for one section, 
almost all completed, into--last year, a lot of money went into 
key provincial connections; that's still being done--and more 
and more small roads, built by Provincial Reconstruction Teams, 
that go up the valleys and the villages. Roads are probably our 
largest funding item, if you look, overall, in Afghanistan, and 
it's something that works. I was up in Konar Province, which 
has been one of the most violent provinces in Afghanistan. I 
was there about a week ago, and our Provincial Reconstruction 
Team folks and the governor there are all talking--they're not 
talking about how many insurgents there are in the Konar 
Valley, but they're talking about how many gas stations and 
Internet cafes there are along the road that we built down 
through the Konar Valley that connects them to Jalalabad and 
markets for their produce.
    We're also pushing very hard to expand the availability of 
electricity in Afghanistan. It's been a country with a very low 
supply of electricity; I think about 6 percent of the 
population gets their electricity from the grid. We're trying 
to expand that very dramatically this year. There are major 
projects that will bring more electricity to Kabul by the end 
of the year. The Kajaki Dam, down in Helmand, is being--
generators there are being refurbished. That's already 
increased the electricity quite a bit in that area. And we're 
bringing electricity down from north--from countries in the 
north, working with the neighbors to the north, to get 
electricity for Afghanistan that they can buy. So, there's 
about $200 million in this year's budgets that's devoted to 
bringing up electricity. Electricity, of course, provides not 
only lights for kids to do their homework, but the ability to 
do things like cold storage projects, so that farmers can grow 
something other than poppy and be able to market it at better 
prices, year round.
    Finally, I'd point out, agriculture and education--
agriculture and irrigation are major components of our work, 
because much of the population is agricultural, and a lot of 
the aid projects, as well as the alternate livelihoods 
projects, focus on repairing irrigation systems, building 
irrigation systems, and giving people other forms of 
agriculture and agricultural rural economics to go to when they 
abandon the poppy production.
    One of the things that everybody's very focused on in 
Afghanistan--I found that in all my conversations last week--
was that--the need to concentrate all these efforts on key 
areas. General McNeill points out that 40 percent--40 districts 
produce 70 percent of the violence. And so, there's a real 
effort now to concentrate the military effects, the police 
training, local governance programs, some of the things the 
Afghans are doing under their national solidarity program--they 
do 35,000 small projects in 25,000 villages now--as well as our 
aid efforts and the U.N. efforts, so that we can concentrate in 
particular districts and get the--not just the immediate 
military effect, but get the rebuilding and get the stability 
that we know that security and governance can provide if 
they're done well together.
    Musa Qala is the latest example, where, after the troops 
went in and flushed out the Taliban, people are going in now 
with better governance, they're going in with electric 
generators, they're going in with projects, in consultations 
with the local population about what they need to stabilize and 
develop there. So, one area where I think you'll see a lot more 
of this here is the concentration of these effects, 
concentration of these resources, at the district level.
    The second is, there'll be a big push this year to expand 
funding and nail down funding for the longer term. Not only has 
the United States done that for the last 2 years, some of our 
allies have, too, and we'll probably have a major donors 
conference this year, once the Afghan national plan is 
finished. They look continuously to bring in other donors. I 
say many countries have been responses--responsive, and I think 
the goal this year is to keep that up and to bring in some 
others.
    Effort focused on better coordination of international 
assistance. The Afghans have complained that they have to--you 
know, 62 different kinds of forms to get projects, and things 
like that. And we're trying to put ourselves all under a better 
yoke, in terms of working together to support the Afghan 
Government.
    And, finally, I'd note several of the reports that we've 
seen recently talk about Pakistan and the situation in 
Pakistan. That is very important to us. We understand the 
militants have been able to hole up in the tribal areas and 
push out from there, push into Afghanistan, push into Pakistan. 
There's a lot more coordination going on. For several years 
now, we've had tripartite military efforts, U.S. commanders, 
NATO commanders, and the Pakistanis and the Afghans getting 
together, that we feel that's been a very productive process, 
but we've also seen, I think, with President Karzai's recent 
visit to Islamabad, a very positive set of changes in the 
Pakistan-Afghan relationship, recognition on both their parts 
that they faced a common threat and an opportunity to do more 
and go forward, both on the popular level, with things like the 
jirgas that were held last August, but also the government-to-
government and the military level. So, we'll be pushing 
forward, in terms of cooperation against the insurgents along 
that border.
    So, that's a basic overview of what we're doing, why we're 
doing it, and what we intend to do this year. So, I'd be glad 
to take any questions you have, after my colleague speaks about 
narcotics.


    [The prepared statement of Ambassador Boucher follows:]


 Prepared Statement of Hon. Richard A. Boucher, Assistant Secretary of 
    State for South and Central Asian Affairs, Department of State, 
                             Washington, DC

    Mr. Chairman, thank you for the opportunity to address you and the 
committee today regarding progress in carrying out U.S. policy toward 
Afghanistan.
    Let me begin by sharing a few strategic thoughts about our 
involvement in Afghanistan to help shape our discussion today: Wh y are 
we there and what strategy are we pursuing to achieve these goals?
    After 9/11 the United States, joined by many international 
partners, toppled the Taliban regime to never let Afghanistan become a 
sanctuary for terrorists again. Our goal is to defeat the insurgency 
and return Afghanistan to long-term stability based on Afghan rational 
sovereignty, democratic principles, and respect for human rights. We 
have achieved many successes in our fight against the Taliban and al-
Qaida, but we have not won yet. Our goal requires a large commitment 
from us and our allies; and will continue to for a considerable time.
    This commitment is an investment, because Afghanistan is more than 
just a theater to fight enemies. It is a place of strategic 
opportunity. Afghanistan offers a rare opportunity to win a close, 
loyal, democratic ally in the heart of a continent with unmatched 
political and economic capital and potential. Afghanistan is located at 
the crossroads of countries that are the focus of our foreign policy 
efforts and has the potential of becoming the linchpin for regional 
integration in south and central Asia. The transformation from an 
essentially ungoverned territory into a land bridge between the 
hitherto virtually disconnected south and central Asian regions 
provides new opportunities for growth in trade and security. We have 
the opportunity to help the Afghans in what is also their fight for 
long-term stability respectful of democratic principles and respect for 
human rights.
    Concurrent with security efforts to fight insurgent groups and 
train the Afghan National Security Forces are the equally crucial 
efforts to improve governance and prosperity. We're seeing support for 
insurgency decline and support for the Afghan Government increase in 
areas where Afghans are provided access to fair government institutions 
and economic livelihoods.
    It is against this strategic background that I want to discuss the 
individual areas of our Afghanistan engagement. We have made progress 
on a broad range of fronts. Particular achievements include economic 
growth, strengthened local and national institutions, and successes on 
the battlefield. But our job is not finished, and important challenges 
remain, most prominently in the fields of terrorism, narcotics, human 
rights, and corruption.
                                security
    I am pleased to report that our counterinsurgency effort has shown 
the way to success. We have made considerable progress against the 
Taliban insurgents. U.S.-led NATO forces in the east, have successfully 
married security with governance and reconstruction in a full-spectrum 
counterinsurgency effort. We are seeing Afghan army and police, 
governors and citizens resist the Taliban. In the south, Afghan and 
allied forces have taken the fight to the Taliban, recently recapturing 
the restive district of Musa Qala and helping establish Government of 
Afghanistan presence. We and our NATO and Afghan partners continue to 
work together to consolidate and extend those gains by bringing in 
governance and development.
    Due to th eir inability to win on the battlefield, the Taliban have 
resorted to malicious tactics such as improvised explosive devices, 
suicide bombers, and directly targeting foreign civilians. The attack 
on the Serena Hotel in Kabul on January 14 is but the most recent 
example. We are also battling a Taliban communications strategy that 
reflects neither the truth nor any respect for the local population.
    The United States and our allies in Afghanistan share the desire to 
see the Afghan Government assume greater responsibility for its own 
security. We have had success in building Afghanistan's security 
forces. At this point, we have already trained and equipped more than 
49,000 Afghan National Army personnel. The Afghan National Army is a 
respected institution in Afghanistan and the Afghans show an increasing 
capacity to plan and lead independent military operations.
    The transition from a system of militias loyal to local commanders 
and warlords, to a professionally led force that respects and enforces 
rule of law and human rights will take time. We have a sound program in 
place for developing the Afghan police and to increase policing 
capacity at the district level. Through better training and leadership, 
improved pay and electronic distribution of salaries, and provision of 
better equipment, we are working to ensure that the police are ready 
and motivated to do their jobs.
    We are increasing American support to the NATO-led International 
Security Assistance Force with more troops and resources because we are 
committed to NATO's mission. The United States will deploy an 
additional 3,200 marines to Afghanistan this spring; 2,200 marines will 
be deployed to Regional Command South under command of the 
International Security Assistance Force. The remaining 1,000 marines 
will train Afghan National Security Forces.
    Success is possible, but not assured. Therefore, the international 
community needs to continue and expand its efforts. The greatest threat 
to Afghanistan's future is abandonment by the international community. 
As Secretary Gates has made clear in testimony here and in other public 
comments, meeting the requirements identified by NATO commanders 
remains a challenge. The mission in Afghanistan needs more troops, 
equipment (such as helicopters), and trainers for the Afghan army and 
police. We expect more from our NATO allies; we have promised the 
Afghan people to assist in stabilizing their country, and we must give 
NATO personnel the tools they need to make good on that promise. Too 
few of our allies have combat troops fighting the insurgents, 
especially in the south. As we look to the upcoming NATO summit in 
Bucharest in April, we will continue to work with our 25 NATO allies 
and l3 additional partners in Afghanistan to meet the requirement to 
complete the NATO mission.
                               governance
    Lasting stability will only come when the Afghan Government can 
step in to fill the void that is left when an area is cleared from 
insurgents. We must, therefore, focus on the less tangible, but equally 
as critical, goal of extending the government's influence nationwide. 
In order to persuade them to side with the government against the 
insurgents, Afghans must be given more visible evidence that their own 
government has the ability to deliver basic services, provide rule of 
law, uphold human rights, and extend economic opportunities 
effectively, transparently, and responsibly in all corners of the 
country. Our foreign assistance programs foster programs big and small 
to help achieve the objective of visible and viable governance at the 
local level. We are funding local projects developed by community and 
provincial councils that play an increasing role responding to the 
people's needs. We are also helping the Ministry of Education create a 
network of public service academies and the Ministry of Justice to 
promote rule of law at the local level.
    We support honest and competent governors that respond to the needs 
of the people and respect human rights. In this context, we welcome the 
establishment of the Independent Directorate for Local Governance which 
has already achieved encouraging results. We hope that this institution 
will continue to be instrumental in fostering people's confidence in 
the state.
                             reconstruction
    Reconstruction and development work remains on track in most of the 
country and the Afghan economy continues to grow at impressive rates, 
with licit Gross Domestic Product more than doubling since 2002. Thanks 
in large part to our colleagues in the U.S. Government, the lives of 
millions of Afghans have improved considerably. In 2001, just 8 percent 
of Afghans had access to some form of health care; now, more than 80 
percent of the population has access to medical care. Almost 11,000 
medial professionals have been trained. More than 680 hospitals and 
clinics have been built and outfitted. For the first time in 10 years, 
the grain harvest was sufficient to meet consumption needs inside 
Afghanistan. In 2001, 900,000 children--mostly boys--were enrolled in 
school; now, there are more than 5 million and more than 1.5 million of 
these (34%) are girls and young women. Since 2001, there has been a 22-
percent decline in mortality rates for infants and children under 5 
years of age--we are saving 85,000 more young lives every year. Two 
years ago only 35 percent of children were being inoculated against the 
polio virus. Now more than 70 percent of the population--including 7 
million children--are inoculated. In 2001, there was a dysfunctional 
banking system. Now, Afghanistan has a functioning Central Bank with 
more than 30 regional branches and an internationally traded currency. 
There are now 3 mobile telephone companies serving over 3.5 million 
subscribers--this is almost 11 percent of the population. In 2001, 
there were 50 kilometers of paved roadway in the country, now there are 
more than 4,000 kilometers of paved roads.
    We plan to allocate close to $600 million of our fiscal year 2008 
base foreign assistance budget to reconstruction efforts in 
Afghanistan, which will support programs ranging from education, 
health, agriculture, infrastructure, and Provincial Reconstruction 
Teams. In the fiscal year 2008 supplemental, we have also requested 
about $500 million to build roads and power infrastructure and another 
$50 million to expand our successful health and education programs. 
Working hand in hand with the Government of Afghanistan, these 
initiatives are critical tools to connecting the Afghan people to their 
government and transforming the environment to one in which they have 
the basic services necessary to prosper.
                       democracy and human rights
    Our support for democratic stability and human rights in 
Afghanistan is also paying off. The Afghan Parliament is assuming its 
appropriate role as a deliberative body. We attach great importance to 
the upcoming Presidential and parliamentary elections because having 
free, fair, and transparent elections is an essential part of 
Afghanistan's transition to a full democracy. Given that voter 
registration will take about a year to complete, it needs to begin 
soon. The Afghans will have to make key decisions on election dates and 
the electoral system. In the fiscal year 2008 supplemental, the 
President requested $255 million for critically needed democracy and 
election-support programs.
    There is now a renewed focus on rule of law and the justice sector. 
We have established a public-private partnership with American law 
firms and schools to help advance rule of law and establish a strong 
core of legal professionals. We believe a transparent and fair justice 
system is critical to ensuring that the people of Afghanistan respect 
the authority of the central government and to ensuring that the rights 
of Afghan citizens are protected.
    The development of an independent, active Afghan media has been 
remarkable. However, there is still room for improvement. We are 
concerned with the increase in detention of journalists and government 
interference in media coverage over the past year. Also troubling were 
the deaths of two female journalists last summer and the recent death 
sentence of a young Afghan journalist. We are working with the Afghan 
Government and the Afghan Parliament to emphasize the importance of the 
new media law currently in the legislative process meeting 
international standards regarding, in particular, the legal protection 
of journalists and removing vague content restrictions, establishing a 
fair, independent licensing system and an independent body to govern 
Radio Television Afghanistan.
    A peaceful and stable Afghanistan cannot be secured without the 
active political and economic involvement of women. While women's 
political participation has gained a degree of acceptance, women who 
are active in public life continue to face disproportionate threats and 
violence. Furthermore, women and girls continue to face severe 
discrimination and both formal and customary justice mechanisms that 
fail to protect their rights. The U.S. is firmly committed to support 
for Afghan women and integrates women's issues into virtually all of 
its programs, aiming to increase female political participation, 
education, economic opportunities, and their role in civil society.
                            counternarcotics
    Though the number of poppy-free provinces doubled in 2007, total 
opium cultivation in Afghanistan grew significantly, The Afghan 
Government and the international community are alarmed about this 
development. Afghanistan's poppy production fuels corruption, narcotics 
addiction, and is a significant source of financing for criminal and 
insurgent groups. In order to prosper, Afghanistan must rid itself of 
the opium poppy. President Karzai and his top leader recognize this.
    Countering poppy growth requires a multifaceted approach. We are 
pursuing precisely such an approach with our five pillar strategy 
involving public information, alternative development, law en 
forcement, interdiction, and eradication. We are reinforcing the 
message that poppy cultivation is immoral, illegal, and un-Islamic. We 
are helping farmers to gain access to other means to feed and clothe 
their families--access to alternative crops and other means of 
livelihood, to roads that will allow them to move their crops to 
market, to advice concerning markets for their new crops and to 
legitimate sources of credit. We are also helping the Afghan Government 
to increasingly provide cre dible law enforcement, interdiction, and 
eradication. The disincentives for poppy cultivation must be bigger 
than the potential profit. The credibility of our counternarcotics 
efforts must include making the risks of growing poppy unacceptable.
    Local governance structures and counternarcotics are closely 
interconnected. Where government has control and has placed good 
administrators, poppy production is down. Where the insurgency rages, 
poppy production is up.
                        relations with pakistan
    The Afghanistan and Pakistan bilateral relationship and improved 
coordination of border surveillance activities along the Durand Line is 
crucial for stemming the cross-border flow of insurgents and 
eliminating their safe havens in Pakistan's Federally Administered 
Tribal Areas. Afghanistan's relations with Pakistan moved forward in 
2007 with several summits, the productive August bilateral peace jirga 
in Kabul, and President Karzai's successful visit to Islamabad in late 
December. Both sides ageed at the August peace jirga to hold routine 
minijirgas. Pakistan has offered 1,000 scholarships to Afghans in a 
good step to increasing positive connections. Current political events 
in Pakistan may divert the attention of the Pakistan army from 
combating extremism in the FATA, however, close military cooperation 
with Pakistan is still key to the success of U S. strategic goals in 
the region.
    We continue to encourage the Government of Pakistan to take 
sustained and aggressive actions against violent extremists. At the 
same time we recognize that a purely military solution is unlikely to 
succeed. We therefore strongly support the Government of Pakistan's 
efforts to implement a comprehensive and long-term strategy to 
combating terrorism and eliminating violent extremism in the border 
regions, which include the Federally Administered Tribal Areas, parts 
of the Northwest Frontier Province, and Baluchistan. We are committed 
to supporting this initiative to bring economic and social development 
and effective governance, thereby rendering these remote areas 
inhospitable to violent extremists, We are also looking forward to 
working with Pakistan's new civilian government on this important 
initiative after the February 18 parliamentary elections.
    Along the Afghan side of the border as well, we're seeing signs 
that local support for terrorism is declining as a direct result of our 
comprehensive efforts on security and reconstruction. Improvements in 
roads leading to Pakistan reap economic, social, and security benefits. 
But they also make it easier to identify insurgents crossing the 
border. While some of the fighters along the Pakistani side of the 
border intend to cross over into Afghanistan to attack U.S. and NATO 
military forces, their main goal now seems to be the expulsion of the 
Pakistani military from the Tribal Areas and the imposition of sharia 
law in the areas they control.
                           concluding remarks
    In conclusion, Mr. Chairman, I would like to t hank you for this 
opportunity to appear before this committee. We at the State Department 
appreciate the committee members' interest and support of this most 
important endeavor. We and our allies must recognize that success in 
Afghanistan is our only option. I am convinced that we are a ll moving 
in the right direction and that with sustained international support 
Afghanistan can look forward to a stable, democratic, and more 
prosperous future so that this country will never again fall prey to 
extremists and terrorists.

   STATEMENT OF HON. DAVID T. JOHNSON, ASSISTANT SECRETARY, 
INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Mr. Johnson. Mr. Chairman, Senator Lugar, and distinguished 
members of the committee, like Ambassador Boucher, I appreciate 
the opportunity you're providing us to discuss our efforts to 
assist Afghanistan, and, in my case, to curb the production and 
trafficking of illegal narcotics. I'm going to focus my remarks 
on how we've adjusted our strategy, in light of the current 
situation, as we enter the 2008 poppy growing season.
    I've submitted a written statement, for the record, that 
I'll summarize.
    Mr. Chairman, the scope of Afghanistan's drug problem is 
hard to overstate. In 2007, Afghanistan produced 93 percent of 
the world's opium poppy, a record high in the second year 
standing. Cultivation was particularly pronounced in the south, 
where the insurgency is strong and government authority weaker.
    Afghanistan's narcotics industry fuels insecurity, 
undercuts reconstruction efforts, and hinders the development 
of the legitimate economy. Notwithstanding these challenges, we 
did observe significant poppy reductions in the north of the 
country, including in the traditional poppy-growing provinces 
of Balkh and Badakhshan. As Ambassador Boucher mentioned, 
during 2007 the number of poppy-free provinces more than 
doubled, from 6 to 13. To us, these trends demonstrate that 
counternarcotics success can be achieved where there is 
security, political will, and the ability to provide 
alternatives.
    Early indications for the 2008 poppy-growing season show a 
deepening of last year's trends. In the province-by-province 
map to my left, the provinces in the shade of red indicate 
where we expect substantial or moderate cultivation. Those in 
blue are where we expect to have little cultivation or where we 
expect to see significant decreases in poppy cultivation, such 
as in Nangarhar. As this demonstrates, the phenomenon of drug 
cultivation is not uniform across Afghanistan. In large 
sections in the north and east, including some areas bordering 
Pakistan, Afghanistan's made significant progress in reducing 
poppy cultivation. The problems become much more localized and 
concentrated in the south, in provinces such as Helmand and 
Kandahar, where insecurity persists.
    Our revised counternarcotics strategy, released in August, 
seeks to consolidate and expand upon gains throughout the 
north, while addressing expanding cultivation in a very 
challenging security environment in the south.
    Our revised strategy aims, dramatically, to enhance 
incentives through the provision of additional development 
assistance, while simultaneously strengthening the 
disincentives through efforts such as interdiction, 
eradication, and law enforcement. We have, for instance, 
strengthened the good-performers initiative that aims to 
deliver rapid, high-impact development assistance directly to 
those communities that have been successful in reducing or 
eliminating opium poppy. The enhancements further support the 
U.S. Agency for International Development's well-established 
Alternative Development Program. Incentives such as these must 
be balanced with strong disincentives, such as interdiction, 
eradication, and, most of all, an effective criminal justice 
system.
    Assisting the Government of Afghanistan in improving 
interdiction capabilities is among our highest priorities. The 
Drug Enforcement Administration provides training, mentoring, 
and investigative assistance to the counternarcotics police of 
Afghanistan, and it supports three specially vetted units that 
investigate and pursue key high-value targets.
    According to the Afghan Government statistics, in 2007 the 
counternarcotics police of Afghanistan seized 39 metric tons of 
opium, 4 metric tons of heroin, arrested 760 individuals for 
trafficking, and destroyed 50 drug labs. Eradication is another 
critical component of our counternarcotics strategy. Based on 
its experience in other countries, the U.N. estimates that 25 
percent of Afghanistan's poppy crop must be eradicated in 
order, effectively, to deter the population from growing poppy. 
To promote eradication that is effective and equitable, the 
U.S. Government strongly supports nonnegotiated force-protected 
eradication.
    The U.N. has reported that poppy cultivation is no longer 
associated with poverty in Afghanistan. The poppy fields in the 
south are largely owned by wealthy drug lords and, in some 
instance, corrupt officials. The benefits of this policy, of 
reducing financial benefit to insurgents and corrupt officials 
that enable a climate of corruption, far outweigh the potential 
loss of the support of a small percentage of the population.
    To develop the ability of the nascent Afghan criminal 
justice sector, the Departments of State and Justice are 
training a specially vetted task force of Afghan judges, 
prosecutors, and investigators to try mid- and high-value 
narcotics traffickers before the Counternarcotics Tribunal of 
Afghanistan. Since that Afghan-led task force became 
operational in May 2005, it's prosecuted over 1,200 cases, 
arrested over 1,600 defendants, and seized more than 38 metric 
tons of opium.
    Mr. Chairman, again, I appreciate the opportunity to appear 
before you and your colleagues. I welcome your feedback and 
look forward to the discussion.
    Thank you.


    [The prepared statement of Mr. Johnson follows:]


   Prepared Statement of Hon. David T. Johnson, Assistant Secretary, 
    Bureau for International Narcotics and Law Enforcement Affairs, 
                  Department of State, Washington, DC

    Mr. Chairman, Senator Lugar, and other distinguished members of the 
committee, thank you for the opportunity to come before you to discuss 
our efforts to assist Afghanistan in curbing the production and 
trafficking of illegal narcotics and to enhance the ability of the 
Afghan National Police (ANP) to provide public security throughout 
Afghanistan. These are two of our most critical missions in Afghanistan 
today. My testimony will provide you with an update on counternarcotics 
and police training activities facilitated by the Department of State's 
Bureau for International Narcotics and Law Enforcement (INL), in close 
collaboration with the Government of Afghanistan, the interagency 
community, and our international partners, since I last appeared before 
this committee in September 2007. In particular, I would like to focus 
my remarks on how we have adjusted our strategy in light of new 
realities and as we enter the 2008 poppy growing season.
                       current status and trends
    The scope of Afghanistan's drug problem cannot be overstated. 
According to the U.N., in 2007 Afghanistan produced 93 percent of the 
world's opium poppy, which was a record high for the second year in a 
row. Total poppy cultivation increased by 28,000 hectares over 2006 
levels, which accounts for an increase of 17 percent in land under 
cultivation. Cultivation was particularly pronounced in the south of 
the country where the insurgency is strong and government authority is 
weak, with the southern province of Helmand producing over 50 percent 
of the country's opium on its own. It is now clear that Afghanistan's 
narcotics industry feeds a troubling cycle of insecurity wherein drug 
money fuels insecurity by assisting the insurgency, undercuts 
international reconstruction efforts, and hinders the development of 
the legitimate economy.
    Despite these challenges, U.N. surveys showed significant poppy 
reductions in the north of the country, including in the traditional 
poppy-growing provinces of Balkh and Badakhshan. During 2007, the 
number of poppy-free provinces more than doubled from 6 in 2006 to 13 
of Afghanistan's 34 provinces in 2007. These trends demonstrate that 
counternarcotics success can be achieved where there is security, 
political will, and the ability to provide alternative development 
opportunities.
    Early indications for the 2008 poppy growing season show a 
deepening of the previous year's trends: Sustained reductions in poppy 
cultivation in the north and east of the country will likely be offset 
by increases in the insecure south. We anticipate that Nangarhar 
province, where cultivation of poppy more than doubled from 2006 to 
2007, will demonstrate a dramatic decrease--perhaps as much as 50 
percent--in poppy cultivation in 2008 due in large part to the 
successful counternarcotics efforts of its Governor. If this 
expectation proves true, it would demonstrate the power of political 
will even in areas where drug traffickers operate and insecurity 
thrives.
           improvements to the u.s. counternarcotics strategy
    In August 2007, the ``U.S. Counternarcotics Strategy for 
Afghanistan'' was unveiled, and sets forth the USG's efforts to achieve 
short-term and long-term success in the fight against narcotics. The 
strategy maintains the basic framework of our comprehensive five pillar 
approach to counternarcotics--which includes public information, 
alternative development, eradication, interdiction, and law enforcement 
and justice sector reform components--but calls for several key 
improvements to better address changing trends in cultivation, the 
security context, the political climate, and economic development 
requirements. In particular, we aim to dramatically enhance incentives 
for participation in licit livelihoods through the provision of 
additional development assistance, while simultaneously strengthening 
the disincentives in participating in all facets and levels of the 
narcotics industry through increased interdiction, eradication, and law 
enforcement. The complexity of the drug problem in Afghanistan demands 
a balanced counternarcotics approach that melds deterrence, prevention, 
and economic development assistance.
    To advance this strategic refinement, the Department of State is 
actively working with the Government of Afghanistan and our allies to 
provide increased development assistance to Afghans who live in areas 
with high levels of poppy cultivation and who have demonstrated 
progress in counternarcotics. One vital component of this strategy is 
the implementation of a strengthened Good Performers Initiative (GPI) 
which is a counternarcotics incentive program designed to deliver high-
impact development assistance directly to those communities leading the 
fight against poppy cultivation in Afghanistan.
    Established in 2006 by the Government of Afghanistan with financial 
support from the United States ($35 million committed to date) and the 
United Kingdom ($6.5 million committed to date), the GPI initially only 
rewarded poppy-free provinces with funds for development assistance. 
With sustained encouragement from the United States, President Karzai 
expanded the terms of the initiative in November 2007 to provide GPI 
assistance to provinces that achieve net poppy reductions of over 10 
percent as well as those that have taken extraordinary counternarcotics 
measures but did not meet the criteria for an award. To date, 17 
provinces are eligible for or have received GPI development assistance 
totaling more than $16 million. GPI projects currently underway include 
irrigation projects; provision of agricultural equipment; and the 
construction of greenhouses, university buildings, information 
technology training centers, and girls' schools.
    The enhancements made to the Good Performer's Initiative further 
support the U.S. Government's well-established alternative development 
program in Afghanistan, which is led by the U.S. Agency for 
International Development (USAID). During FY 2007, nearly $229 million 
in funding was allocated for USAID-led alternative development 
initiatives, which included efforts to implement a rural finance 
program to provide credit to farmers and small- and medium-sized 
enterprises, to create overseas markets for Afghan agricultural 
exports, to provide technical and material assistance to farmers, to 
establish economically viable infrastructure to produce and move licit 
goods to market, and to administer cash-for-work programs. USAID has 
been particularly successful in organizing a series of agricultural 
fairs, which encourage public-private partnerships to advance licit 
agriculture in high-poppy cultivation areas, including Helmand, 
Nangarhar, and Badakhshan.
    Incentives such as these must be balanced with strong 
disincentives--namely interdiction, eradication, and a viable justice 
sector--to deter drug traffickers and the wider public from 
participating in the narcotics industry. Although insecurity, porous 
borders, and mountainous terrain make interdiction a particular 
challenge in Afghanistan, the Drug Enforcement Administration (DEA) is 
working with the Departments of State and Defense to help the GOA 
improve its interdiction capability by strengthening the 
Counternarcotics Police of Afghanistan (CNPA). DEA provides training, 
mentoring, and investigative assistance to the CNPA and supports three 
specially vetted CNPA units that investigate and pursue high-value 
targets. DEA, with DOD and State Department support, is planning to 
further expand the Afghan Government's efforts to break major 
trafficking groups that are operating in outlying and border provinces.
    Eradication, while controversial and difficult, is a critical 
component of our counternarcotics strategy and is essential to ensuring 
sustainable progress in democracy, economic reform, and rule of law. 
Based on the experiences of other countries, the U.N. estimates that 25 
percent of Afghanistan's poppy crop must be eradicated in order to 
effectively deter poppy farmers, and those who support them, from 
planting poppy in the future. Past efforts by the Afghan central 
government's Poppy Eradication Force (PEF) showed that negotiated 
eradication, in which PEF leaders negotiate with local leaders over 
which poppy fields to eradicate, allowed for undue political influence 
and an inconsistent application of Article 26.6 of Afghanistan's 
December 2005 Counter Narcotics Law, which subjects all illicit drug 
cultivation--whether you are a wealthy landowner with connections to 
power or a poor farmer--to the risk of destruction without 
compensation. To this end, the U.S. Government strongly supports PEF 
engagement in nonnegotiated eradication supported by adequate force 
protection. If the Afghan Government chose to pursue this strategy, it 
would instill a heightened degree of risk into the decision to 
cultivate poppy and have the added effect of demonstrating the reach of 
the central government in areas where it has struggled to consolidate 
its power to date.
    Just as the security context is closely linked to the narcotics 
industry in Afghanistan, we strongly believe that the State 
Department's foreign policy counternarcotics mandate, which includes an 
eradication component, is closely linked to wider U.S. Government 
counterinsurgency objectives. A growing body of evidence indicates the 
presence of a symbiotic relationship between the narcotics trade and 
the antigovernment insurgency, most commonly associated with the 
Taliban. Narcotics traffickers provide revenue and arms to the 
insurgency, while the insurgents provide protection to growers and 
traffickers and prevent the government from interfering with their 
activities. In recent years, poppy production has soared in provinces 
where insurgents are most active--five relatively higher income, 
agriculturally rich provinces along the Pakistan border account for 70 
percent of Afghanistan's 2007 poppy production with over 50 percent in 
Helmand Province alone. Our strategy faces this challenge head-on, 
seeking to starve the insurgency of the drug money that fuels it.
    Some have suggested that increased eradication would have the 
effect of pushing ``farmers with no other source of livelihood into the 
arms of the Taliban without reducing the total amount of opium being 
produced.'' \1\ The facts do not support this view. The poppy fields in 
the south--where poppy cultivation and the insurgency are most acute--
are largely owned by wealthy drug lords and, in some instances, corrupt 
officials. Recent aerial reconnaissance missions have observed 
organized and industrialized poppy farming in broad, open fields. 
Helmand province is also a significant recipient of international 
assistance. In fact, if Helmand were a separate country, it would be 
the sixth largest recipient of bilateral USAID assistance in the world. 
Pursuing nonnegotiated, force-protected eradication would primarily 
impact these well-financed narcofarmers and provide a blow to the 
insurgents that protect them in the process. The benefits of this 
policy--of reducing financial benefit to insurgents and corrupt 
officials that enable a climate of corruption--far outweigh the 
potential loss of support of a small percentage of the population.
---------------------------------------------------------------------------
    \1\ Richard Holbrook, ``Still Wrong in Afghanistan,'' the 
Washington Post, January 23, 2008, A19.
---------------------------------------------------------------------------
    Advances in interdiction and eradication will stall without 
simultaneous efforts to develop the ability of the nascent Afghan 
justice sector to investigate, arrest, prosecute, and incarcerate those 
guilty of narcotics violations. The Departments of State and Justice, 
in collaboration with other international donors, are working to 
support the Afghan Government's Criminal Justice Task Force (CNTF), 
responsible for narcotics prosecutions, and the Counternarcotics 
Tribunal (CNT), which has exclusive national jurisdiction over all mid- 
and high-level narcotics cases. While much work remains, progress has 
been made to help Afghanistan build its justice system from the ground 
up. We are in the process of expanding training efforts for provincial 
and district-level prosecutors to assist them in developing narcotics 
cases to be transferred to Kabul and tried before the CNT. None of 
these counternarcotics efforts would be possible without the presence 
of a capable and independent Afghan National Police (ANP) force, which 
I would now like to discuss.
                      afghan national police (anp)
    In 2003, the United States and the international community began a 
program to increase the overall capacity of the Afghan National Police 
(ANP) and its ability--under the direction of the Ministry of Interior 
(MOI)--to provide law enforcement throughout Afghanistan. To this end, 
the Department of State's Bureau for International Narcotics and Law 
Enforcement Affairs and the Department of Defense's Combined Security 
Transition Command--Afghanistan (CSTC-A) are working together and with 
our international partners to train, equip, and mentor the Afghan 
police and reform the Afghan Ministry of Interior.
    Together, we have made substantial progress in developing the 
rosters, the capabilities, and the reach of the ANP. Many of the 74,000 
ANP currently deployed--including more than 25,000 in 2007--have 
completed basic, advanced, and/or specialized training at one of seven 
Regional Training Centers (RTCs) in the provinces or the Central 
Training Center (CTC) in Kabul. To assist in the development of law 
enforcement skills, approximately 500 U.S. civilian police advisors 
work alongside Afghan police units at RTCs at the provincial and 
district level and within the MOI.
    In addition to the large number of ANP already trained and 
mentored, the efforts of our civilian police advisors have yielded 
other concrete successes in Afghanistan, including:

  <bullet> A greater understanding of the operational capabilities and 
        requirements of the ANP, which led to the creation of 
        specialized civil-order police units and domestic violence 
        (family response) police units. The civil order police now 
        serve as the bedrock of the Focused District Development (FDD) 
        plan to enhance district-level law enforcement, while the 
        family response units provide a unique and critical capacity 
        for the ANP to extend their reach to the female population;
  <bullet> Recognition of the importance of female police, which has 
        led to greater efforts to recruit female ANP and the 
        establishment of the Women's Police Corps (WPC) with facilities 
        designed specifically for training female police;
  <bullet> Development of a specialized border security curriculum for 
        the Afghan Border Police (ABP); and
  <bullet> Significant improvements to the ANP's investigative 
        techniques for tracking the perpetrators of crime.

    Despite these and other successes, considerable challenges remain 
in establishing a professional MOI and a fully independent and 
functional ANP. Similar to the challenges facing our counternarcotics 
mission, persistent insurgent activity, especially in southern 
Afghanistan has routinely placed the ANP in high-threat environments 
that demand skills and operations far more complex than those required 
of community police. ANP are regularly targeted by insurgents and 
suffer a high casualty rate. This environment, and the resulting high 
mortality rate for ANP, continues to have a negative impact on the ANP 
and on the MOI's ability to recruit and retain qualified personnel.
    To overcome these challenges and further enhance the effectiveness 
and operational independence of the ANP, the highest priority for our 
police advisors in the coming months is the successful implementation 
of the Focused District Development (FDD) plan, which is a new and 
holistic approach to train, equip, and mentor the ANP. FDD was designed 
by the Government of Afghanistan, the United States, and international 
partners to be a Ministry of Interior-led, cross-sectoral approach to 
training, equipping, and mentoring Afghan Uniformed Police (AUP) at the 
district level. In each district undergoing FDD, four primary 
activities occur:

  <bullet> A needs and skills assessment of district AUP is conducted;
  <bullet> Collective training and equipping of district AUP occurs at 
        RTCs based on the assessment findings;
  <bullet> Comprehensive mentoring of district AUP follows training; 
        and
  <bullet> Concurrent development of the judicial and prosecutorial 
        sectors is assessed and implemented in that district.

Each full cycle of FDD is expected to take 6 to 8 months, per district.
    The first FDD cycle--currently being implemented in seven districts 
throughout Afghanistan--began in December 2007, and is expected to be 
completed in April 2008. The MOI is working with the international 
community to plan for future iterations of FDD, which will be rolled 
out on a regular basis. Assessments for the second FDD cycle are 
currently underway in five districts.
    While comprehensive findings and outcomes of FDD will not be 
available until late spring 2008 at the earliest, preliminary reports 
on the program are positive. Thus far, U.S. civilian police mentors and 
trainers report that training is proceeding on track and anecdotal 
evidence has indicated that the improved student-mentor ratio at the 
RTCs has led to a more positive learning environment for the ANP. Also, 
the Afghan Civil Order Police (ANCOP) has been effective in maintaining 
district security and has been well-received by local populations. 
Given the vital importance of the police to ensuring security and the 
rule of law, we will continue to work closely with CSTC-A, the 
Government of Afghanistan, and our international partners to look for 
creative ways to improve the police program and ensure its continued 
success.
                               conclusion
    In conclusion, I would like to thank you for the opportunity to 
appear before the committee today. Please know that I will continue to 
strive to keep you fully informed of our progress and our setbacks in 
these important missions, and I certainly welcome your thoughts and 
advice.

    The Chairman. Thank you, gentlemen.
    Seven-minute round, is that OK?
    Well, to listen to you two guys, we're doing really well, 
things are going really well in Afghanistan. And I--that's 
encouraging.
    But, let me ask you, 38 metric tons seized, how many 
produced?
    Mr. Johnson. Sir, it's a fraction of the amount produced.
    The Chairman. Like what? One percent?
    Mr. Johnson. No; I think it's substantially more than that, 
but not----
    The Chairman. Well, what do you think? Give me an estimate.
    Mr. Johnson. I believe, about 400. So, I'd--I would say, in 
the estimate--in the range of maybe 10 percent.
    The Chairman. And the criminal justice system, is it 
functional?
    Mr. Johnson. It is beginning to function, but it is not 
functioning in the way that we would expect in a----
    The Chairman. It's not even remotely functional, at this 
point, is it?
    Mr. Johnson. ``Remotely,'' I would not describe--it is--I 
would describe it more than ``remotely functioning,'' but it 
is--it is in the process of being established.
    The Chairman. Yeah. It isn't functioning. That would be a 
fair statement, isn't it true? I mean, there are some places 
where it may be functioning, but essentially it's not a 
functioning criminal justice system.
    Mr. Johnson. Well, I did mention that there have been over 
1,200 convictions with--for this special court, so there is a 
system that is producing some results, but it is embryonic.
    The Chairman. Ambassador Boucher, you indicated that we're 
making progress against the Taliban. How does that square with 
the fact they control a lot more of the country?
    Ambassador Boucher. I don't--I don't think they actually 
control a lot more of the country. They operate in a lot of the 
country. But, we've seen areas where they've tried to settle 
down and establish control, we've seen several of those major 
areas taken away. Panjshir, near Kandahar, Canadian and Afghan 
operation early this--late 2006, early this year--that was one 
of their heartland places, and they're out of there now, and 
there are services being brought into that area, a lot of 
people--ordinary people moving back. So, I----
    The Chairman. Are we better off, relative to the Taliban, 
today than we were 2 years ago?
    Ambassador Boucher. We're better off, in terms of our 
ability to bring in the government and help them provide 
services throughout the country. We're not better off--we're 
better off, in terms of--they're not controlling places and not 
having so many concentrations where they can operate from. 
We're not better off, in terms of bombs, because they've been 
losing on the battlefield, they failed to achieve any of their 
objectives last year, except they've turned more and more to 
terror, and they've--they're able to go blow themselves up.
    The Chairman. So, we're losing more--right?--this year than 
last year.
    Ambassador Boucher. We've been out there, fighting a lot 
more, and yes, we've had more casualties this year.
    The Chairman. Yeah. The police, how would you rate their 
effectiveness?
    Ambassador Boucher. Very variable.
    The Chairman. Anyplace--tell me where it's real good.
    Ambassador Boucher. I think some districts--some places in 
the north, some districts in the south, where we've started 
this Focus Development, show a lot of promise. Police training 
has lagged behind all the other sectors. We've made a major 
push last year in budget and in effort. Now we've got a lot 
more good policemen coming out, we've got a lot more trained 
policemen, we've got a lot more focus on what needs to be done 
with the police, we've----
    The Chairman. The reports I've read----
    Ambassador Boucher [continuing]. Seen some of the reform in 
Ministry of Interior that's needed, but more is--more of that 
is yet to come.
    The Chairman. This discussion reminds me so much of the 
discussion about police in Iraq that Senator Hagel and I have 
had over the years. I don't--I've not found one independent 
report that suggests that they're anything other than a 
problem. Can you cite one for me?
    Ambassador Boucher. I'll tell you one thing. There was a--
it was the--a survey done last year that I think was reported 
by the BBC in December, and one of the things that really 
struck me was, people said they'd rather have bad policemen 
than no policemen at all. Now, that's certainly not our goal, 
but the fact----
    The Chairman. Well, it's been achieved.
    Ambassador Boucher [continuing]. That people who have 
policemen----
    The Chairman. We've achieved that, though. It may not be 
the goal. We've achieved it. [Laughter.]
    Ambassador Boucher. That was the case beforehand, sir. 
There were----
    The Chairman. It's the case right now. Look--look, you 
know, it's interesting, I--I thought this report by the--by the 
Afghan Research and Evaluation Unit--it's called ``Cops or 
Robbers''--the report ends with the following--and I'm not 
citing this as the only source; we're going to hear from two 
witnesses about this, as well--it says that it's time to 
clarify today's blurred vision on the role of police in 
Afghanistan and to achieve a consensus on a common vision, the 
strategy for developing a police force will operate as cops 
rather than as robbers. This is so much--I mean, such an echo 
of 4 years ago, 5 years ago in Afghanistan. The emphasis has 
been on numbers, not quality. The emphasis has been to rapidly 
ramp up the numbers of police, and----
    Well, I'm going to move on, in the minute or so I have 
left.
    With regard, Mr. Johnson, to the move against poppy 
production, how many of the drug lords have been arrested and 
tried and put out of business?
    Mr. Johnson. I mentioned, in the statement that I made, the 
number of arrests that have been made by--and the number of 
convictions. Now, ``drug lord'' is a--an indefinite term.
    The Chairman. No; it's not. No; it's not an indefinite 
term. You know there's at least a dozen identifiable people you 
know who are running these operations. If you don't know, we 
really have a problem. We have a gigantic problem if you don't 
know. You know. Have any of them been arrested?
    Mr. Johnson. Well, I think if you--we were going to be 
using the term ``kingpin,'' which is frequently used in this 
term, I don't think we have been yet successful in that--and 
arrested and convicted. The exception to that being that there 
have been some extraditions to the United States for trial 
here. I think all of those individuals are people that we would 
describe as significant players in the Afghan drug trade.
    The Chairman. Yeah. One last question on this. And there's 
a lot more I want to come back to. But, I--in speaking with the 
intelligence community, the military, almost every segment of 
our government involved with--having an input on dealing with 
eradication, nobody seems to think, including our NATO allies, 
that aerial spraying is a good idea. And you pointed out that 
you have reduced to--you have six fewer areas in which poppy is 
now being produced. How did you succeed there? Was it aerial 
spraying?
    Mr. Johnson. The way we made progress there was multifold, 
but it was through a forced eradication program in which we 
provided assistance. It was significantly----
    The Chairman. When you say ``forced eradication,'' what 
kind of ``forced eradication''? What was the----
    Mr. Johnson. On the ground--on-the-ground mechanical.
    The Chairman. Right.
    Mr. Johnson. It was through--it was significantly, and even 
largely, through local governing officials--in particular, 
governors who had the political will and had the security 
environment in which they could destroy poppy, themselves. And 
that----
    The Chairman. I think there's probably a lesson in that, 
isn't there? I mean----
    Mr. Johnson. Well, I think the lesson is, where you have--
that security and counternarcotics go hand in hand, that you 
can't have one without the other, and you can't do them 
sequentially, you have to do them together.
    The Chairman. Well, I--the military tells me that, if, in 
fact, aerial eradication was--is adopted as the favored method 
of eradication, which is--our Ambassador wants, very much--that 
that would require a heck of a lot more military resources than 
we have now. You're essentially flying crop dusters. This is 
something I've been involved in--with 30 years in the--on this 
issue, as you have, from the Judiciary Committee. And you're 
essentially flying crop dusters, what most people would think 
would be that, the eradicating these defoliant--this takes out 
the--and in order for that to occur successfully, you need 
helicopter gunships, you need protection for those aircraft, 
because they can be shot down. They can be shot down, some of 
then, just with small-arms fire. So, have you calculated what 
it would--what additional military resources, beyond the actual 
planes that would spray the defoliant, are needed in order to 
make--even if the decision is made that aerial eradication 
should be the major thrust of eradication, have you--have there 
been--is there a study or a calculation or a report that 
you've--that you've put together, what other assets you'd need?
    Mr. Johnson. Well, based on the consideration of this issue 
earlier, when we were considering whether or not it would be 
the right way to go, we have developed plans for this, 
including--in addition to the spray aircraft, which are lightly 
armored, as you mentioned. We have the helicopter already on 
the ground that provide security for the ground forced-
eradication program. So, they're there, and they are capable of 
providing this service, if it were needed.
    We have these aircraft there, because we need them for the 
helicopters for the ground program. They're also used to--for 
mobility for the police training program, for assisting in the 
development of judicial systems. So, those aircraft are on the 
ground already.
    The Chairman. Pretty well spoken for, right?
    Mr. Johnson. But, not any spray aircraft. We don't have the 
capability to do any spraying, and we don't plan to, because 
we've consulted with the Government of Afghanistan, and they--
--
    The Chairman. Oh, OK.
    Mr. Johnson [continuing]. Have said that they do not wish 
for us to do so.
    The Chairman. Good. All right. Thank you very much.
    I yield to the chairman.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I just want to explore a thought, which you mentioned, I 
think, Secretary Boucher, that there will be a donors 
conference after the Afghan national plan is completed, and 
that sounds like a very good idea. But, it just spurs, once 
again, my thinking, because I'm not sure that we have a plan 
for Afghanistan. I'm not certain we really have comprehension 
on this committee. And I suppose I want more reassurance that 
the administration knows more.
    Specifically, if were to use the model, in business, of a 
business plan of what works--how much capital is required, what 
kinds of activities are going to be required, what marketing 
strategy and so forth--sometimes business plans work and 
businesses thrive; but, in this particular case it appears to 
me that, of necessity, we've reacted to 9/11 and we have been 
in Afghanistan ever since. We have worked with NATO allies in 
Afghanistan. A great number of good things have happened in 
particular provinces. But, in--at the end of the day, despite 
assurances that the government has some degree of control over 
the country, most observers, going province by province, don't 
find that. Central government control is very limited. There is 
control by tribal leaders or those who had some leadership in 
the past in various places. Certainly, control is contested in 
many areas--in the south and in the east--and is not simply the 
problem of the drug lords and so forth, it's Taliban or, on 
occasion, even al-Qaeda supplementing their activities. So, day 
by day, we combat this. We have successes, we can report a 
number of things,--good things that happen. But, I'm hopeful 
the administration may come forward, working with the 
international community, to try to get some idea what sort of 
capital resources does this country need--a poverty-stricken 
place--to at least advance to a different level of potential 
economic activity and education. How much money to build the 
roads and the infrastructure so, in fact, the central 
government might have some possibility of actually reaching 
constituent populations? How much is going to be required for 
the training of an adequate army and police force? In other 
words, a cadre of civil servants who are involved. It's likely 
to be a very, very large sum. And, in addition to the money, 
how many personnel, whether they are military people of our 
country and others--NGOs, volunteers--are going to be required?
    Otherwise, what I suspect we're looking at a situation of 
transition here in which we do not have hearings like this, 
there'll be reports that there were some ups and downs last 
year, and so forth. But, at some point, the patience of our 
NATO allies, maybe even of the American people--our 
constituents--will say, ``We've done enough. These folks are on 
their own and will have to do their best.'' Now, some will 
counsel, ``We've been through this before.'' Withdrawal, after 
the last occasion, led to what some would say, a theater in 
which the Taliban made it possible for al-Qaeda to have the 
camps, and people attacked us. So, they would say, ``Here we go 
again, all the way back around.'' But, nevertheless, unless 
there is some plan as to why Afghanistan will ever be a 
different country, what, physically, is going to bring 
integrity to this situation? The model that has often been cast 
of democracy, with the gains for women, for students, for 
everybody--unless there is some goal out there, some overall 
plan, this situation is going to be a victim, at some point, of 
the politics of this country or others, and then we may lament 
this, but we will indicate that we gave it our best shot, we 
spent a good bit of money and troops and so forth.
    Now, what kind of overall planning--a comprehensive thing--
even if, at the end of the day, people say, ``Well, this is 
impossible, we just can't raise the cash, we can't get the 
people there,'' and, therefore, we then have a more limited 
goal, which will not be as satisfying, in terms of the 
integrity of the state and so forth--but, at this point, I 
don't see any parameters of this, and that's disturbing, and 
this is why I want some reassurance.
    Ambassador Boucher. Let me reassure you, sir. You've raised 
a lot of very important and substantial questions there. And I 
think the framework that you're coming from is the right one. 
We have to remember, this was one of the poorest countries in 
the world in the fifties, sixties, and seventies; it was on a 
par with sub-Saharan Africa, and then went downhill for 25 
years. When I first went there, in January 2002, the Afghan 
Government was 20 people sitting around a table. The Afghan 
treasury was an empty safe. There were 50 kilometers of roads. 
There were a few telephones, that didn't work. It's now one of 
the fastest growing cell phone markets in the world. It's got a 
road system that unifies the nation. It's got a government that 
works fairly well--better in some ministries than others--but 
is capable of providing education and wells and projects for 
people around the country. It's got an army that's credible and 
out in the field and fighting. It's got a police force that is 
reforming. It's not just quantity, it's quality, as well. A lot 
of what's being done with the police training is to reform it 
as we expand it.
    So, I see all these efforts. Nobody can tell me it's not 
going in a positive direction. What I see when I go to Kabul, 
you know, it's a--4 or 5 years ago, people were building 
housing, and they were furnishing houses. The shops that used 
to be in containers are now in buildings. You see school kids 
out, going to school. You see more lights at night than you 
ever did before. There is progress. It's going in the right 
direction.
    The question that you asked, though, is: How much does it 
take to finish the job all over the country, to really succeed? 
Last year, at the London conference--last year? Yeah, last 
year, at the London conference, the London compact and the 
Afghan strategy were laid out with the goals that had to be 
achieved in a timeframe between then and 2014, I think most of 
them were. That is being turned, increasingly, into an 
implementation plan, a development strategy that will go to the 
World Bank for vetting, about March of this year, and it will 
be based on that, that we expect to hold a donors conference, 
probably in the summertime--or beginning or end of this 
summer--to try to put money into the specific implementation 
steps needed to achieve those goals that have been laid out.
    On the military side, there have been targets set for 
military and police, requirements set, in terms of what needs--
who needs to be trained, the kinds of forces they need, the 
kind of, you know, air mobility the army needs, and really set 
those things.
    Now, those may not be the final numbers. There are plans to 
get to certain levels, and there's already a look at whether 
those are going to--in the end, going to be the right levels. 
But, I think there is very specific plans about what we're 
trying to accomplish with training, both in terms of quantity 
and in quality.
    And these plans dovetail. They dovetail, because they're 
brought together in Washington by the planners who are making--
in Kabul, by the people who are making and implementing these 
plans. And the strategy, the overall strategy, is to win on the 
battlefield, and win the war, really, by providing this 
governance at the local level, and that's being done more and 
more every day. I think there are places where you can see it 
definitely working. I saw it last week in Konar. I saw it last 
week in Jalalabad. I've seen it in Panjshir, in the north. You 
see it some places at the district levels, some place at the 
provincial level. But, where we have succeeded is--in 
Afghanistan--is where we've been able to provide a combination 
of military force, good governance, and economic opportunity, 
and we've done that successfully in many places; we have to do 
it in all the places if we're going to succeed fully.
    Senator Lugar. Just two quick comments. I hope that, as 
these plans are developed, or if they actually are on paper, 
that you will share them with us----
    Ambassador Boucher. Absolutely, sir.


    [The information referred to above follows:]


    Ambassador Boucher. A detailed development strategy for 
Afghanistan, the Afghanistan National Development Strategy, is being 
finalized by the Government of Afghanistan. This multi-year strategy 
will lay out the strategic priorities and mechanisms for achieving 
Afghanistan's development goals with the help of international 
assistance. The Government of Afghanistan will present the Afghan 
National Development Strategy to the World Bank and the International 
Monetary Fund by the end of March 2008.
    The U.S. development program for Afghan National Security Forces 
will increase the capacity and capabilities of the Afghan security 
forces. Our goal is to have professional, capable, respected, multi-
ethnic, and sustainable security forces loyal to the Government of 
Afghanistan.
    With assistance from other countries, the U.S. is training and 
equipping the Afghan National Army so that it will be able to assume 
the lead for counterinsurgency and internal security operations. Troop 
strength for the army who recently increased to approximately 80,000 
soldiers, including combat forces, support forces, Air Corps, 
sustaining institutions, and ministry and general staffs.
    The U.S., along with other members of the international community 
is training and equipping the Afghan National Police so that they will 
be able to enhance public security and uphold the rule of law. The 
police will number approximately 82,000, including uniformed police, 
civil order police, border police, auxiliary police, and counter-
narcotics police.
    However, we continue to review force size and capabilities of the 
Afghan National Security Force based on requirements.


    Senator Lugar [continuing]. Because this has been the 
consistent focus of the committee for several years. And let 
me, finally, say--this is not a precise analogy, but--if, for 
example, in a political campaign, you were to report to your 
supporters, ``I'm making progress.'' You know, ``I'm--I've been 
to Clinton County, I've touched base, and we're doing well over 
here in Kokomo,'' but the--and if the final result is that you 
get 25 percent of the vote and lose, three to one, this is bad 
news. And all----
    The Chairman. I did that. [Laughter.]
    Senator Lugar. All I'm saying is that we need to have some 
overall parameters of, in fact, how this is going to be a 
nation that holds together, as opposed to the fact that, as you 
point, you've found some progress, and we acknowledge progress; 
but, at the end of the day, Afghanistan has been a very 
difficult state, historically, as you know better than many in 
your scholarship, and it will be extremely difficult, again, if 
we really don't get it right, and we do have this opportunity 
with our NATO allies now, and the focus of the world. If this 
is not the moment we get it right, I pity the Afghans, because 
their situation is not going to improve after the world 
withdraws.
    But, I thank you very much for your testimony and your 
answers.
    Ambassador Boucher. Thank you, sir.
    The Chairman. Let me explain, if I may, the absence of the 
Democrats. There is a Democratic caucus going on right now 
relating to the combination of what the Democrats are going to 
do in the Senate relative to the stimulus package, as well as 
what they're going to do relative to our debate relating to 
continuation of the President's program on eavesdropping. So, 
that's underway now, that's the reason why they're not here. It 
was called at 10 o'clock, and I--and I'd rather be here.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. And, gentlemen, 
thank you for your time this morning.
    Mr. Boucher, how long have we been in Afghanistan?
    Ambassador Boucher. Since late 2001.
    Senator Hagel. So, we're in our 7th year.
    Ambassador Boucher. Yeah.
    Senator Hagel. How much money have we invested in 
Afghanistan, total--drug eradication efforts, military 
operations, economic assistance? Do you have any general 
number?
    Ambassador Boucher. I want to make sure I get this right. 
It's about $25 billion.
    Senator Hagel. Well, that sounds a little light to me, on 
the numbers that I had, but we'll come back to that. And I 
would appreciate it if you could provide this committee, for 
the record, the best numbers that you can provide, over the 
last 6 years, as we are in our 7th year, in total expenditures 
in Afghanistan.


    [The information referred to above follows:]


    Ambassador Boucher. U.S. assistance to Afghanistan from fiscal year 
2001 to fiscal year 2007 is $23 billion in total. On military 
operations, we have spent $86.3 billion on Operation Enduring Freedom 
since 2001. Questions on the total expenditures on the International 
Security Assistance Force would need to be answered by NATO.


    Senator Hagel. Mr. Boucher, I believe this was your quote, 
here over the last few minutes. You said, ``No one can tell me 
Afghanistan is not going in the right direction.'' Now, the 
panel after you will have an opportunity to express themselves 
rather directly, but some of that--of what I think we will hear 
in the next panel has taken some issue with your comment. And 
since you, I suspect, will not be here to respond to this 
panel, who--you know the individuals who will appear after you 
and Mr. Johnson, you know they are highly regarded, highly 
experienced, highly respected former public officials who know 
something about Afghanistan and the world. And I might draw 
your attention, especially in light of your comment that no one 
can tell you we're not going in the right direction, to the 
Washington Post story this morning. It was based on a press 
conference, yesterday, held by the former Supreme Allied 
Commander of NATO, incidentally--General Jones, who will follow 
you. And this was a release of two studies, according to the 
Post words ``strongly worded assessments of the war in 
Afghanistan.'' And General Jones said this, according to the 
story, ``'Make no mistake, NATO is not winning in Afghanistan,' 
said the report by the Atlantic Council of the United States.'' 
Further, the quote goes, `` 'Afghanistan remains a failing 
state. It can become a failed state,' warned the report.'' And, 
of course, the report--both reports produced some 
recommendations, which I would like to get your response to 
here in a moment.
    And you and Mr. Johnson, as the chairman has noted, have 
expressed yourselves in--I understand, in a way that would be 
expected from you. But, there's an astounding number of 
contradictions about how much progress we're making. And you 
have both alluded to the fact that the Taliban is losing on the 
battlefield, we're making good progress on the poppy-
production-decline front, but yet, the facts just don't bear 
that out. And if we're making so much progress, then why are we 
putting in 3,200 more marines? Why are we to a breaking point 
in NATO over this issue? Consequently, the Canadian Ambassador, 
sitting in the front row, listening to this. Why is there a 
great discussion among our allies about our strategy, if we 
have one, what the plan is, as Senator Lugar asked you about? 
So, I'm confused by the facts.
    Now, again, we're going to have an opportunity to hear from 
the next panel, and they will articulate, in some substance, 
why they have said what they said, according to these two 
reports, which I think, fairly or unfairly, take great issue 
with what the two of you are telling this committee this 
morning.
    So, my first question is: Have you had a chance to look at 
those reports? Have you had a chance to, in particular, to look 
at the recommendations included in those reports? And, Mr. 
Johnson, I'll be particularly interested in your response to--
one of the things they talk about is, in their words, ``a 
runaway opium economy,'' which you, I think, alluded to, what--
97 or 98 percent of the world's opium is now produced as a 
result of the poppy production in Afghanistan. Now, I----
    Mr. Johnson. Ninety-three, but it----
    Senator Hagel. Ninety-three? Well, let the record show 93. 
It's a--that's very impressive, that we made that kind of 
reduction. I don't see how that is progress. And especially in 
light of the fact, Mr. Johnson, as the chairman noted, we 
obviously don't have a coordinated policy on an eradication 
effort. When you look at our continued focus on spraying, when 
President Karzai, who knows something about his own country and 
his own government, is opposed to that, as do most of our NATO 
allies that I'm aware of--so, if I could focus, with my 
remaining time, on the administration's position on these two 
reports; in particular, the recommendations that were made. Do 
you think there's validity in the reports? Do you think there's 
merit in the recommendations? Thank you.
    Mr. Boucher.
    Ambassador Boucher. Senator Hagel, like you, I have 
enormous respect for the people who have done these reports, 
and some of them have been mentors to me over my career, so I 
hesitate to contradict them in public, but I will.
    I think--I've looked at these reports. They--three big 
reports that came out yesterday on Afghanistan, and they're all 
serious efforts. One's on agriculture, two are on the overall 
situation. They're all very serious efforts and look at a lot 
of different angles. I tend to disagree with the--sort of, the 
general observations. Words like ``failed state''--I mean, 
Afghanistan was a failed state in the nineties, it was a failed 
state when we got in there in late 2001, early 2002. But, if I 
plot all the points on the graphs of what's happened since 
then, I'd say the trajectory is up. And, as I----
    Senator Hagel. Just a correction, here. What General Jones 
said, ``remains a failed state.'' He doesn't----
    Ambassador Boucher. Remains a failed state.
    Senator Hagel. He does take issue with what you've just 
said. He said it ``remains a failed state.''
    Ambassador Boucher. Well, it--I guess, you know, one can 
always say--at what point do you stop being a failed state? 
But, the fact is, they have capabilities, and they have 
capabilities of governing, of delivering good governance, 
delivering welfare and assistance to their people, and 
delivering security to their people. We support them in doing 
that. But, they do that in a way that they couldn't do 7 years 
ago, and they can do that, increasingly, in more and more parts 
of the country. And I think that's the right trajectory. So, I 
tend to disagree with some of the broad observations of these 
reports.
    As I've started to go through the recommendations, I see a 
lot of things that we're either doing, working on, or very 
interested in, and I think a lot of the analysis is very 
useful. But, just flipping through, you know, there's, like, 
five pages of key recommendations out of the report that 
Ambassador Pickering did. I see a lot of things there about 
police training, about military training, about establishing 
better coordination, you know, more effective justice system, a 
whole lot of things--better appointments, things like that, 
that we're working on, and we'll look at the details of some of 
their ideas, to see if there are pieces of--ways to do this 
that we haven't, maybe, adopted yet.
    So, I think it's a very important effort. I know there's a 
lot of useful material here. And, as I said, I disagree, 
probably, more with the--some of the observations than I do 
with the actual recommendations.
    Senator Hagel. Thank you.
    May I ask Mr. Johnson to respond?
    Mr. Johnson. Yes, sir. I've, of course, focused on the 
issues related to counternarcotics in these reports, and there 
are some things I agree with in there, and there are some 
things that I very much disagree with. One is that the--in the 
discussion about the--I think, the thing--the key thing that I 
do disagree with in the discussion about how to deal with 
counternarcotics, there is a suggestion, maybe even you could 
call it a recommendation, that we could sequence this, that we 
could work on things related to alternative development, and we 
could give time for alternative development to take effect, we 
could put in a judicial system and a police system, and we 
could mature that over time, and that then it--and we could 
arrest more people, we could engage in more interdictions, and, 
at some point in the indefinite future, we could do 
eradication. Our experience, not just in Afghanistan, but 
globally, is that that doesn't work. You have to do all of 
these things at the same time. And they move at varying rates. 
But, the notion that we could just avoid eradication until some 
indefinite point in the future, I think, is not going to allow 
us to succeed.
    Where we have succeeded, as we've tried to illustrate on 
the map here, is places where we could combine all of those 
things. But, the key ingredient here, I believe, is security. 
If you have security in an area, and--then you can have the 
development and the eradication all taking place at the same 
time.
    One point I would take issue with you and your remarks, 
about our being still focused on aerial spraying. We considered 
aerial spraying. We think it has advantages. But, the essential 
ingredient in a successful aerial spraying program is that the 
local authorities accept it and believe it will work. We 
consulted with the Afghan Government. President Karzai does not 
believe it's appropriate. We've moved on to other things.
    Senator Hagel. Well, I would tell you that 2 weeks ago I 
had a very senior former member of the Karzai government in to 
see me, and that's not what he told me. He told me exactly what 
I just said. That's not the only reason I said what I did, 
but--and I will--since I've not asked if I could use his name, 
I will not use his name. But, you know who this individual is.
    Thank you.
    The Chairman. Senator Kerry.
    Senator Kerry. Mr. Chairman, thank you. I apologize for 
being late. I was at the caucus meeting on the stimulus, but 
glad to be here now and welcome our witnesses, this panel and 
the next.
    I apologize, Mr. Secretary, I wasn't here to hear your 
testimony, but I've gotten a quick update on it, and I want to 
pick up where Senator Hagel left off.
    I think your quote is that, ``Nobody can tell me that it's 
not going in a positive direction,'' and you've just had a 
little go-around with Senator Hagel about that. And I don't 
want to get caught up completely in the definitions or 
semantics with regard to it, but the facts on the ground--and 
facts are pretty indisputable--seem to indicate, between 2001 
and 2005, there were five suicide bombings in Afghanistan. 
There were 77 in the first 6 months of this past year alone. 
Those of us who have traveled to the region, and those of us 
who have had the intelligence briefings, know that we are being 
told about the rise of the Taliban, the increased ability of 
the Taliban to strike, about the reconstitution of al-Qaeda, 
and so forth. There is an increase in heroin trade. President 
Karzai himself said to me at dinner in Kabul that he would 
describe his economy as a narco economy. It's not yet a narco 
state, but it's a narco economy.
    So, how is it--you know, when you have the Oxfam 
representatives there now reporting, quote, ``humanitarian 
conditions rarely seen outside sub-Saharan Africa,'' and there 
are tensions between Kabul and the governors in the regions, 
the ability of the government, there is suspicion about the 
government--I mean, all of the indicators that wise observers, 
from, you know, Ambassador Holbrooke, General Jones, Ambassador 
Abshire, others who--all of whom made reports public, right 
here in this room yesterday, contradict what you're saying. So, 
how do we get a baseline that's going to be accurate here, in 
terms of your decisions and your choices?
    Ambassador Boucher. I think it's important just to think 
back a little bit before you think forward. Any snapshot is 
going to show a terribly underdeveloped country with a weak 
government, a raging insurgency, and an enormous poppy crop. 
But, you can take that picture----
    Senator Kerry. No; it's bigger----
    Ambassador Boucher [continuing]. Most anytime----
    Senator Kerry. It's bigger than it was when we started.
    Ambassador Boucher. I know that.
    Senator Kerry. And the conditions are worse than they were 
when we started.
    Ambassador Boucher. I don't think that's----
    Senator Kerry. We're in the opposite direction.
    Ambassador Boucher [continuing]. Generally true.
    Senator Kerry. Excuse me?
    Ambassador Boucher. I don't think that's generally true. 
Bombings----
    Senator Kerry. You think 77 suicide bombings----
    Ambassador Boucher. Bombings are horrible.
    Senator Kerry [continuing]. Is not worse than five in 4 
years?
    Ambassador Boucher. I think it is worse. There's more 
bombings. But, that doesn't mean that the overall condition in 
the country is worse. If you think back a year ago, what were 
we talking about, what were you hearing in your intelligence 
briefings? We were hearing the Taliban was going to try to take 
Kandahar, we were hearing they were going to launch a major 
spring offensive, we were hearing that they were going to try 
to push into--they were going to try to take provinces and 
occupy territory. They failed. They didn't take Kandahar, they 
didn't launch an offensive, they didn't take new territory. 
They've been pushed out of strongholds----
    Senator Kerry. The point is, there is----
    Ambassador Boucher [continuing]. And they've turned to----
    Senator Kerry. What the reports----
    Ambassador Boucher [continuing]. Bombing.
    Senator Kerry. What the report said yesterday--and it's 
important to listen carefully to what is being said--is not 
that it has failed, but that it is moving in the wrong 
direction. It also said that the military will always win these 
confrontations. There is no issue about the ability to prevent 
them from taking over a Kandahar. That's not the measurement 
here. We can fight this to that kind of--I mean, unless, you 
know, we become, ultimately, like the Soviet Union, where our 
presence doesn't produce enough economic results, that we begin 
to lose the populace. But, yesterday these eminent persons 
reported we still have the populace, we still have support, but 
they all see and sense and are hearing reports and have 
personally visited and found that it is moving in the wrong 
direction and we are risking losing that support and ultimately 
putting at risk our presence itself if we don't deliver on the 
economic side. So, you know, would you not agree that many of 
the reconstruction efforts--the water irrigation, for instance; 
the water irrigation is worse today than it was when we went 
in, worse than--excuse me--worse than pre-Soviets, because the 
Soviets helped destroy that. But, we haven't made a lot of 
progress in restoring those projects, and much of the 
reconstruction is stalled.
    Ambassador Boucher. Sir, I've been to Afghanistan many 
times; I was there last week. I was in the east, where U.S. 
forces have done a terrific job, not only of fighting, but of 
building. I told the story in my opening statement, in Kunar 
province, which was one of the most violent last year, they're 
not talking about the number of insurgents in the Kunar Valley 
now, they're talking about the number of Internet cafes and gas 
stations and markets along the road that they built. They're 
talking to villagers about the valleys that we can reach with 
other roads. We have seen transformed situations in a number of 
areas where we've been able to apply all these tools in a 
coherent and consistent manner. That doesn't mean we've been 
able to do it everywhere in the country; there's a lot of work 
still left to do. But, I just think that if you see that kind 
of progress, that's the test of whether we're achieving 
anything.
    You may say that Taliban's failure to win on the 
battlefield is not the true measure. I would probably say their 
ability to blow themselves up with suicide bombs is not the 
true measure, either. I think this war is going to be won by 
delivering good governance--meaning safety, justice, 
opportunity, education, health--delivering that at the district 
and provincial level in Afghanistan.
    Senator Kerry. Well, I don't think any of us----
    Ambassador Boucher. And that's the----
    Senator Kerry [continuing]. Disagree----
    Ambassador Boucher [continuing]. That's the measure----
    Senator Kerry [continuing]. That was--that's exactly the 
measure that each of the reports laid out yesterday.
    Ambassador Boucher. Yeah.
    Senator Kerry. And none of us would disagree that that's 
ultimately the measure. But, by that measurement, those reports 
and many of us are asserting that we are not moving at the pace 
and in the direction that we ought to be to achieve it. I mean, 
let me just ask you, quickly, because time's about to run out--
on the Paddy Ashdown issue, obviously the Karzai government is 
concerned about the national sovereignty issue and the 
prospective powers of a high commissioner, but without one 
entity in charge and, sort of, helping to coordinate, pull 
things together, it's hard to see how you really put in place 
the strategy that we need. Why did President Karzai oppose 
that? And is it still under consideration, perhaps with a 
different nominee?
    Ambassador Boucher. Senator, I absolutely agree with you 
that we need someone who can help pull this stuff together even 
tighter in the international community and in Kabul. There's a 
lot of very good coordination going on now, a lot of 
committees, a lot of groups that meet. When I was up in 
Jalalabad, the military and the antinarcotics folks were up 
there, planning strategy, along with the governor and the 
economic folks. So, there's a lot of good coordination going 
on. But, having a single figure who can help bring together the 
international community remains very important to us.
    Senator Kerry. Is it still under consideration?
    Ambassador Boucher. It's--we're going to have to look at 
other candidates, unfortunately. Paddy Ashdown, we thought, 
would have been superb man for this job. He----
    Senator Kerry. Are you over the sovereignty issue?
    Ambassador Boucher. I think we are. I think there were 
particular--a particular hullabaloo raised in Kabul by people 
that might have felt threatened by his person or his position, 
but I do think we're over the basic issue of whether there 
needs to be a strong international coordinator, and we're going 
to do everything we can to make sure we get one.
    Senator Kerry. Thank you, Mr. Chairman.
    The Chairman. I'd just note, if I--as I yield here, I'd 
just note that it may not be a measure of whether we're winning 
or losing, but three of us are heading there--Afghanistan, in--
shortly. And committee staff has come back and filed their 
fourth report, and little major things--little minor things, 
like you can't go outside the Embassy now without armed 
escort--that's been beefed up; you can't walk places we walked 
before; you can't go into certain areas without a significant--
significant military cover. That may not--in fairness, it may 
go to the point that--you're right, that it may not say much 
about what the total circumstance of the Afghan people are, but 
it sure says what--how things have become a helluva lot more 
dangerous for our personnel there than they were yesterday and 
the day before and 10 days before and a year before and 2 years 
before and 4 years before and 5 years before.
    Senator Sununu.
    Senator Sununu. Senator Coleman is a little more senior 
than I am, if you----
    The Chairman. Oh, I'm sorry. I--sure, no, we--I thank you 
for reminding me of that. I was just looking at the seating 
arrangement. I apologize. It's been so long since I've been 
here. [Laughter.]
    Senator Coleman. And we're thrilled to have you back, Mr. 
Chairman. Thank you.
    Gentlemen, I was--I had a chance, yesterday, to be with 
General Jones and Ambassador Pickering and others to review 
some of the reports, and, kind of, got a mixed perspective on 
this. If you look at General Jones, Atlantic Council, ``Make no 
mistake, NATO is not winning. Urgent changes are required now 
to prevent Afghanistan from becoming a failed--failing--failed 
state. The mission is faltering. And yet,'' it says, 
``support--international support is broad, but some of our 
allies are beginning to believe the mission is false.'' So, 
clearly we're in a situation now where the--there is deep 
concern about the future. And, rather than look back and, you 
know, try to evaluate ``failing,'' ``failed,'' whatever, we 
have some real challenges, and the consequence of failure is 
great. And I think that's where there's unanimity. I think 
nobody disagrees with that.
    One of the--where there seems to be consensus in all these 
reports is in a couple of fronts, and I'd ask you gentlemen to 
respond. One is--and I'm going to reflect, by the way, back on 
Iraq, because I think we've learned some lessons--and, by the 
way, I am one who stood with Senator Kerry to say that we need 
to decouple Iraq from Afghanistan, but that's not to say--
they're both important. In other words, we've got to do Iraq 
right, and we have to do Afghanistan right. And I'm not one who 
believes, because we're focusing on one, that we're not doing 
the other. We're a great nation, and we should be able to, you 
know, walk and chew gum at the same time. We have to do both 
right.
    Among the challenges in Afghanistan are a few--and I'm just 
wondering--the lessons of Iraq. One, clearly we're bringing in 
some more Marine units now. There is a concern, and the reports 
reflect this, that, you know, we came in--that we're in, light. 
That's been one of the issues in Iraq that was raised, early 
on. Senator McCain raised that, and others raised that. No 
question that we're light in Afghanistan. We're making a 
commitment. Is there any discussion among our allies to enhance 
their commitment, just in terms of numbers on the military 
side?
    Ambassador Boucher. Senator, there is. There is discussion 
among allies, and certainly discussion by us with allies. We 
were talking earlier with Senator Lugar about, sort of, What 
are the plans in this area? NATO has the staffing requirements; 
it's just, NATO hasn't met the requirements for what needs to 
be there. So, continuing to look at ways to fill that out. NATO 
summit coming up in Bucharest in April.
    What we found out last year when we added 3,500 U.S. troops 
is, other countries pledged 3,500 to match. And we're 
definitely going to use the deployment of Marines this year as 
a lever to make sure we get other countries to step up, 
especially on the follow-on to those Marines and to help 
solidify some of the efforts in the south, particularly with 
our Canadian friends.
    Senator Coleman. I think the real core of the reports then 
go on to note that whatever happens in the military side, 
unless we transform the civil side, unless we do those things 
to generate a system where there is respect for rule of law, 
where there is a police force that has credibility, ultimately, 
where there are jobs on the economic side, that you can't win 
this on the military side. And, again, another lesson from 
Iraq; if you go in now, and you walk through the joint security 
stations, and you're there with these young marines, they're 
like mayors, and they're dealing with security, but they're 
also dealing with the economic side.
    Let me focus, then, on that aspect, and starting with the 
police. One of the things that was said, my last trip to Iraq, 
was that we made the mistake, the first couple of years; we 
tried to train the police on their own, and it didn't work. And 
now, you walk in, we have either joint security stations, we 
have American troops embedded, the police there, the Iraqi 
security--the army forces are there, and our forces are there. 
One of the reports makes a recommendation, talks about 
embedding our folks with police. Give me the vision, the sense 
of what we're doing on police training, understanding the 
lessons from Iraq and how we're applying them to Afghanistan.
    Ambassador Boucher. There's a lot of different levels of 
police training. The vision of the police is to have a regular 
police, and then more dedicated and specialized units, to do 
that. We are--we've trained a lot, in terms of numbers. Some of 
the training is very, very basic. I mean, basic training has 
a--you know, they've got the track for the people who can read 
and write, and a track for the people who can't read and write, 
which is, like, 70 percent of the recruits. But, there's also 
very--there's focused district development strategy, which will 
bring police forces out of the districts, train them all 
together, and put them back with mentors and trainers. And I 
think--what they told me last week was, they've got mentors, 
trainers, and support in 102 districts already, even though 
we're only into the first few months of these focus----
    Senator Coleman. But, does it represent a change? My point 
is, on the one hand, we talk, in Washington, about decoupling 
Iraq and Afghanistan and----
    Ambassador Boucher. Please.
    Senator Coleman [continuing]. I'd actually like to see a 
coupling, at least in terms of lessons learned.
    Ambassador Boucher. I think----
    Senator Coleman. Are we transforming----
    Ambassador Boucher. Yeah.
    Senator Coleman. Are we changing the way we're doing it? 
Recognizing that it has not--in 7 years, we have not made the 
progress----
    Ambassador Boucher. Yeah.
    Senator Coleman [continuing]. We need to make, and we have 
learned some lessons to step it forward.
    Ambassador Boucher. Last year, the big budgets we got was 
to fundamentally transform the way we did police training, and 
we've really done that--not only the training, but also the 
deployment of policemen, the support we give them. When I was 
out last week, I saw a lot of the new trucks that we've bought. 
The police are now mobile, they can communicate. A lot of 
things being done to give them real capabilities.
    Senator Coleman. I would urge you to look at these reports. 
Again, I--without the debate focusing on the broad 
pronouncements, there are some recommendations in here that I 
think we all should be agreeing on.
    Ambassador Boucher. I agree. Yeah.
    Senator Coleman. Educating government officials. If there's 
no structure of local government, of folks who--you're dealing 
with a society that hasn't done that. And so, now we've got an 
opportunity.
    Rule of law. If--no matter what success we make militarily, 
if there isn't--you can't build an economy without a 
fundamental, kind of, system and respect for rule of law.
    So, my--walk through these recommendations. I think there's 
a lot of merit, without getting into the debate of finger-
pointing, of what we didn't do, or what's failing, not failed. 
Afghanistan right now is--it's--where it's in danger of 
failing, there's no question. There is frustration about 
progress, but it's in danger. And I think what you've got is, a 
group of people have come forward with some recommendations I 
think we all could embrace and increase the possibility of 
success, which is in our interest. Failure--we cannot afford to 
fail in Afghanistan.
    Ambassador Boucher. I absolutely agree, sir. I think the 
two areas you cited are probably good examples of what I've 
seen in this report, so far, is that these are things we are 
focused on.
    Educating government officials--the United States has major 
program. Last year, the push was to do more education of local 
and provincial officials. The Indian government has taken on a 
lot of the training that's being done for civil service and 
others. There are academies being built in Kabul.
    So, what I tend to look for in these reports is, go one 
level deeper and see--yes, we agree with the focus and the 
recommendation, we need to go one level deeper, see if they've 
come up with ways of doing this, ideas about how to do this, 
that supplement, complement, or are better than ours.
    Senator Coleman. I appreciate that.
    Ambassador Boucher. The same with rule of law, a big push 
last year.
    Senator Coleman. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Thank you for testifying. The war in Afghanistan has been 
called by many experts ``The Forgotten War.'' The report, 
released yesterday, which will be discussed on the next panel, 
notes just how close we are to failure in Afghanistan, and yet, 
despite the clear threats emanating from the Afghanistan-
Pakistan border region in testifying before the Senate Armed 
Services Committee, the Chairman of the Joint Chiefs of Staff, 
Mike Mullen, recently said, ``In Afghanistan we do what we can, 
in Iraq we do what we must.'' Is this the policy of the Bush 
administration, that Afghanistan is of secondary importance to 
the national security of the United States?
    Ambassador Boucher. No; not that I've ever had it expressed 
to me. I'm not--perhaps the admiral was talking about, 
specifically, some of the military requirements. We've always 
looked at what we have to do in Afghanistan to make--succeed, 
militarily, as well as with assistance. We've come to the 
Congress; Congress has been very generous in supporting that. 
And we're always looking at what we need to do next and how 
much it's going to take to do it.
    Senator Feingold. Which of those two----
    Ambassador Boucher. So----
    Senator Feingold [continuing]. Situations do you regard as 
more important to our national security?
    Ambassador Boucher. Iraq or Afghanistan? I think they both 
are. I think----
    Senator Feingold. No; I asked: Which one do you think is 
more important? Surely they're not identical.
    Ambassador Boucher. I would hope we can do both. I don't 
see any way of----
    Senator Feingold. I do, too. I'm asking you, though, which 
one you think is more important, in terms of the threat.
    Ambassador Boucher. Sir, I spend my--much of my day working 
on Afghanistan, so I'm very much focused on Afghanistan. I find 
it hard to weigh one against the other, because the problem is, 
if you don't--if you don't stabilize both places, the--you'll 
never stabilize either one. There would be----
    Senator Feingold. I guess my comment is----
    Ambassador Boucher [continuing]. Support back and forth.
    Senator Feingold [continuing]. Of course you want to 
succeed in each and every place, but, surely, in any endeavor, 
including military and war endeavors, priorities matter. And, 
in order to determine priorities, one has to determine where is 
the greater concern. And so, I've tried, several times with 
different people, to get an answer to this, and I've never 
gotten one; I find it a little surprising, in light of the 
global nature of the threat that we face.
    Ambassador Boucher. Sir--I mean, which of your----
    Senator Feingold. Go ahead.
    Ambassador Boucher [continuing]. Kids do you like best?
    Senator Feingold. I'm sorry?
    Ambassador Boucher. Which of your kids do you like best? 
You know, do you want----
    Senator Feingold. Well, I think it's more----
    Ambassador Boucher. Do you want----
    Senator Feingold. I think it's really more----
    Ambassador Boucher [continuing]. Some of your children to 
be educated----
    Senator Feingold [continuing]. Going to be----
    Ambassador Boucher [continuing]. Which ones----
    Senator Feingold. I don't think it's as simple--I don't 
think it's as simple as that. I think----
    Ambassador Boucher. I----
    Senator Feingold. I think it really--this is the----
    Ambassador Boucher. I think----
    Senator Feingold [continuing]. Core question, of whether we 
can get our priorities right in this country about this war.
    Ambassador Boucher. Here's the way I've explained it.
    Senator Feingold. These are not identical.
    Ambassador Boucher. If you look at the history of 9/11 and 
how that happened, ungoverned spaces are a threat to us around 
the world; wherever they are, that's where the terrorists are 
going to go, and they're going to plot, and they'll plan, and 
they're going to come out of there and kill us. You can't 
neglect any portion of the planet. And we----
    Senator Feingold. That's absolutely----
    Ambassador Boucher [continuing]. Have, in the last----
    Senator Feingold [continuing]. Right. And in that----
    Ambassador Boucher [continuing]. several years, taken away 
those ungoverned spaces--sometimes diplomatically, sometimes 
through our relations with governments, and sometimes with 
military force. If we don't continue to do that in all the 
remaining ungoverned spaces, there's always going to be a 
threat to us.
    Senator Feingold. Yeah, and if the question here was 
``neglect,'' I would understand what you said, but the question 
here is, in my view, is whether or not we've neglected Pakistan 
and Afghanistan because of our overemphasis on Iraq. So, the 
question here is relative emphasis.
    I understand the Secretary of Defense has elected to send 
an additional 3,200 U.S. Marines to Afghanistan. Is this 
sufficient to address the full nature of the deterioration in 
that country? What steps are we taking to ensure that we 
address both military needs and nonmilitary priorities in 
Afghanistan?
    Ambassador Boucher. The 3,200 marines, about 2,200 will be 
put in a maneuver unit in the south to provide additional 
security for a lot of the operations there, about 1,000 will go 
into training. If you look at the NATO requirements and the 
other requirements, there are still shortfalls, both in 
fighters, and in trainers especially. And we will try to use 
this deployment of U.S. forces to leverage even more 
contributions from allies, frankly.
    Senator Feingold. A counterinsurgency campaign in the 
border region, I don't think will be successful if it does not 
have the support of the Pakistani people. How can we gain the 
support of the people of Pakistan if we continue to be 
associated with the current Pakistani regime, even as it 
persists in resisting democratic reforms?
    Ambassador Boucher. Our policy in Pakistan is very much 
focused now on the elections and with working with the new 
situation that will emerge after the elections. We're pushing 
to try to have--try to make it as good an election as we can, 
try to encourage the Pakistani Government, right up to the end, 
to take steps to make it more transparent, more credible. The 
new leadership will emerge. There'll be a number of elements to 
work with there. But, I think, overall, we're trying to 
encourage the develop--sort of, movement toward the center in 
Pakistan as a base from which they can fight their own 
terrorist problems.
    Senator Feingold. The State Department's counterterrorism 
chief, Lieutenant General Dell L. Dailey, whom I just saw 
earlier this morning, has expressed, publicly, his concerns 
that there are significant gaps in what the United States knows 
about the threats in the Afghan-Pakistan border tribal areas. 
He said, ``We don't have enough information about what's going 
on there, not on al-Qaeda, not on foreign fighters, not on the 
Taliban.'' I'd like to ask both of you how we can be proactive 
in the region if we're not adequately informed as to what's 
happening on the ground. How do you propose that we become 
better informed?
    Ambassador Boucher. I think there are a lot of steps being 
taken so that we and our friends in Pakistan and Afghanistan 
can be better informed about what's going on up there. It is 
forbidding territory, it has a--administrative arrangements 
going back to the colonial period that mean the government's 
not fully there or fully in control, and it's difficult 
territory for anybody to operate in and to understand. There 
are a lot of things that go on up there that are difficult to 
find out. On the other hand, we do have a pretty good idea of 
what's going on up there, who's up there and what they're 
doing. We do have more and more information about how they're 
coming across and where they're coming across. I think, if you 
ask U.S. commanders on the ground, you'll see that they've had 
much more success in interdicting people that are trying to 
come across the border.
    They're now--the militants in that area are now fighting on 
two sides. The Pakistanis are attacking them from one side, and 
they get attacked when they come into Afghanistan, on the other 
side. So, I think there are a lot of things we can do to 
improve the capabilities to monitor the border. We're working 
with the Pakistanis and Afghans to do that. We'll have a border 
coordination center that opens in March of this year. There's 
better military coordination going on now, and there's a lot of 
things we're doing to support the Pakistanis as they start to 
go after these areas with more force.
    Senator Feingold. Mr. Johnson.
    Mr. Johnson. The only thing I would add is that the longest 
standing persistent assistance program we've had in Pakistan is 
in the counternarcotics area, and it's been in this region. And 
that, in and of itself, has given us greater visibility as to 
what's going on there over a long period of time, when we had 
no other assets. And that is a--I think, a very effective 
program, and one that's given us some visibility we otherwise 
wouldn't have had.
    Senator Feingold. Thank you for your answers.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Who's next? Senator Corker.
    Senator Corker. Senator Sununu's quite polite, and I--Mr. 
Chairman, thank you for having this hearing.
    I was in Afghanistan and Pakistan 2 months ago, and I was 
able to meet with President Karzai, General McNeill, General 
Livingston, and a number of other people. And I think that--I 
think the testimony today has been helpful. I will say that I 
think we've missed a tremendous opportunity over the last 
period of time, and I think there's absolutely no question that 
the war in Iraq has definitely taken away from what we've been 
doing in Afghanistan. I think that's beyond dispute. And, while 
I might not have followed exactly Senator Feingold's line of 
questioning, I think that's a indisputable fact, that we have 
missed opportunities in Afghanistan because of what is 
happening in Iraq.
    One of the things that was recited over and over by people 
there was the lack of training that we were giving the Afghani 
police, and the fact that building up a police force there was 
most needed. There's no question we've had gains, from the 
standpoint of building the roadways, and there's no question 
there's been economic activity. But, what's occurring is, we'll 
create stability in an area, and then the warlords will come 
back into communities and terrorize them. And while I'm 
concerned about the NATO alliance, I'm concerned about, as 
Senator Lugar mentioned, that the people here in our country 
and their tolerance for this going on for a long time--the 
people of Afghanistan are a gritty people. We don't have the 
same issues there that we have in Iraq; we have a people there 
that are willing to really step up and defend their country and 
have a national pride there in a very different way than we 
have in Iraq. And what I'm concerned about is, because of the 
lack of investment that we've had there directly because of 
Iraq, because of the lack of manpower that we've had there 
because of Iraq, I'm concerned that we're beginning to lose the 
Afghani people themselves, and I wonder if you might address 
that.
    Mr. Johnson. Well, in terms of police, I think the numbers 
of we--police we've trained has been, actually, quite high, but 
we've had significant problems in retaining them and keeping 
them retrained. Part of the refocus that Richard was referring 
to earlier that we've done with this program is to implement a 
rank restructuring and a pay reform so that they're paid 
directly, without the opportunities to skim off the top, and 
that we've changed the way we've trained, and put a much 
greater emphasis both on the Focused District Development 
Program, where we take a group of policemen out of where they 
are replace them with a highly trained group--retrain, re-form, 
re-equip, put them back in.
    The other thing we have done is moved away from a singular 
focus on training in a training camp, ``and then you're on your 
own,'' to one where the much greater focus is on post-training 
mentoring. The number we have, about 600--excuse me--a little 
over 500 American trainers in Afghanistan now, training police. 
And by a ratio of about five to one, they are mentors in the 
field with the police rather than classroom trainers. So, I 
think we're making progress there, but it's--it is a--it is a 
long road. It's a--this is a--this is going to take time.
    Ambassador Boucher. If I can just add to that. The people 
that train the police out there say it's actually more 
difficult to train the policemen than the--than soldiers, 
because the policemen have been used to a bad system, and 
there's a lot of, sort of, reeducation and retraining, and re-
forming involved in that. But, I think, certainly from last 
year, with the large appropriation we got from Congress, we 
were able to go about this in a new and a different and very 
much more intense way. And so, we've been doing that, I think, 
rather successfully. It's a question of: Keep doing it, get the 
numbers, get the focus.
    Overall, the reports that we see, the polls that come out 
in public, they indicate still very high levels of support for 
government, for the new government. They want things from their 
government. If anything, the government's failure is failure to 
meet expectations. People want to know where the money goes, 
they want to know where the government is, they want to know 
why they haven't gotten a new set of policemen to protect them. 
And--but, overwhelmingly, if you--the indications are, people 
want the government, they want the government to provide them 
with safety, with justice, with economic opportunity, with 
health care and education. And when the government provides 
that, the situation stabilizes, the poppy goes down, the 
Taliban get kicked out. It's the areas where the government 
can't provide that yet because they're weak, or provides it 
badly because of corruption or other things, that are the 
problem areas. And so, we've shown that there are places that 
we have brought that kind of stuff to bear successfully, and 
that's what we're trying to do much more thoroughly, in a more 
concentrated fashion.
    Senator Corker. I think it's more of a manpower issue, by 
the way, of the police and, necessarily, financial resources. 
And I know that both Livingston and McNeill were asking for at 
least 3,200 troops, not to do, necessarily, what's being done 
today, but to actually train policemen.
    I think the issue of the tsar certainly is something that 
needs to be resolved, as far as coordinating NATO resources, 
and I realize that President Karzai feels, if you will, 
challenged by somebody else coming in and administering those 
goods and services, and maybe the loyalty issue is a problem 
for him.
    But, let me just ask one last thing. I know my time is 
getting ready to run out. When I came here, I was somewhat 
stunned by the lack of coordination and focus in Iraq. That was 
a year ago. And certainly, things have changed. General 
Petraeus has provided great leadership, and other things have 
occurred. We are making progress in some areas in Afghanistan, 
but, I have to tell you, I am stunned, again, at us not having 
an overall plan, as has been alluded to in the past, and I'm 
wondering if you have any sense whatsoever of a major 
resurgence on our part to actually bring resources together in 
a way, to bring this to an end at an appropriate time, and 
transition over. I just sense we're just, sort of, moving along 
at a pace, but we really just don't have a coordinated effort, 
on behalf of our government and others, to really go someplace, 
to call this a victory and move on.
    Ambassador Boucher. We went through a major review--
strategic review--in late 2006, and that resulted in the big 
effort that was made last year to increase the forces, step up 
and change the nature of police training, push the government 
out at the provincial and local level, build more roads; a lot 
of things that we have done last year, we continue to do this 
year. We're always looking at the program, we're always looking 
at what we're doing and what we're achieving. Money spent 
through our PRTs is particularly useful, and so, we tend to put 
money--more money in there. Those kinds of things, adjustments 
along the way.
    But, I think there is a--you know, there are overall plans 
on the economy, there are overall plans on the military side, 
there are overall plans for the police, and they all come 
together in this very fundamental strategy of, you know, 
beating the Taliban on the battlefield and winning the war by 
extending governance.
    The Chairman. Thank you very much.
    Senator Sununu.
    Senator Sununu. Thank you, Mr. Chairman.
    Secretary, how much was obligated last year through USAID 
for all of the important programs we've been talking about?
    Ambassador Boucher. We're in the range of $2 billion for 
the civilian side of the effort.
    Senator Sununu. On the civilian side----
    Ambassador Boucher. Yeah.
    Senator Sununu [continuing]. You think you are close to $2 
billion. And----
    Ambassador Boucher. Yeah.
    Senator Sununu [continuing]. What are the proposed outlays 
for fiscal year 2008?
    Ambassador Boucher. 2008, it's--same range. I think last 
year was 1.8, and this year is about 2. I now look at my 
numbers--and we didn't do the totals--but, if I add up the 
regular spending and supplemental, it's about $2 billion.
    Senator Sununu. But, you believe it'll be close, or 
slightly above, to what we did last year?
    Ambassador Boucher. Yeah; slightly above, probably.
    Senator Sununu. And as I look down a list I have of the 
different areas--agriculture, road, power, water--you know, 
there are obligations in all of these important areas, but it 
begs the question, Which of these areas is the most resource-
constrained? If you had an incremental $100 million or $500 
million in addition to your proposed outlays, where would you 
put it?
    Ambassador Boucher. I'd probably put it into electricity 
and governance. I mean, if you--if you do the totals for this 
year, I've got--governance is the biggest one, $493, between 
the base and supplemental--$493 million. That includes $100 
million to start going on the election, which will be held next 
year. So, we know we need more money as we move to the 
elections next year.
    Senator Sununu. Is the bulk of that money, $500 million, 
being used to prepare for the elections, or is----
    Ambassador Boucher. No. About $100 million is for 
elections, then you have the provincial justice amounts, you 
have a lot of the training that was talked about, especially 
officials that are going to go out at local levels, money to 
support the outreach efforts of the government, the 
reconciliation efforts, a lot of things like that. The overall 
governance category is----
    Senator Sununu. But, you would place governance and 
electricity ahead of, say, police training?
    Ambassador Boucher. We got--the police training is not 
included in this amount. There was a big chunk of money, about 
$8 billion, I think, for police and military training that came 
out----
    Senator Sununu. But, that's not funded through----
    Ambassador Boucher [continuing]. Came out of last year's 
budget. There's more this year, on a continuing basis, but 
it's--there's money there to do what we need to do right now.
    Senator Sununu. The issue with the police has been covered 
in some detail. It's clear that there are very significant 
problems. You seem to feel that you've changed some of the 
approaches that are being taken. But, I want to try to better 
understand what went wrong, because in the--after, you know, 
2002 and the 2003 timeframe, as we were trying to work with the 
government to deal with all of these terrible issues, 
everything from governance to infrastructure and the economy 
and security, I think everyone probably recognized that local 
security, police force, would be an important issue. You 
indicated there are 500 U.S. trainers now focused on the 
police.
    Ambassador Boucher. No; there's----
    Senator Sununu. You----
    Ambassador Boucher. It's more than that now.
    Senator Sununu. You said there--well, you just--someone 
just used the number of----
    Ambassador Boucher. Oh.
    Senator Sununu [continuing]. Five hundred.
    Ambassador Boucher. There's the military guys, too. 
There's--I think it's 500 in your programs.
    Mr. Johnson. Plus--yes.
    Ambassador Boucher. And then, General Cone's found, I 
think, another 800 or something----
    Senator Sununu. Understood. So, we have--those are U.S. 
trainers in place, obviously----
    Ambassador Boucher. Yeah.
    Senator Sununu [continuing]. Working on the issue. It 
sounds as if the United States is in a lead position, at this 
point. Who was leading the effort in 2003, in 2004? And what 
did they do wrong that has required us to go back and rethink 
our approach to training police?
    Mr. Johnson. In 2002, when we began this effort, we divided 
up responsibilities among countries who would step up and do 
some things. The Germans had a longstanding program which dated 
back to pre-Soviet days, engagement with security in 
Afghanistan. And this is a program that they began, themselves. 
As they got underway, it became clear to us that it was focused 
almost exclusively on training a senior officer corps, if you 
will. And there was a very high demand, at that time, by the 
Afghan Government, by our military, I think by any observer, 
that we needed to move as rapidly as we possibly could to 
provide some form of police on the streets. And, as a result of 
that, rapid training programs were developed. Rapid training 
programs answered the question of putting people on the street, 
but things----
    Senator Sununu. When was that realization?
    Mr. Johnson. I'm sorry?
    Senator Sununu. You said ``we realized these''----
    Mr. Johnson. I think the realization became apparent during 
the course of 2002----
    Senator Sununu. OK.
    Mr. Johnson [continuing]. As the program started.
    Senator Sununu. It still begs the question, then: What was 
being--if you realized that shortcoming in 2002, what were we 
doing wrong in 2003 and 2004?
    Mr. Johnson. I think what we were doing wrong in the long 
term, but right in the short term, was giving short-term 
training to people, to get them out as quickly as we possibly 
could. That led, in and of itself, to retention issues, to not 
having people as well trained as they should have been, but it 
did answer the demand of getting people out as rapidly as we 
possibly could. We're--if you--and, in a sense, recovering from 
having tried to push out, possibly too fast.
    Senator Sununu. On the issue of drug interdiction, I think 
it's understandable that there's a--there's a potential 
conflict in aerial spraying or any basic eradication, because 
that's having an effect on the Afghan population on a mass 
scale, at the grassroots scale, with farmers and people who are 
doing the cultivating. And so, you have--run the potential of 
turning those individuals against the government and against 
our efforts, and it makes the--could make the security 
situation worse.
    But, in the documentation we have, it suggests that 
targeting drug labs is still under review. Now, it would seem 
to me that the lab itself is obviously a bottleneck for the 
production of drugs. It's a--even a larger source of income for 
Taliban or other drug lords that are benefiting from the 
cultivation. There are few of them, and it would seem to make 
sense that they should be a target already, in some way, shape, 
or form. Why is this described as still being under review? And 
if it's not under review, if it's part of your policy, how many 
have you targeted over the last 12 months, how many have been 
destroyed?
    Mr. Johnson. Let me get you the statistics on the last 
question you asked.
    But, this is something that we're attempting to do. But, 
you've got to bear in mind that these labs can be quite small, 
so it's not a question of having, you know, a handful that 
really are the bottleneck that we wish that they were. But, 
the--as we discussed earlier, this is part and parcel of our 
effort here, but it--we don't believe that it can--we can have 
a successful program if it is exclusive of any of these 
elements. And so, there has to be an element of risk to someone 
planting poppy. The U.N. estimates you have to have about a 25-
percent chance before there's a real deterrent. So, we're 
working, as best we can, on all of elements of this program, 
not just on one.
    Senator Sununu. How much money was spent on programs to 
provide alternative sources of income, alternative crops, crop 
substitution, to deal with--or try to reduce the preponderance 
of poppy-growing?
    Mr. Johnson. Directly related to poppy and exclusive of 
other development programs, $200 million.
    Senator Sununu. So, $200 million, compared to how much 
spent on the interdiction and eradication effort?
    Mr. Johnson. On interdiction, which includes funding to 
support the Drug Enforcement Administration, $350 million; on 
eradication, $166 million.
    Senator Sununu. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Gentlemen, thank you very much for your testimony.
    Our next panel is a very distinguished panel: General James 
Jones, U.S. Marine Corps (retired), former Commander, European 
Command, and Supreme Allied Commander of Europe; The Honorable 
Thomas Pickering, former Under Secretary for Political Affairs, 
the Department of State; The Honorable Richard Holbrooke, 
former U.S. Permanent Representative to the United Nations.
    [Pause.]
    The Chairman. Gentlemen, welcome. Thank you for being here. 
I know you have extremely busy schedules, but your continued 
service to this committee and to the country is very much 
appreciated.
    Why don't we begin in the order in which you were called: 
General Jones, Ambassador Pickering, and Ambassador Holbrooke.
    General, it's all yours.

   STATEMENT OF GENERAL JAMES L. JONES, USMC (RET.), FORMER 
   COMMANDER, EUROPEAN COMMAND, AND SUPREME ALLIED COMMANDER 
                       EUROPE, McLEAN, VA

    General Jones. Mr. Chairman, it's a great pleasure to be 
here today in front of this committee. I last had the honor of 
appearing here in March of 2007 on the same subject, and so, 
it's a great pleasure to be able to spend some time with you 
this morning, and with my colleagues at this table.
    I had the privilege of participating in two--the formation 
of two reports that, by coincidence, were released 
simultaneously yesterday. I won't go over the details; you have 
the reports in front of you. So, I will just--with your 
permission, just make a few short opening remarks.
    It's been my experience and my observation that what is 
happening in Afghanistan is a loss of momentum, in terms of the 
kind of progress that, not only the Afghan people expected to 
see and witness and to feel, but also as a result of an 
inability of the tremendous international effort to coordinate 
itself in a way to do what I believe is the top two, three, or 
four things that absolutely have to be done.
    This is not a new position on my part. I said it when I 
left NATO in 2006. I said it in testimony in 2007. I continue 
to believe it to be true in 2008. And I think that if there is 
good news, the good news is that we can be successful in 
Afghanistan, but the loss of international momentum, in terms 
of addressing the issues of narcotics, which permeates the 
society, corrupts a generation of Afghans, prevents the 
legitimate growth of economic reform, and, perhaps more 
insidiously, funds the insurgency by virtue of the tremendous 
revenues that they're able to generate. And it certainly 
prevents the influence of the government from expanding.
    Second belief of mine is that judicial reform is--if it's 
made any progress, it's barely discernible, and I don't 
understand how you can not more--have achieved comprehensive 
judicial reform, given the challenge of narcotics and the 
challenge of a corrupt society and criminal activity.
    The third is police reform, which is neither adequate in 
quality or quantity.
    And the three--these three things are completely 
interrelated, because you need all three if you're going to 
attack the narcotics problem. If you don't have a police that's 
able to secure the countryside and prevent the insurgents from 
threatening families and killing--killings in the middle of the 
night to intimidate the farmers to grow the crop, if you don't 
have a judicial system that can prosecute effectively, then you 
don't have--you just don't have the incentives for a 
comprehensive attack on narcotics.
    I would say that a fourth concern of mine has to do with 
having the international community hold the government to some 
metrics, in terms of performance. And I think judicial reform 
is probably one that I would highlight as imminently possible 
for an elected government to begin to try to achieve and to 
make it a priority. When I left, in December 2006, it was still 
high on my list of one of the things that we ought to 
encourage, and I think it's still pretty much that way in 2008.
    And last, of course, the deteriorating situation in 
Pakistan, a neighboring state, leads me to conclude that this 
is now a regional problem. You can't simply just talk about 
Afghanistan in isolation of the regional nature. So, regional 
problems demand regional solutions and a strategic sense of 
where we're going.
    I'm extremely proud of the fact that NATO accepted to be 
engaged. I think there has been progress on the ground in 
Afghanistan, but I worry about a loss of momentum, I worry 
about the fact that the safe havens for the insurgents are more 
numerous now than they were 1 or 2 or 3 years ago, and that the 
resurgence of the Taliban is a result of our inability to 
address three or four problems in a way that focuses the 
tremendous amount of resources, and manpower towards those 
things that we absolutely have to be done--that absolutely have 
to be done, and done well, if we are to succeed in the long 
term.
    I said yesterday at the rollout of our studies, that I was 
very disappointed--and I think many others are as well, that 
the government refused to permit Lord Ashdown to be the 
international representative. I know Lord Ashdown, personally. 
I worked with him in Bosnia. He did a masterful job. He is the 
kind of leader that could coalesce and focus the international 
effort and better account for the monies that are expended, and 
hold the government, that he--that we all want to see succeed, 
to some metrics and standards that would allow them to make 
some discernible progress, instead of just gradually losing 
momentum and running the risk of backsliding, which is where I 
think we are now in terms of those three or four things that I 
mentioned.
    Our two reports agree on several lines of action. One is 
the need for swift completion of the Afghan assessments. We 
continue to believe the appointment of a high commissioner to 
work with the Karzai government to coordinate and integrate 
assistance is critically important. We need a comprehensive 
counternarcotics effort, improved training for the Afghan 
national police force, emphasis on effective governance, the 
creation of a credible Afghan judicial system, and improved 
development and more focused development assistance.
    Mr. Chairman, I'll stop with those brief remarks, and we 
stand ready to answer any questions you might have.
    The Chairman. Thank you very much.
    Secretary Pickering.

STATEMENT OF HON. THOMAS PICKERING, FORMER UNDER SECRETARY FOR 
     POLITICAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Pickering. Thank you, Mr. Chairman, Senator 
Lugar. It's an honor to be here, and thank you for the 
opportunity to be with you.
    There is no mistaking it, I think that we are, perhaps, in 
a timely period, or maybe even, Senator, to coin a phrase, a 
post-timely period, to be considering Afghanistan at these 
hearings this morning, in light of the reports. There's no 
question, too, that this situation, certainly in my humble 
view, rivals the situation we faced as the Iraq Study Group got 
its materials together and put those out. I hope that 
reactions, in terms of doing something about this, can and will 
come out of this effort that you're holding.
    I briefly want to summarize my testimony, which attempts to 
point up both the critical nature of our assessment of the 
situation in Afghanistan, a little bit unlike what we have just 
heard, and, at the same time, I want to highlight a few of the 
key recommendations from the Afghan Study Group report.
    We say Afghan is--Afghanistan is at a critical crossroads. 
That may be an understatement. Six years of progress is under 
serious threat from resurgent violence, weakening international 
resolve, mounting regional challenges, and a growing lack of 
confidence on the part of the people in the country. The United 
States and the international community have tried to win the 
struggle with, in our view, too few military, insufficient 
economic aid, and without a clear and consistent strategy. We 
now have to deal with a reconstituted Taliban and al-Qaeda, 
both in Afghanistan and Pakistan, and a runaway opium economy 
and severe poverty faced by most Afghans.
    General Jones has just pointed out why this is so 
critically important for us. It's a national security issue. 
Collapse in Afghanistan would certainly move what is already a 
rampant drug culture into higher gear. We certainly would have 
a serious blow to our alliance in NATO, which would be 
difficult to recover from. As you know, this has been the 
deadliest year for U.S. and coalition troops since 2001. We've 
just heard that training is lagging, that counternarcotics 
efforts, judicial and penal reform are not--if taking place, 
taking place only at a very slow pace.
    There are many detailed questions that I don't want to go 
into, but I do want to focus just a few statements on the issue 
of what to do and how we are dealing with narcotics.
    2006--that's a year ago--showed a spread of cultivation by 
at least 30 percent in the acreage involved. And you, 
yourselves, have understood the output tonnage and how little 
we have been able to deal with that. The figure of 93 percent 
of world-available heroin is, I think, a clear statement of the 
tremendous difficulties.
    We believe that attacking this problem has to be a closely 
linked effort, but you cannot do it by eradication alone. You 
have to establish a predicate for popular support. And, indeed, 
I would say, in Afghanistan, we have to continue to do 
everything we can to encourage Afghan leads in dealing with 
these particularly difficult and taxing problems.
    I think that, as General Jones has just pointed--and I 
think we all agree--Afghanistan can no longer be considered as 
a kind of island state in the middle of nowhere. It is, in 
fact, deeply linked with what goes on around it, and 
particularly with what is happening in Pakistan. And, as we 
have seen, that porous and ungoverned border region is a source 
of continued difficulty, that there is no question at all that 
Pakistan itself has serious problems in coming to grips with 
governing that piece of its own territory, and it has been a 
historical legacy that has not been--in my view, certainly--
dealt with in the way it needs to be done.
    We believe, overall, that the effort to come together on an 
assessment and a strategy for Afghanistan is way overdue. We 
have proposed that, if this is not accomplished rapidly by the 
United States and its friends, that perhaps NATO could take the 
lead in appointing an eminent-persons groups that can bring 
together Afghans, our partners, and ourselves around a 
strategy. And you, yourselves, have felt the need, in your own 
questioning, for having a clear strategic view ahead.
    Second, we felt, as an overarching proposition, we needed 
to find a way to decouple in the work of the legislative 
branch, in executive branch consideration, particularly in 
budgets, and maybe in the minds of the American people, Iraq, 
and Afghanistan. There are similar problems, but there are 
different solutions.
    There are clearly both urgent and emergent priorities that 
have to be dealt with. And we've seen some resonance in 
members' questionings already of this particular issue. I think 
it is important. It needs careful consideration, but it is 
significant.
    And then, finally, within our own Government, we have felt, 
for some time, we need a key person to move it ahead. We need 
an American Paddy Ashdown, if I could put it that way, someone 
who can help pull all of these pieces together. If there is 
anything that has impressed me in Afghanistan, it is the number 
of programs that are moving in different channels at different 
paces in, seemingly, an uncoordinated way. When you asked a 
question, a minute ago, we had to go and compare General X's 
police trainers with Department Y's police trainers to come up 
with the total figure. Well, you know, it doesn't work that way 
in the need to have a unified effort.
    I spent a lot of my life dealing with last decade's 
problems in El Salvador and Colombia. Still not dealt with. 
But, they indicated to me that we needed, to the extent that we 
possibly could get it, a unified effort.
    Our report, and its accompanying reports, are all four-
square on the same ideas. We have 40 or 50 integrated, 
collected recommendations. They're part of a synergy. I'm not 
going into them in detail. We commend them to your reading. We 
think they provide a strong basis for going ahead, and we thank 
you, again, for the opportunity to put this material before 
you.


    [The prepared statement of Ambassador Pickering follows:]


Prepared Statement of Hon. Thomas R. Pickering, Former Under Secretary 
       for Political Affairs, Department of State, Washington, DC

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today to address one of the most pressing and emergent 
issues we face as a nation--one which for too long has been hidden by 
our focus and concentration on other issues in the region and beyond.
    In recognition of the growing crisis in Afghanistan, three major 
American organizations each carried out independent studies of what was 
happening and what needs to be done to deal with the problems. It is no 
accident that the issue is so exigent, that when the three 
organizations gathered to discuss their reports, they immediately 
agreed to issue their reports together and to join forces in their 
presentations. That was done yesterday afternoon.
    Today's hearing gives me a chance to highlight aspects of the 
report I had the welcome pleasure of cochairing with General James 
Jones, former NATO SACEUR and U.S. Combatant Commander in Europe. He 
joins me on the panel today and will present his own views on the 
report and its salient features.
    My task is a simple one. In order to highlight the urgency and the 
importance of the issue I want to present to you a summary of the 
report's key conclusions on what is happening now, as we meet, in 
Afghanistan. Second, I want to provide you with the most important 
recommendations of a distinguished group of panel members each one of 
whom has had extensive experience in Afghanistan and the region. I 
don't claim special knowledge or experience in Afghanistan and have 
relied heavily on the team's expertise to make and justify our 
conclusions and recommendations. I have drawn heavily on the language 
of the report to assure that their conclusions are concisely and 
crisply conveyed to you.
                               assessment
    Afghanistan is at a critical crossroads. Six years of progress is 
under serious threat from resurgent violence, weakening international 
resolve, mounting regional challenges and a growing lack of confidence 
on the part of the Afghan people.
    The United States and the international community have tried to win 
the struggle with too few military, insufficient economic aid, and 
without a clear and consistent strategy. We must now deal with 
reconstituted Taliban and al-Qaeda forces in Afghanistan and Pakistan, 
a runaway opium economy and the severe poverty faced by most Afghans.
    Why is this so important to us?
    In the words of our report, success in Afghanistan is a critical 
national security imperative. Failure means new threats from the 
Taliban and al-Qaeda from a renewed sanctuary for them in Afghanistan 
to the detriment of our interests in the region and at home.
    Internationally, we are seeing a weakening of resolve among our 
friends and partners. Polls show public attitudes are divided on 
bringing troops from their countries home immediately or remaining 
until the country is stabilized. In all but the U.S. and the U.K. 
majorities called for withdrawal as soon as possible.
    It is clear that there is a lack of an overall, overarching 
strategic vision to reinvigorate the effort to attain unified, 
reachable goals.
    This year has been the deadliest for U.S. and coalition troops 
since the invasion of 2001.
    The most immediate threat is from the antigovernment insurgency 
that has grown significantly in the last 2 years. Attacks against 
Afghan military and police forces have also surged. Some success has 
been achieved in targeting Taliban leadership, but significant areas of 
Afghanistan, particularly in the south have been lost to friendly 
control.
    Some of our allies believe the mission is failing and several NATO 
members are wavering in their troop commitments, offsetting the strong 
involvement of Britain, Denmark, Poland, Canada, Australia, and the 
Netherlands among others.
    A failure of NATO in Afghanistan would damage the future of the 
organization itself.
    Realizing an Afghanistan that is stable and secure and free of 
influence from radical, Islamic forces is a core objective. Taliban and 
al-Qaeda maintain close links.
    There is an acute need for international coordination on both the 
military and civilian side. Separate military commands with some 
overlapping missions complicate the process as does the lack of a 
senior civilian leader. The recent inability to appoint Lord Paddy 
Ashdown of the United Kingdom (U.K.) as a result of objections from the 
Karzai government means we are back to square one in trying to find a 
solution to that critical issue.
    Military and especially police training are lagging as are 
counternarcotics efforts and judicial and penal reform.
    Provincial Reconstruction Teams (PRTs) fielded by many governments 
have separate reporting channels back to their capitals and there is no 
unified field theory on how they should operate, be coordinated, or 
accomplish their missions.
    A recent report in the Washington Post concluded that: ``While the 
(U.S.) military finds success in a virtually unbroken line of tactical 
achievements, (U.S.) intelligence officials worry about a looming 
strategic failure.''
    Six years after the fall of the Taliban Government in Afghanistan 
the country is still facing a fundamental crisis of governance. Without 
an honest, sustainable government there can be little effective 
development and even less political legitimacy. The country has ``a 
stunning dearth of human capital'' and a number of leaders, often in 
the provinces, are considered to be serial human rights abusers by much 
of the population. This shakes confidence in the rule of law and 
democracy and overall governance in critical ways. Underpaid civil 
servants are asked to undertake dangerous counternarcotics missions and 
easily fall prey to bribery and corruption in return.
    The public looks to the government not only for housing and health 
care, roads and schools, but just as much, if not more, for security 
and justice. At present the government cannot do this and this leads 
neighbors, aid donors, and troop contributors to hedge their bets.
    Former U.S. Commander, LTG Karl Eikenberry, has said the greatest 
long-term threat is not the resurgence of the Taliban but ``the 
potential irretrievable loss of the Government of Afghanistan.''
    Equally, if not more disturbing are important findings from 2006 
showing the spread of narcotics cultivation from 165,000 hectares to 
193,000; more land than is under coca cultivation than in Latin 
America. And while some key provinces in the north and center are being 
reported as opium free, those provinces continue to profit handsomely 
from drug trafficking.
    Extensive receipts from this activity, ``drug money'' weakens key 
institutions and fuels and strengthens the Taliban, while at the same 
time corrupting the country's governmental leadership.
    There are serious disputes about how best to deal with the drug 
economy. Some want large, scale aerial eradication with the potential 
for serious, disruptive impacts on rural Afghans and their livelihood. 
Others are counseling more gradual but more complete approaches seeking 
to find crop substitutes and other supports for the 90 percent of 
Afghans who have said they are willing to abandon poppy cultivation if 
they can count on earning half as much from legal activities.
    Closely linked, but also independently important for Afghanistan's 
future, are questions of development and reconstruction. It is the 
second lowest country on the U.N.'s human development index for 2007-
08. Life expectancy is short, infant mortality high, and access to 
clean water and health services severely limited. Nevertheless there 
are some positive economic indicators--8.7 percent growth (against a 
small base), low inflation, a stable currency against the dollar and 
significant foreign exchange reserves. Refugees are returning, 
agricultural output is up, and roads are being repaired and rebuilt to 
the rural areas.
    The lack of security has disrupted trade, communications, transport 
and the energy infrastructure.
    Even after 6 years, foreign assistance amounts are hard to tabulate 
and coordination is weak. School populations have boomed particularly 
among girls and efforts are being made to fund primary health care. 
While some experts say it is an exaggeration, claims that only 10 
percent of assistance gets to Afghans are worthy of attention and a 
correction of these faults is badly needed.
    Finally, Afghanistan can no longer be considered as an isolated 
state to be dealt with on its own. It is vulnerable as never before to 
external pressure and what goes on, especially in the Pakistan border 
region, is critical to success or failure. Kabul needs better relations 
with its neighbors, especially coordination with Pakistan and a 
commitment on the part of Pakistan to deal with its own tribal areas 
FATA, something that is particularly challenging and elusive and has 
been over the history of modern Pakistan.
    With all of these difficulties there is clear reason why we call 
attention to the need to improve and make more strategic and effective 
our support for Afghanistan. It is a state poised for a slide. Our 
ability to provide the help and support needed to make a difference 
remains a key factor. And for that purpose, I want to provide from our 
report a key list of major recommendations. The report itself should be 
consulted for the full list which is put together with the objective of 
forming a coherent and collective whole.
    The recommendations are divided, into three overarching 
recommendations and six groups--international coordination, security, 
governance and the rule of law, counternarcotics, economic development 
and reconstruction, and Afghanistan and its neighbors.
                     i--overarching recommendations
--Create an Eminent Person Group from among our allies and partners to 
    put together a long-term coherent strategy.
--Decouple legislative and executive branch consideration of Iraq and 
    Afghanistan.
--Develop a unified management structure led by a Special Envoy to 
    Afghanistan to coordinate and lead all aspects of U.S. policy and 
    implementation.
                     ii--key issue recommendations
1. International coordination
--Work to consolidate the command structure, missions and rules of 
    engagement to simplify and clarify lines of authority and strategic 
    objectives.
--NATO needs to review its command and control arrangements to simplify 
    and streamline them.
--Appoint a high-level civilian coordinator under U.N. mandate to work 
    closely with the Afghan Government and to oversee the full range of 
    activities including contacts with regional governments.
--Develop an agreed concept of operations, goals, and objectives.
2. Security
--Increase the number of NATO troops and match quantity with quality.
--Focus more efforts on the training of the Afghan National Army (ANA) 
    and provide training, adequate pay, and equipment to the Afghan 
    National Police (ANP) so they can maintain security once coalition 
    forces depart.
--Increase the U.S. role in rebuilding the ANP.
--Work to reduce civilian casualties with a goal of ``zero civilian 
    casualties.''
--Better integrate Afghan forces in U.S. and NATO planning and 
    operations.
--Develop with the international community a coordinated strategy in 
    support of President Karzai's political reconciliation efforts.
--Create a regional plan to target risks coming out of the border with 
    Pakistan involving both the Afghan and Pakistan Governments and 
    work with Pakistan to get it more closely to incorporate FATA into 
    Pakistan.
3. Governance and rule of law
--A coherent and resourced strategy to increase the reach, capacity, 
    and legitimacy of the Afghan Government should be a top priority.
--Refocus efforts to develop an integrated and effective judicial 
    system.
--Develop governmental pockets of competence in the country, bringing 
    together the judiciary, justice and prosecutorial, and police 
    functions.
4. Counternarcotics
--Build and sequence the introduction and use of the core tools of 
    counternarcotics--crop eradication, interdiction (arrests and 
    prosecutions), and economic development.
--Increase investment in development--infrastructure and industry.
--Enhance interdiction efforts.
--In lieu of massive eradication adopt an ``Afghan centric'' approach, 
    including public information campaigns, voluntary restraint, full 
    delivery of announced programs for alternative livelihood, and 
    provision of all the services for alternative crops now provided by 
    drug traffickers--(agricultural extension, futures contracts, 
    guaranteed marketing, financing and micro finance).
--Beware of negative effect of large scale eradication without careful 
    support mechanisms and programs on support for the government and 
    its programs.
5. Economic development and reconstruction
--The Afghan Government should get more credit for development and it 
    needs help to improve its accounting and anti-corruption defenses.
--Get Afghans to appoint an Afghan development czar.
--Spread development more evenly around the country.
--Follow up quickly clearance of Taliban forces from provinces with 
    development assistance.
--Enhance infrastructure development.
6. Afghanistan and its neighbors
--Embark on a sustained and long-term effort to reduce antagonisms 
    between Afghanistan and Pakistan with the goals of rooting out 
    support for the Taliban and its ideology, closing down extremist 
    madrassehs and training camps and encouraging a relaxation of 
    Pakistani restrictions on the transport of goods to Afghanistan. 
    The Afghans should continue to be urged to accept the Durand Line 
    as its border with Pakistan.
--Pakistan needs to be encouraged to regain physical control in the 
    FATA.
--An effort needs to be made to resume conversations with Iran to coax 
    out greater cooperation in helping to stabilize Afghanistan.
--A regional peace process should be developed, beginning with 
    confidence-building measures, with the eventual goal for 
    Afghanistan becoming a neutral state protected by commitments 
    against interference in its internal affairs, clandestine weapons 
    supply and a comprehensive regime to support the flow of trade.
                               conclusion
    This is a critically important tissue for this administration in 
the United States and for the next. There are many problems. Among the 
most important are governance and the building of Afghan capacity in 
all areas, drug cultivation, security in the border areas, and 
cooperation among our allies.
    The urgency is real. The problems can be dealt with. It will 
require new and enlarged efforts by this committee and the legislative 
and executive branches working together.
                                 ______
                                 

 ``Revitalizing Our Efforts, Rethinking Our Strategies''--Afghanistan 
    Study Group Report by the Center for the Study of the Presidency

    This bipartisan group, established in spring 2007, and cochaired by 
General James L. Jones (ret.) and Ambassador Thomas R. Pickering, 
consisted of policy experts and former government officials.
    The report asserts that the United States and the international 
community have tried to win the struggle in Afghanistan with too few 
military forces, insufficient economic aid, and without a clear and 
consistent comprehensive strategy to fill the power vacuum outside 
Kabul and counter the combined challenges of reconstituted Taliban and 
al-Qaeda forces in Afghanistan and Pakistan, a runaway opium economy, 
and the stark poverty faced by most Afghans.
    Achieving success in Afghanistan will require a sustained, 
multiyear commitment to make the war in Afghanistan--and its 
reconstruction--a higher U.S. foreign policy priority. Although 
substantial obstacles remain, the strategic consequences of failure in 
Afghanistan would be severe for long-term U.S. interests in the region 
and for security at home. Therefore, the ``light footprint'' in 
Afghanistan needs to be replaced with the ``right footprint'' by the 
U.S. and its allies. It is time to revitalize our efforts and rethink 
our strategies to stabilize Afghanistan to ensure our commitment level 
is commensurate with the threat posed by possible failure in 
Afghanistan.
The Report Calls For:
  <bullet> Decoupling Iraq and Afghanistan in the U.S. legislative 
        process and in the management of these conflicts in the 
        executive branch.
  <bullet> Appointing a U.S. government Special Envoy to Afghanistan.
  <bullet> Establishing an Eminent Persons Group that would develop a 
        long-term, coherent, international strategy for Afghanistan in 
        coordination with the Afghan Government.
Some of the Afghanistan Study Group's other recommendations include:
  <bullet> Appoint a high level international coordinator under a U.N. 
        mandate.
  <bullet> Set up a NATO compensation fund for civilian deaths, 
        injuries or property damage resulting from its military 
        operations.
  <bullet> Develop a coordinated strategy in support of President 
        Karzai's national reconciliation efforts.
  <bullet> Create a regional plan to effectively target the risks 
        coming out of the border area with Pakistan.
  <bullet> Sequence the core tools of counternarcotics policy and 
        integrate counternarcotics and counterinsurgency operations 
        where appropriate.
  <bullet> Increase and accelerate investment in development--
        especially infrastructure and industry development--in all 
        provinces. Encourage the Afghan Government to appoint an Afghan 
        development ``czar.''
  <bullet> Initiate a regional process to engage Afghanistan's 
        neighbors (including Iran) and other potential regional 
        partners in the future sustainable development of Afghanistan.

[Highlights from the Jan. 30, 2008, report is available at 
www.thePresidency.org.]

    The Chairman. Thank you.
    Ambassador Holbrooke.

  STATEMENT OF HON. RICHARD HOLBROOKE, FORMER U.S. PERMANENT 
       REPRESENTATIVE TO THE UNITED NATIONS, NEW YORK, NY

    Ambassador Holbrooke. Thank you, Mr. Chairman. It's such a 
great pleasure to appear before you and your colleagues again, 
and especially on this issue.
    In order to be brief, let me just say, for the record, I 
agree with everything that General Jones and Tom Pickering have 
said, and I want to just add a few points, in highlight, and 
make a couple of suggestions.
    The importance of the issue is undeniable, and this 
committee deserves great credit for keeping it in the 
forefront, but I would suggest, even further, Mr. Chairman, we 
are going to be in Afghanistan long after Iraq is over. This is 
a long-term commitment. It may even turn out--it may even turn 
out that, in the long-term, Afghanistan is more important than 
Afghanistan. Tom Pickering already alluded to the fact that 
Afghanistan and Pakistan are essentially one strategic unit, 
and I strongly endorse that view. And, for that reason, and 
because it is the area from which 9/11 was planned and from 
which future attacks against the United States are undoubtedly 
being planned today, it deserves the longest possible 
examination. And I hope that any legislation you put forward in 
the future will impose on the previous witnesses, and the 
administration that they represent, the kind of metrics that 
General Jones talked about, because that was a very 
nonresponsive set of testimony that we heard today to your very 
deep questions.
    Now, on the--I would just make one other point on this. If 
you see ``Charlie Wilson's War''--and I know many of you know 
Charlie Wilson personally, as we all do--it's an entertaining 
film, and I'm not going to judge the details of it here, but 
the core point of the film, unstated, is what happened when the 
film ends, which is that, after the Soviets left Afghanistan, 
the United States turned its back on it, in the spring of 1989, 
leading to the Taliban.
    We can't walk out. We are going to be in Afghanistan as 
long as those people in this room in front of us, and we, are 
involved in public service. And the American public should 
recognize that. This is not a partisan issue. It is not part of 
the Presidential campaign, as Iran and Iraq are.
    And I was very disappointed in the previous witnesses, 
because they challenged your assertions and did not recognize 
the merit of this extraordinarily important report that General 
Jones and Ambassador Pickering and others issued yesterday in 
conjunction with this hearing. That report deserves attention, 
and, for the State Department officials to refute the assertion 
that things are not going well in Afghanistan, which they did, 
explicitly, today, was, to my mind, incomprehensible.
    To be sure, the situation in Afghanistan is better today 
than it was in 2001, when Afghanistan was living through what 
its people called ``The Black Years,'' but it is not better 
than it was 2 or 3 years ago, and the administration's spin 
this morning reminded me, not only of Iraq, which you, Senator 
Biden, referred to, but of a more distant war in the last 
century, in southeast Asia, where witnesses sat before this 
committee and tried to present evidence that Vietnam was going 
well, when, quite honestly--and you have two veterans of that 
war before you today--it was not going as well as they said.
    Now, I want to stress that we can succeed in Afghanistan, 
we must succeed in Afghanistan, but success will not be defined 
by getting out and leaving it a viable country in the 
foreseeable future. That's just not an--that's not a likely 
outcome. And the American public must be ready to recognize 
that, as I know all of you before us today have.
    We can succeed. The vast majority of Afghans that I have 
talked to do not wish to see a return to what they call ``The 
Black Years,'' and that's especially true of the women of 
Afghanistan, who live in mortal terror of the return of the 
Taliban, for reasons that we all understand.
    I first visited the country in 1971, and drove throughout 
the country when it was a different place; and to see what 
it's--what it looks like today on my recent trip is 
heartbreaking.
    Now, there are three key problems, to me. I would identify 
the top three problems, out of dozens, Mr. Chairman.
    No. 1, the border. I would submit to you that it is not 
possible for us to achieve success while Waziristan and the 
northwest frontier tribal areas are safe rest/recuperation/
training areas for the Taliban and al-Qaeda. And we need to 
address that problem. It--you all know this, but the 
administration has never put enough attention to this problem. 
President Bush did have one well-publicized dinner between 
Presidents Karzai and Musharraf, but there was no followup.
    The second problem is drugs, and the third is police. With 
your permission, I would like to focus on the drug problem 
briefly.
    With all respect to David Johnson, who I've worked with 
closely in previous administrations, and who I think is an 
excellent career diplomat, I must submit to you my own view 
that we, or you, are authorizing, and then the administration 
is spending, American taxpayer dollars to strengthen America's 
enemies. I see no other way to interpret what's happened. Each 
year we spend, in a difficult-to-determine amount of money, 
which is probably around a billion dollars, on our drug 
program. And, as you pointed out, Mr. Chairman, each year the 
amount of opium that's produced increases. Furthermore, as you 
pointed out, the drug lords are known. And if you walk around 
the streets of Kabul--although you pointed out, correctly, that 
walking around now is much more difficult than it used to be--
if you walk through the streets of Kabul, you will see very 
large houses, and you ask--new modern houses--you say, ``Who's 
that?'' they say, ``That's the drug lord's house.'' Everybody 
knows who they are. And the testimony you heard, previously, 
denied the fact that--and it troubled me, because--How can we 
fix a problem if the people in charge of fixing it don't seem 
to admit it exists? We are strengthening America's enemies by 
destroying crops in the insecure areas.
    Now, the previous witnesses referred to Jalalabad and that 
area in the north, where there has been an improvement in 
security, and there has been a reduction of drug production; 
although, let us be precise, they're also switching from 
heroin--from opium to marijuana, because the crop blends in 
with the scenery better. It is Helmand, in the south, around 
Kandahar, which is the issue. And in that area, bordering the--
bordering Pakistan, heavily insecure, that we find an insoluble 
problem with the present methodology. I do not believe that 
destroying crops in insecure areas can possibly work as the 
priority.
    The report that General Jones and Ambassador Pickering have 
produced talks about sequencing. The previous witnesses 
attacked and questioned that. I think they should explain what 
they meant, because their version of sequencing is precisely 
the correct approach. We can't destroy crops when there's no 
alternative-livelihood program, when there are no roads, and 
when we are driving farmers into the hands of the Taliban while 
enriching the drug lords. John Lee Anderson's article in The 
New Yorker portrayed vividly what happened when he went out on 
a drug eradication--on a poppy eradication program, and they 
only destroyed the crop on the left side of the road, because 
the right side was a landlord and a tribe that they wanted to 
protect.
    So, I would urge you, Mr. Chairman, to continue these 
hearings and keep pushing. And I--with all respect, I hope you 
will not accept what you heard in the previous testimony, 
because it is--it is a formula for another hearing like this in 
6 or 12 months, when the situation will be still worse.
    I will stop there, Mr. Chairman, but I appreciate the 
opportunity to join you today.
    The Chairman. Thank all of you for being here.
    A couple of us went into Afghanistan, the January after the 
Taliban fell, and--with Secretary Rumsfeld trying to keep us 
out. It's amazing how he didn't know there are three branches 
of government, and he got confused. And, anyway, we spent some 
time in there--4 days--and I had a--this is directed to you, 
General--and we met with--I think it was a British two-star, 
wasn't it? I can't recall. I think it was a British two-star 
who was in western Kabul and went over, had--I think we had a 
meeting with him. We spent some time with him. And I asked a 
question of him at that time--this is 2002. I said, ``General, 
how long is your Parliament going to let you stay here in 
Afghanistan?'' And he said, ``Senator, we Brits have an 
expression.'' He said, ``As long as the big dog's in the pen, 
the small dogs will stay. When the big dog leaves, the small 
dogs will leave.''
    Well, it seems to me part of the problem is, the big dog 
left and put all its focus on Iraq. I don't want to get into an 
argument about whether Iraq's right, wrong, or indifferent, but 
the bottom line was, when we came back, I issued--well, not a 
report, but a--well, I guess it was a report, actually--that 
then-Secretary of State Powell agreed with, and he led the 
fight within the administration, as you may recall, to increase 
resources and military assets in Afghanistan at that time, and 
he lost that bureaucratic battle with, I assume, Rumsfeld and 
Cheney. I don't know, but I--that's the obvious assumption. And 
it seems to me everything's, kind of, gone downhill from there. 
And I've noticed a phrase all three of you used, or some 
version of the phrase, that, you know, international resolve is 
waning.
    Which leads me--there's a point to this--which leads me to 
Pakistan. I would argue that, in 2002, we had a real 
opportunity to--with Musharraf--to actually get a little more 
robust cooperation in dealing with Waziristan. And I think he 
saw the big dog leaving, as well, and I think he made his deal, 
essentially; I don't want to overstate it. But, he made his 
deal, which was, basically, let--``You leave me alone in 
Islamabad, and I'll leave you alone in the provinces.''
    Which leads me to this point. Most Americans think we're in 
Afghanistan, fighting al-Qaeda. They could give a damn about 
the Taliban, if you really got down to it. We all know that you 
should be very concerned about the Taliban. But, they could 
give a damn about the Taliban, because they don't think the 
Taliban got in planes and came over and attacked the United 
States, they think the Taliban did what they did, they gave 
refuge and comfort and support to al-Qaeda.
    Now, I ask the question, which I can't respond to today, 
by--I can't tell you the answer in public, but you will know 
it--of the intelligence community, about the relative role of 
the Taliban and al-Qaeda, and how that mix works.
    Which leads me to my question. If Ambassador Holbrooke is 
correct that ultimate success--``success,'' meaning a stable 
Afghanistan over a long period of time emerging, not unlike our 
commitment we made to Korea, not unlike commitments we--long-
term commitments we've made in the past that worked--how much 
of the ability to deal with the border relates to the ability 
to deal with Pakistan and the ISI, and how much of that relates 
to al-Qaeda? Make--if you can talk to me about, if there's a 
distinction--I think there is--but where the focus, you know, 
should be, in terms of that border.
    And I would conclude by saying, I would suggest that if we 
took out the entire--all of al-Qaeda--if the Lord came down and 
said, ``There's not a single member of al-Qaeda left alive and 
breathing on the Earth,'' we still have a real big problem with 
the Taliban. And, conversely, if the Taliban were gone, you 
still have a problem with al-Qaeda. Talk to me about the nexus 
between al-Qaeda, Taliban, Pakistan, and Afghanistan, if you 
would. Anyone.
    General Jones. What I can talk about is the fact that, as 
NATO commander, my relationship with Pakistan really occurred 
in the last 6 months of my tour, just as I was leaving NATO. 
So, I only had the opportunity to visit Islamabad twice and 
host the Pakistani military at NATO one time. This was right at 
the time when we were beginning to witness the failure of the 
deal that was struck with the tribal regions to live and let 
live, on the false notion that they would honor their side of 
the deal, which is to say, respect the borders and cease and 
desist, which they didn't do.
    In my last meeting with a senior Pakistani official, I told 
him that the next few months would probably show that this is 
not going to work, and the problem is going to get worse and 
not better. And it's exactly what happened.
    I think that there are a couple of things that were going 
on in 2004 and 2005. It was called a Tripartite Commission, 
where the United States, Afghan, and Pakistan militaries 
regularly met to discuss the situation. When NATO came in and 
took over the responsibility for security and stability in 
Afghanistan, NATO became a member of the Tripartite Commission, 
as well. So, there is an ongoing relationship.
    I think, whatever the future holds, that part of the region 
is going to be a central point if we're going to achieve any 
success, and we simply have to make sure that we do it well.
    One last point. My observation during my 4 years there was 
that the Taliban was certainly potentially more numerous; al-
Qaeda, for a while, was an afterthought in 2002-2003. Both have 
shown a propensity to recover from the defeats that were--that 
they experienced, and simply because we haven't addressed the 
issue of safe havens and border transit.
    The Chairman. Anyone else?
    Ambassador Holbrooke. Mr. Chairman, I think that the 
problem with that border area is one of the toughest on Earth, 
so there's no easy solution. In General Jones's and Ambassador 
Pickering's report, they have a very good suggestion, which 
relates directly to your question, and which, as far as I know, 
has received no attention in the administration. First, an all-
out effort to get the Afghan Government and the Pakistani 
Government to agree on the international border. As you well 
know, the Durand Line, in the 19th-century British legacy, has 
never been fully accepted. Second----
    The Chairman. The recommendation is for the Afghanis to 
accept the Durand Line.
    Ambassador Holbrooke. Yeah, the--they specifically 
recommend the Afghans accept the Durand Line, but in the real 
world anything the two countries agree on ought to be fine to 
the United States. The Durand Line is a--is, I feel, a starting 
point for negotiation. I don't know every detail of it; no one 
does, anymore. There is--they also suggest an--a major 
international conference--they use the precedent of the 
Congress of Vienna, in 1815, which fixed Swiss neutrality, and 
it's held for 200 years--to agree on neutrality for 
Afghanistan. They also point out that Iran must be part of the 
solution of Afghanistan.
    Now, I was in Herat, a year ago. The Iranian influence in 
Herat is crystal clear, and Herat is relatively stable, because 
the Iranians don't want problems there. They have other 
problems--drugs are crossing the border, and the Iranians want 
to gain economic hegemony. But, like with Iraq, a point you 
have made many times, you can't fix the problems of Iran--I 
mean, excuse me, Iraq and Afghanistan without a buy-in from the 
neighbors, no matter how they are.
    Having said all that, the actual problem of what to do with 
these training camps is an awesome--a daunting one. Some people 
have proposed Americans crossing the border in hot pursuit. The 
risk of that is very--there's a very high risk here--and I 
would defer to General Jones--that we would get into areas 
where our military effectiveness would be limited, but the 
political and strategic negatives would be enormous. So, I 
think we have to proceed very carefully.
    Finally--two last points--there is now a new element in the 
equation which none of us would have expected 5 years ago: 
Pakistani Taliban whose focus is eastward toward the populated, 
nonfundamentalist areas of Pakistan. They pose a real threat, 
and the lack of democracy in Pakistan seems to be feeding that 
opportunity. It would be the biggest strategic catastrophe in 
memory if Pakistan went the way that Iran went in the 1970s. 
And yet, the narrowing base of the government raises that risk 
in the deepest way. I know you have spoken eloquently on this 
in public, repeatedly over the last year, and I can only echo 
and share the things you have said, Mr. Chairman.
    The Chairman. Ambassador.
    Ambassador Pickering. Just three very brief points, Mr. 
Chairman, to amplify what my colleagues have said, with which I 
totally agree.
    Al-Qaeda is an Arab organization. Taliban is predominantly 
Pushtun. They clearly had tensions, even when we were 
supporting them both to fight the Soviets. In adversity, those 
tensions go away.
    We neglected to understand that, after, in fact, we were 
quickly victorious in Afghanistan, we had a huge mountain of 
work to do, to follow up to make sure that it didn't roll out 
under our feet. We have a constant capability of doing that, if 
you look back over the years. We--pretty good at wars, and very 
bad at what to do after them.
    The second piece, I think, is equally important, that Iran 
and the United States share a common interest in Afghanistan. 
We, after all, took the two greatest burdens off the Iran 
plate: The Taliban in Afghanistan and the leader of Iraq.
    There is, in my view, a serious opportunity here. And the 
report is not, in my view, at all wrong in suggesting that this 
happened. My belief is that we need a broader conversation with 
Iran anyway. But, if Iraq is a legitimate subject, why isn't 
Afghanistan a legitimate subject to talk to Iran about, 
regardless of all the other difficulties we've got?
    Look, we couldn't have the Karzai government, as Dick 
reminds me, if we hadn't got together with the Iranians in Bonn 
and put it together. And Jim Dobbins, who led that effort, is 
almost lavish in his praise of Iranian cooperation in those 
days, as strange as that may seem in today's environment and 
atmosphere.
    I think the third piece is that Dick is right about the 
Pakistan Taliban, but it's not totally new on the scene. We've 
had movements in Pakistan in the madrassas, training radical 
Islamic people, many of whom went to Afghanistan in the pre-
Taliban-ruling days and became, in fact, the nexus of a lot of 
the Taliban effort. I think that a totally looney idea is to 
put U.S. forces into the frontier areas of Pakistan. If the 
Pakistanis themselves cannot do it with their knowledge, with 
their colorable capability to operate in those areas, at least 
now, how are Americans going to get over this particular 
difficult problem? I have no objections to the United States 
helping Pakistan, but this is a Pakistani problem, in almost an 
exclusive sense, and we have to find a way, which we haven't 
been successful yet in motivating the Pakistanis to do so.
    I think their deal came after, at least according to 
reports I had, they tried putting a division into the frontier 
tribal areas, and got very badly beat up. So, it is not a 
simple problem, either for Musharraf or for the Pakistanis to 
deal with. But, I see that as the only road, and I totally 
agree with Dick on the looming dangers.
    The Chairman. Well, I know you have to go at 12:30, 
General. My time is up. I'll conclude by saying that, you know, 
some Americans would wonder why--with us being, essentially, 
the primary guarantor of Karzai's government, why--when Paddy 
Ashdown was told that he was not acceptable, why we would 
accept that. I understand it's an independent government, but 
many Americans would wonder why we would be in a position to 
not make it clear that that was not acceptable, in terms of the 
help they expect from us. But, at any rate----
    Ambassador Holbrooke. May I comment on the Paddy Ashdown 
fiasco? Paddy--I share General Jones's view of Paddy. I worked 
with him very closely in Bosnia, and I was in close touch with 
him over the last 4 months. He was ready to take great risks to 
his life and give up a very enjoyable retirement to do this. 
The reason he--and he and Karzai had met, and they had agreed 
on it. And then, there was a political backlash, and the press 
in Kabul began to charge him with being a relative of the 
British lord who had led the expedition that ended in such 
disaster in the 19th century. They wrote that he was coming 
back for a ``blood revenge.'' They warned him that his life 
would be in danger, and still he was ready to go forward, with 
the support of the U.S. Government.
    But, in the end, he had to withdraw, because he couldn't 
have possibly fulfilled that mandate he had without the 
government's support. I did not hear a clear answer to your 
question to the previous witnesses, which is a very important 
one, about whether they are going to try to get someone else in 
there, or whether the whole issue is now behind us. But, I hope 
that this--your committee will continue to keep this issue 
foremost, because everyone agrees that something along these 
lines is necessary.
    The Chairman. Something is necessary.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    In my questions for the previous panel, I was asking, as 
many members have, for an overall plan for Afghanistan. And 
I'll not go back through that, but each of you have illustrated 
elements that have to be in that plan. And there was an 
assertion that there are plans, that they are coordinated, they 
mesh together in some way that we have not perceived very well. 
So, I was really asking for clarification of, really, how 
Afghanistan might succeed, under the best of circumstances, 
with the proper insertions of capital, personnel, leadership 
from abroad, all the elements that might be helpful, as well as 
the reforms that the moneys and the training hope to bring 
about.
    What, seems to me this panel--each of you have, 
individually, demonstrated that even if we had a good business 
plan for Afghanistan, and prospects of gaining all the inputs 
that are required, we would have to think very carefully about 
Pakistan and Iran, because Afghanistan is unlikely to succeed, 
isolated, even if the business plan is very good. Now, this is 
even more daunting, because, to begin with, we don't know the 
elements of all the investments we need.
    And then, on top of that, to say, even we did this, given 
this border, given Waziristan and safe havens, or, worse still, 
as you've all talked about, we don't know the future of 
Pakistan, its politics and its governance, quite apart from 
what happens in Waziristan, and with Iran--and this is totally 
outside the scope of this hearing, but I was disturbed that 
Ambassador Khalilzad was being criticized for having appeared 
on the same platform with the World Forum, with two Iranians. 
They're a long way, to say the least, from dialogue, although I 
agree that the Iranian aspect of this, historically, as well as 
currently, is extremely important. And I think you, Mr. 
Holbrooke, pointed out that we have encouraged, many of us, 
really, almost a roundtable discussion, if not in Baghdad, 
somewhere else, of all the neighbors of Iraq. That really has 
not come off, despite a couple of conferences on the side. But, 
it needs to, at some point, if there is to be the integrity of 
that state, and so that everybody understands what everybody 
else is doing in the process.
    So, it seems to me, the importance of your testimony is 
this additional dimension. In addition to sufficient planning 
for how we might have success in Afghanistan, a more 
comprehensive plan for how we work with Afghanistan and the 
region--and that's even more complex--doesn't mean it shouldn't 
be done; and probably we're not going to have great success in 
that area without that occurring.
    Now, what I am curious just to ask--I mean, in terms of 
specifics, because the reports that you've cited get into 
this--we've had some testimony with regard to the police 
training, that it was rapid, in many cases. I think previous 
witnesses pointed out one deficiency may be the training of 10 
days or whatever--it was too rapid. People sent out in the 
field, and were not well equipped to handle the job. But, the 
more common comment is the pervasive corruption of those who 
finally get into the field. In other words, there still is not 
a central government culture of noncorruption. There are 
provincial nodes and cultures that the police seem to fit into. 
And that's going to be a difficult problem for some time, I 
suspect, in the same way that we've made headway with the 
rights of women or students or all the health care, whatever. 
The fact is that there are cultural differences throughout the 
country that are very substantial, and the police training, 
even if it was more adequate, has to include, really, integrity 
and sufficient pay, I suppose, as other countries have found, 
to fight corruption.
    The other point that some of us have heard in other 
testimony is that, in the case of army recruitment, this is 
difficult; and, furthermore, the number of soldiers going AWOL 
is substantial. I think someone else said retainment is 
difficult. But, in fact, a very large percentage of people seem 
to have simply disappeared from the ranks. Now, that's 
disturbing, regardless of what you're planning for Afghanistan 
or generally, to have, in both of those elements, that kind of 
deficiency.
    Finally, let me just throw, before I ask each of you for 
comment--in the case of the drug situation, maybe eradication 
on one side of the road or the other is not a good idea, or 
maybe eradicating it at all, given the hostilities and so 
forth--but, what would happen if we adopted a policy, either 
generally or specifically, that our country buys the drugs? We 
simply reimburse the farmer for his problems. We take the drugs 
out of circulation, put some money into circulation in the 
rural areas, or in those places that are in very deep straits. 
Now, when I've made that suggestion before, some people have 
said, ``Well, you would have to arm-wrestle the drug lords.'' 
In other words, they want to get their hands on it. This is a 
market--this is a system of brokerage and movement in which the 
United States would be competing with the drug lords for the 
product, but perhaps to the benefit of the farmer.
    Now, most people would say, ``Well, this is just too 
clever, by a half, that you--to get our country into an 
ambivalent moral position of buying poppies or opium, whatever, 
from these people.'' But, I'm simply wondering, in the sort--in 
your studies, as a commission, or in your own thinking, whether 
this idea of purchase as a way of moving through this thing 
more adroitly has ever come up.
    I rest my questions, and I've lost my time, but, in any 
event, if any of you have responses, I would appreciate it.
    General Jones. Thank you, sir.
    Just a brief comment about the narcotics situation. I think 
the solution is one that is comprehensive. It may have an 
element of purchase to it, but it also will have an element of 
eradication, it'll also have an element of crop substitution, 
an element of subsidies. It also has to have a penal element 
that is enforceable, and a security element. And there's the 
overarching question of who's going to do that. I personally 
think that, ideally, you'd want the Afghans to take more 
responsibility for that kind of interaction with their own 
people, but that hasn't happened.
    But, if we just simply bought the crop, my feeling is that 
next year you'd be buying twice the crop, because they will--
they'll just produce more if that's going to be the solution. I 
don't know where that ends.
    But, one of the things that I've observed was that, a few 
years ago the G-8 really came up with a pretty good plan of how 
to address the five pillars that everyone agreed to had to be 
addressed. Two of those pillars have actually gone pretty well. 
The Japanese-led disarmament, demobilization, and reintegration 
pillar was actually reasonably well done, and we could put that 
in a plus box. The American-led pillar of revitalizing and 
training the Afghan army, generally, is--has been a good one, 
as well. We'd like to see more progress, but certainly, in the 
short period of time, we can give that a good mark, as well.
    The other three are all linked, and it's narcotics, 
judicial reform, and police reform. And here, all three of 
those pillars also have a lead nation: Narcotics, United 
Kingdom; police, Germany; and judicial reform, Italy. And I 
think what's happened, at least in my observations, while I--in 
my monthly trips to Kabul, was that the international community 
basically let those three nations, kind of, try to solve the 
problem on their own, without getting behind them to support 
them, as the international community simply has to do for 
problems of that size. And so, as a result, those three pillars 
have been languishing, and have really not made any substantial 
progress. In the 3\1/2\ years that I visited regularly, I 
always asked for updates on the G-8 pillars, and was just 
saddened to see that there was none. I mean, it was simply the 
same meeting, the same group, the same plans dusted off, but 
without a whole lot of progress. So, that's just a couple of 
observations.
    But, this is why the Ashdown development is so serious, 
because what is clearly lacking in the capital, where you have 
the United Nations, NATO, the European Union, the World Bank, 
all kinds of NGOs and other global organizations that are all 
trying to do their different things, but that central piece of 
coordination that would direct the international effort to 
those things that must be done if Afghanistan is going to 
progress, seem to be still lacking, unfortunately.
    Ambassador Holbrooke. May I quickly address your second 
point, Senator Lugar? On crop buyback, there's a long history 
of this. I first encountered it in the 1960s and 1970s, in the 
Golden Triangle--Thailand, Burma, Laos. The problem is always 
the same. The--General Jones has already alluded to the fact 
that you just create a larger crop to buy back. It just seems 
to me that the flaw in the program is that we are attacking the 
victim, the people who are growing this to survive, without 
giving them anything in return. On paper, there's alternate 
livelihoods, and, in some parts of the north, around Musar, and 
even at Jalalabad, maybe in Herat, some of it's happening. But 
in insecure areas, that can't happen. So, the administration's 
long obsession with aerial eradication, which they finally 
abandoned, because Karzai said he would fight it publicly, and 
the British and the U.N. opposed it, really was a great 
diversion.
    So, what's to be done? There is no sustained effort against 
the drug lords or the traffickers or precursor drugs. And it 
was clear from the answers to the questions you and the 
chairman asked to the previous witnesses, their evasiveness, 
their failure to cite any high-level drug lord. There's no 
effort on precursor drugs--chemicals.
    Now, there--this obviously needs creative thinking, and I 
don't--I'm not an expert on this, and I don't know what the 
answer is. I have read a recent proposal that we just do a 
massive agricultural subsidy to the area. But, I do think that 
we should not eradicate crops in the insecure areas in Helmand 
right now. I think it's not just a waste of money. You--we've 
had plenty of wasted programs over the last 60 years. It is 
actively creating our enemy.
    And, again, I wish to state, Mr. Chairman, this is the 
only--this is the worst program I have ever seen--in the 45 
years since I entered the State Department, the most waste of 
American taxpayer money--and it is creating enemies. We're 
funding the Taliban's recruitment drive, we're funding drug 
lords. The crop, as you pointed out, keeps going up. And yet, 
we just heard witnesses defend it as though it was making 
progress. It's--this emperor really has no clothes, and we have 
got to face up to that and do a groundup review of what's to be 
done, with experts. And I would urge your committee to take the 
leadership, because we just saw, this morning, Mr. Chairman, 
that it is not going to come from the administration.
    The Chairman. Thank you very much.
    Gentlemen, General Jones has to leave at 12:30, so I would 
suggest that, if you have any particular question for General 
Jones, maybe we could--you know, it's obviously your time, 
Senator Feingold, and I'll--you'll have the full time, but 
maybe, if there are any questions for General Jones in the next 
15 minutes----
    Senator Feingold. All right.
    The Chairman [continuing]. That you might be able to focus 
them.
    Senator Feingold. I understand, Mr. Chairman. Thank you.
    And I want to welcome this public panel today. It's an 
exceptional group of experts. In particular, it's good to see 
my friend Richard Holbrooke.
    I'm very pleased to know that both the United States and 
the NATO Alliance are currently undertaking reviews of their 
Afghanistan policy. It's long overdue.
    I would also note that, while an additional 3,200 U.S. 
marines in Afghanistan is a step forward, I'm not convinced 
that it's enough to fix the deterioration, as of late. So, I'd 
like to ask all of you to comment--starting with the General--
on the critical balance that needs to be struck between 
increased security operations and more robust reconstruction 
programs, including addressing the rampant corruption and 
impunity that have, unfortunately, seized the Afghan 
government. We need progress on both civilian initiatives and 
military operations, and I'm wondering how we can balance this.
    General.
    General Jones. Senator, I think I can be very brief on this 
answer. I support the commander's call for the level of troops 
that he feels he needs. Having been in that situation from the 
outset of the first NATO expansion, I know the difficulties 
associated with calls for more troops and equipment. But, it 
doesn't sound to me that the number that they're requesting--
and, indeed, the welcome number that the Secretary of Defense 
has proposed--is really excessive; and which goes to reinforce 
my central point, is that you can certainly put a lot more 
troops in a big country like Afghanistan, but, I think, unless 
we address the other issues more comprehensively--that is to 
say, reconstruction and the other points of our collective 
testimony here--then I think you run the risk of losing 
momentum, which I think may have already happened, but--and 
then, even worse, backsliding. It's the failed expectations 
that were raised by the--sort of, the people of Afghanistan, 
when they voted so massively--and, in many cases, heroically--
to seat a President and seat a Parliament, that those 
expectations have, by and large, not been met. And that is, I 
think, one of the reasons why we see a resurgence of Taliban 
and other insurgent activities--and, obviously, the failure to 
address the narcotics problem, police, judicial reform, and 
corrupt officials being prosecuted.
    It's been my experience that, in those areas where we have 
a good governor, a good police chief, and the presence of 
viable units in the Afghan army, that people respond well to 
that kind of authority. Unfortunately, those areas are few and 
far between. But, when you see them, they stand out like 
beacons, because it is possible to succeed.
    And the lament that I have is that I would--I wish that we 
could--and the reason I'm so disappointed in the Ashdown 
denouement is that this is really what is needed--to get the 
momentum and to regain the advantage. I think the troop 
strength--I defer to the commanders. It doesn't sound to me 
like what they're asking for is unreasonable, nor a lot. The 
United States has already offered to kick in some. And I know 
the Alliance has the capacity to do at least as much, if not 
more, if it wishes to do so.
    Senator Feingold. Thank you, General.
    Mr. Holbrooke.
    Ambassador Pickering. Can I say a few words----
    Senator Feingold. Well, Mr. Pickering----
    Ambassador Pickering [continuing]. Senator, very briefly--
--
    Senator Feingold [continuing]. Is next; yes.
    Ambassador Pickering [continuing]. In contrast to your 
question on priorities in Afghanistan and Iraq?
    My sense is, from the experts and against the backdrop of 
military funding in the neighborhood of $8 billion, and 
civilian funding, a great deal less, I think our conclusion was 
that if you had to make that tough choice on the marginal 
dollar, it probably ought to go to the civilian side.
    Senator Feingold. Very good.
    Ambassador Pickering. But, you understand the predicates.
    Senator Feingold. Absolutely.
    Mr. Holbrooke.
    Ambassador Holbrooke. I agree with what's just been said. 
But, I want to underscore, Senator Feingold, the enormous 
importance of the police program. A lot of this--these issues 
are low-grade security, better adjusted for police. The police 
are underfunded, underpaid, undertrained, under-equipped, and 
easily corruptible. And the people of Afghanistan--I can't 
stress this too highly--desperately don't want the Taliban to 
come back. So, we need to invest an enormous amount more. This 
is--the truth is, this is going to take a lot more taxpayer 
dollars, which is why I'm so upset that our biggest civilian 
program over there is the one that's actually helping the 
enemy. And that's why we need a--that's why you've heard the--
this excellent report that General Jones and Ambassador 
Pickering put forward, urged a special envoy--Tom referred to 
it as an American Paddy Ashdown--but, obviously there is no 
focal point in the U.S. Government. The previous witnesses each 
have part of the problem, and neither of them is full-time in 
Afghanistan. One is Assistant Secretary for a region that 
includes a third of the world's population, including the 
subcontinent and the central--and the other one has narcotics 
worldwide. There is no one full-time on Afghanistan at the 
highest levels, as there must be.
    Senator Feingold. Thank you. I'm going to cede the rest of 
my time, so my colleagues can have a chance to ask General 
Jones questions.
    The Chairman. Thank you.
    Senator Bill Nelson. My irreverent comment to our staff 
here in response to your question was: Where is Charlie Wilson?
    General, before you have to leave, there was a rumor out 
that we were going to trade out the Marines out of Iraq and put 
the Marines in Afghanistan. Now, of course, the Marines can 
take care of business. Is there any truth to that? There's this 
3,000 augmentation coming up, of Marines going into 
Afghanistan, and how does that tie in a potential spring 
offensive?
    General Jones. I think the Secretary of Defense has made 
the decision, at least for the time being, on that idea. I 
think the 3,000 marines will certainly equip themselves very, 
very well, as they normally do. It is a demonstration of our 
national resolve, and hopefully it'll be met by some equal 
offerings by some of our allies in the North Atlantic Treaty 
Organization.
    I think that it's important to support the commander's 
request. It doesn't seem to me that what they're asking for is 
unreasonable.
    But, if we are correct, and there's a spiraling situation 
in an unfavorable direction--while I've always said, at least 
in my 3\1/2\ years there, that the ultimate solution is not a 
military problem, but it could become one, and I don't--I 
really don't want to see that happen. And I think Ambassador 
Pickering's recent answer to Senator Feingold was absolutely 
the perfect answer.
    Senator Bill Nelson. And that has come through, loud and 
clear, in all----
    General Jones. Yeah.
    Senator Bill Nelson [continuing]. All of your testimony.
    Let me ask Ambassador Holbrooke--when you were talking 
about the lack of success in the poppy eradication, and the 
huge amount of expenditures that we're making there--so, we're 
not getting the bang for the buck, we're doing it the wrong 
way--it occurred to me, we've gone through a lot of this drill 
before in Colombia. What have we learned in Colombia that could 
be applied to the situation in Afghanistan?
    Ambassador Holbrooke. Senator, to my right is ``Mr. 
Colombia,'' so may I defer to Tom?
    Senator Bill Nelson. Please.
    Ambassador Pickering. I'm totally out of date, but I had a 
lot to do with helping to try to put Plan Colombia together.
    The lessons we learned in Colombia, at our peril, were that 
you could not ``not deal'' with all of the aspects, that the 
civilian aspects, despite the huge costs of helicopters for the 
military, which were essential, also had to be dealt with. And 
it was everything from judicial reform and effective 
prosecutions and rule of law, the whole thing.
    Now, I'll tell you, one interesting thing we learned was 
that we could reduce, radically, the amount of hectarage in 
coca by aerial spraying, but the next year, it went up, and it 
went deeper into the jungle, and it went to small plots. And 
so, in effect, it looked like a fairly good device, but what it 
did was what we're concerned about is going to happen, and Dick 
has explained so clearly: recruit people for the other side, 
fail to provide the alternative method of livelihood, disperse 
the crop, make it harder to get at, and generally increase, 
because the value is going up for that 1-year loss, the amount 
of money that comes back into the system. I suspect that the 
farmers don't get much, but they get a lot.
    The other interesting thing, in terms of the other side of 
the issue: Can you provide an alternative way? Can you provide 
good agricultural crops, security, roads, market, financing? 
The drug lords provide all of that. Can you do that in a 
comprehensive way? You may have to start with the development 
piece first, before you get totally into the eradication piece. 
That seems, in my view, to be a better way to go ahead. Where 
we have done that in Colombia, we've been able to hold the line 
a little better than the other way around, and this has been 
particularly true with the opium crop in Colombia at the higher 
altitudes.
    So, those are a few things, Senator Nelson, that I would 
put on the table, that I think we have tried to take into 
account in our report here, although we all know Afghanistan is 
not Burma, is not Colombia.
    The Chairman. If the Senator would yield for just a second, 
I'd point out that--because I was chairman of Judiciary during 
those periods, as you'll remember, and--cops--we vetted their 
entire police force. We went back and retrained them. And I 
don't know how Plan Colombia, the portion that worked, could 
have worked without that. Medellin, you can walk the streets--
--
    Ambassador Pickering. We didn't train military without 
vetting them.
    The Chairman. That's right. And they're not--that's not 
happening now.
    Ambassador Holbrooke. To add to the answer and Senator 
Biden's comments, Senator Nelson, roads and markets before drug 
eradication, some way of compensation to people when their only 
source of livelihood has been destroyed, or else joining the 
Taliban's even easier. Hold eradication off in insecure areas 
for a while, and go after the traffickers and the drug lords 
and the precursor chemicals.
    I think the previous testimony strongly suggested to me, by 
the way the witnesses avoided the questions posed by the 
chairman and his colleagues, that they are not going over the 
drug lord--going after drug lords at a high level. I don't 
know, Mr. Chairman, if that was your impression, but I listened 
carefully to the colloquy, and I was not encouraged.
    Senator Bill Nelson. Thank you.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you very much, Mr. Chairman.
    Let me thank all three of our witnesses.
    I want to touch upon the importance of border security in 
dealing with the problems in Afghanistan. There were, I think, 
some high hopes when OSCE agreed to provide some border 
security with central Asia. There are very challenging issues 
as it relates to Iran, and Iran's support for extremist groups 
within Afghanistan. And, of course, it was well reported that 
al-Qaeda has the ability to travel between Pakistan and 
Afghanistan. So, I just really would like to get an assessment 
from you as two points. First, how important is border security 
in attaining our goals in Afghanistan? And how effective have 
we been on border security issues?
    General Jones. I think border security is extremely 
important, but in a 360-degree sense around Afghanistan. And I 
think that this is why, in our report, we stress the fact that 
what's happening in the region is now making Afghanistan part 
of a regional problem.
    If you talk to the individual countries bordering 
Afghanistan, about drugs--China, for example, and Russia--are 
very concerned about the infringement of their borders and the 
traffic. Iran has running gun battles with these drug convoys, 
losing, I'm told, hundreds of people a year, trying to restrict 
the flow of drugs through their territories. By the way, on 
their way to European markets at the rate of about 90 percent 
of the drug product, and also to the east.
    So, I think one of the aspects of this being a regional 
problem is to get regional actors together and say, ``What are 
we going to do about the border situation? How can more 
countries do more, particularly against drugs, but also against 
the flow of insurgents?'' Because, obviously, the one that 
people focus on the most is the Pakistan-Afghanistan border 
dispute. And for several years we listened to the finger-
pointing between President Musharraf and President Karzai, 
which didn't really contribute to any forward progress. Now 
that it is a regional problem, we should all hope that the 
leaders of these countries will get together and do what's 
right.
    Senator Cardin. Let me ask one additional question, 
General, and that is: What should our expectations be? At the 
end of the day, what are we hoping, realistically, to achieve 
in Afghanistan? It's a country that has a history of tribal 
leaders. It's never had a strong central government. What can 
we expect? And what is the timeline? And I know that's very 
difficult to predict, but I'd be interested in your assessment 
as to, what can we achieve, as far as stability in that 
country, its extremist groups being eradicated, and an economy 
that's not based on narcotics?
    General Jones. My feeling, from having traveled all over 
the country, particularly in the aftermath of the elections 
that were held, was that the Afghan people, themselves, really 
want to stop fighting. There are--there is a historical 
behavioral science, I think, that can--you can track problems 
within a country, or within a region, where people go through a 
fighting and a killing spell, and eventually they get tired of 
it or something happens, they stop, and they go, and they yearn 
for peace. And hopefully that's what happened in Bosnia. And 
we're all hoping that the--in Afghanistan we're seeing the same 
thing.
    I think that the outpouring of public support for the 
election, the promise of a better life, the promise of economic 
stability, the promise of a judicial system, the potential of 
not being pulled in two different directions, terrorized at 
night, and being able to only go out during the days--those 
promises came through loud and clear to the Afghan people, and 
they voted, overwhelmingly, for that.
    What's going on, I think, in the aftermath of these 
elections is their frustration over not seeing a progress 
towards that goal. It wasn't going to happen overnight. We all 
recognize that. My feeling is that, for all of the enthusiasm 
that happened after the elections, the decrease in violence, 
the fact that the violence had really been located to a very 
small place, the PRTs were launched, NATO came in more 
forcefully, there was a lot of momentum that we had plans for 
judicial reform, police reform, narcotics reform, 
demobilization, reintegration, the--standing down the 
warlords--a lot of good things, a lot of momentum.
    And what I think has happened now is, the momentum has been 
lost. It's been lost, because a lot of these programs have not 
been fully implemented. It's been lost, because there is just 
no sense that we can tackle, effectively, the three or four 
most important things that are going on inside the country, 
complicated now by the fact that, I think it's fair to say, 
this is a regional problem; whereas, before we were able to 
focus on Afghanistan, quite apart from the nations around it.
    So, I still think that there is a way ahead. I think it's--
I think the international community needs to come together, 
make their assessments, and us make our assessments. I do 
believe that a Paddy Ashdown-like figure, or figures, is 
absolutely critical to focusing the tremendous amount of money 
and resources in both people and assistance that is going on, 
and which is to be commended, but it's going on in a almost 
uncoordinated way. And on certain issues, we need a lot more 
coordination, and a lot more effect.
    Ambassador Holbrooke. And, Senator, the Paddy Ashdown 
affair is not about Paddy Ashdown, it's a seminal moment in the 
relationship between the Karzai government and the 
international community. It had not happened before, anything 
like this. And, for reasons involving internal politics in 
Afghanistan, the forthcoming elections, Karzai's need to be 
more nationalistic and no longer so subservient to outside 
world, he broke an agreement in public. It may or may not have 
helped him, domestically. I have no idea. But, if it is allowed 
to stand, all the things that my colleagues have recommended in 
this terrific report, I don't think will happen.
    Senator Cardin. Well, it appears like we have our 
challenges ahead of us, and it's not going to be a quick path.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Gentlemen, your testimony was greatly appreciated. I mean 
that sincerely. And you can rest assured, unfortunately for you 
all, we're going to call on you again.
    Three of us on this committee are heading over to Pakistan 
and Afghanistan shortly, and we'll follow up when we come back. 
But, I don't know how--to use your phrase, General, I don't 
know--and also--all three of you--I don't know we get a handle 
on this without much greater coordination in the--and 
involvement--of the international community. I just don't--I 
don't think there's any possibility.
    At any rate, thank you very much.
    We are adjourned.
    [Whereupon, at 12:36 p.m., the hearing was adjourned.]







                            A P P E N D I X

                              ----------                              


 Responses to Additional Questions Submitted for the Record by Members 
                            of the Committee

Responses to Additional Questions Submitted for the Record to Assistant 
       Secretary Richard Boucher by Senator Joseph R. Biden, Jr.


    Question. After your appearance at our subcommittee hearing on 
December 8, I submitted several questions for the record to you. Two of 
them-the most important two- remained unanswered until just this week. 
The responses provided to these questions-which go directly to the role 
played by Pakistani security services in providing sanctuary to the 
Taliban- were, at very best, far from complete.
    The first question was a request for a detailed list of the 
reimbursements to the Pakistani military made under Coalition Support 
Funds: some $6 billion over the past six years. You testified on 
December 8 that every item had to be verified by the State Department, 
and in your response you reaffirm that ``Claims are submitted through 
the U.S. Embassy where they are reviewed for completeness and accuracy 
and then endorsed,'' and that ``The State and Defense Departments work 
closely together on the consideration of reimbursement claims and each 
claim is examined closely by both departments.'' Yet your response then 
states, ``As the Defense Department is responsible for oversight of 
Coalition Support Funds, reimbursements, it maintains the records 
necessary to provide the details requested here. Consequently, for 
further details on Coalition Support Funds and a list of claims, we 
would refer you to the Department of Defense.''

          a) Does State keep records of the claims ``submitted through 
        the U.S. Embassy where they are reviewed for completeness and 
        accuracy and then endorsed''?

          b) If State does not keep records of these claims, what are 
        the official guidelines regarding the destruction of this 
        paperwork?

    Answer. The Department of Defense is responsible for oversight of 
Coalition Support Funds reimbursements. The Office of the Defense 
Representative--located at the U.S. Embassy in Islamabad and staffed by 
Department of Defense personnel--oversees the Coalition Support Funds 
program. It is the responsibility of the Office of the Defense 
Representative to keep the records of claims submitted through this 
program. For details on the official guidelines regarding the retention 
or destruction of these records, the Department of Defense is best 
placed to respond.
    I would also like to comment on your description about the role of 
Pakistani security services. The Pakistani security services do not 
play a role in providing ``sanctuary'' to the Taliban. On the contrary, 
the Pakistani military is engaged in robust efforts against terrorism 
throughout Pakistan. Approximately 100,000 Pakistani soldiers are 
posted along the Pakistan-Afghanistan border. More than a thousand 
Pakistan Army and Frontier Corps troops have lost their lives since 
2001 in the fight against the Taliban and Al Qaeda in Pakistani 
territory, over 300 security force members since last July. A major 
factor contributing to the continued exploitation of the Federally 
Administered Tribal Areas is the lack of counterinsurgency skills 
within Pakistan's security forces, not a lack of will on their part.


    Question. The second question requested ``a list of all weapons 
systems primarily designed for purposes of external security currently 
scheduled for sale or transfer to Pakistan, with dates of scheduled 
transfer and dollar value of the transaction.'' Less than three weeks 
later (on December 31), the Pentagon announced that Lockheed Martin had 
been awarded a $498.2 million contract to supply twelve F-16C and six 
F-16D jets to Pakistan. The decision was announced four days after the 
assassination of Benazir Bhutto, at a time when Pakistani President was 
publicly deliberating whether or not to postpone national elections

          a) On which date was State made aware of the decision to 
        proceed with the award of the F-16 contract to Lockheed Martin?

          b) Given the political sensitivity, was any State Department 
        official consulted as to the timing of this announcement?

          c) It seems unlikely that a transaction worth nearly half a 
        billion dollars could be finalized and publicly announced 
        without any senior official at State or the Department of 
        Defense providing specific authorization. Who was the highest-
        ranking official at State to give approval for this 
        transaction, and on what date?

    Answer. On June 28, 2006, the Defense Security Cooperation Agency, 
in coordination with the Department of State, notified Congress for the 
sale of 12 F-16C and 6 F-16D aircraft to Pakistan, in addition to 
various associated munitions and Mid-Life Update kits for the 
Government of Pakistan's existing F-16 fleet. The State Department 
discussed the sale at length with the Congress, and the Letters of 
Offer and Acceptance were finally signed on September 30, 2006.
    The Department of Defense's December 31, 2007 announcement was the 
culmination of a year and a half process since the signing of the 
Letters of Offer and Acceptance and was standard practice in meeting 
Foreign Military Sale milestones. Since September 2006, the Department 
of State has been aware that Lockheed Martin would be the responsible 
contractor, but the final ``price'' that the U.S. government would 
award Lockheed was still being negotiated by the Department of Defense. 
As the sale was already approved by the Congress, and the United States 
Air Force was implementing the case, the State Department was not made 
aware of this routine milestone announcement. The Department of Defense 
can provide further details on this matter if needed.


    Question. Your response to the second question stated that of the 
P-3 Orions slated for delivery, five aircraft (P-3C) have a ``delivery 
date unknown.''

          a) Has the Department of State requested that the Department 
        of Defense provide prior notification of any delivery of a 
        weapons system of this type? If so, how much prior notice was 
        requested?

          b) If the Department of State receives notice of such a 
        scheduled delivery, will you commit to informing this Committee 
        of it in a timely manner? If so, how much prior notice should 
        the Committee expect?

    Answer. The delivery dates for the remaining P-3Cs are:

          P-3C 3: April 2009

          P-3C 4: May 2009

          P-3C 5: February 2010

          P-3C 6: March 2010

          P-3C 7: December 2010

    As a matter of practice, the Department of State does not require 
notice from the Department of Defense for the delivery of any aircraft 
or defense articles. However, given the strategic relationship the 
United States has with Pakistan, the Departments of Defense and State 
work in close coordination and the Department of State is aware of the 
operations of Foreign Military Sales programs, to include the delivery 
of equipment.
    From the last Question for the Record requesting a ``list of all 
weapons systems . currently scheduled for sale or transfer to Pakistan, 
with dates of scheduled transfer and dollar value,'' Congress has the 
latest information on the scheduled delivery of some of Pakistan's 
larger defense procurements. The Department will keep that list up-to-
date as new defense articles are approved for sale and will be 
responsive to the Committee's requests.


    Question. In the hearing, you cited a December BBC poll on Afghan 
public opinion, noting ``one of the things that really struck me was 
people said they'd rather have bad policemen than no policemen at 
all.'' Please provide the citation for this assertion, as there does 
not appear to be any such question asked or response received in the 
report published by ABC and the BBC on the polling.

    Answer. Although polls consistently show widespread perception of 
corruption, they also reflect that Afghans strongly appreciate police 
presence. Unfortunately, I have not been able to find the citation. 
Perhaps I was mistaken about it.


    Question. In the hearing, you made the following assertion about 
Afghanistan:

          It's got a government that works fairly well, better in some 
        ministries than others, but it's capable of providing education 
        and wells and projects for people around the country. It's got 
        an army that's credible and out in the field and fighting. It's 
        got a police force that is reforming--and it's not just 
        quantity, it's quality as well. A lot of what's being done with 
        the police training is to reform it as we stand it. So I see 
        all these efforts. Nobody can tell me it's not going in a 
        positive direction.

                  a) In the study that you cited above (ABC/BBC survey 
                of December 2007), positive ratings for the U.S.-led 
                efforts have dropped from 68% in 2005 to 57% last year 
                and 42% in 2007. Two-thirds said they could not afford 
                adequate fuel, and over half said they couldn't afford 
                sufficient food. Fewer respondents said their country 
                was on the right course than in any prior year. 
                Satisfaction in living conditions was lower than in 
                each of the three prior years polled. Moreover, 42% of 
                respondents view the Taliban as having gotten stronger 
                over the past year, while only 24% saw it as having 
                gotten weaker. Would you regard the survey 
                participants--1,377 Afghan citizens--as telling you 
                that things were going in a positive direction?

                  b) Two members of the private panel which followed 
                your panel (Gen. James Jones and Amb. Thomas Pickering) 
                served as co-chairs of a study group composed of some 
                of the most respected experts on Afghanistan, the 
                region, and the mechanics of nation-building inside or 
                outside of government circles. The report they released 
                on Jan. 30 states that ``the progress achieved after 
                six years of international engagement is under 
                threat,'' citing ``the growing lack of confidence on 
                the part of the Afghan people about the future 
                direction of their country.''

    Would you regard the study group participants as telling you that 
things were going in a positive direction?

    Answer. When assessing progress in Afghanistan from a broad 
perspective, we have to consider Afghanistan's past. Afghanistan was 
one of the poorest countries in the world even before its 25 years of 
constant conflict and chaos.
    Against this background, it is only natural that daunting 
challenges remain until the present day--especially with respect to 
security, counternarcotics, and governance. And for millions of 
Afghans, life remains bitterly difficult.
    But we should not lose sight of the progress that has been made and 
that we continue to make year by year. Broad swaths of Afghanistan--
especially in the North, the West and even the East--are hardly 
recognizable by comparison with where they were seven years ago. And we 
do no one a service if we ignore this progress. According to the ABC/
BBC survey of December 2007, 70 percent of Afghans rate their overall 
living conditions positively, and two thirds rate their own security 
positively. The democratically elected President and his Government are 
rated as good or excellent by a majority of Afghans. And most 
importantly, more than half of Afghans see their country moving in a 
positive direction.


    Question. In response to a question from Sen. Hagel, you stated 
that the total amount of money spent by the U.S. in Afghanistan, 
including military operations, has been about $25 billion. How much of 
that, in total, has been spent for reconstruction and development 
assistance?

    Answer. From fiscal year 2001 to fiscal year 2007, U.S. Government 
assistance to Afghanistan totaled over $23 billion. This total includes 
security sector, reconstruction, governance, and humanitarian 
assistance, as well as operational costs, but excludes the cost of U.S. 
military operations. Of the total, $7.6 billion supported 
reconstruction and development activities.


    Question. Please provide the names of all high-level druglords who 
have been convicted of crimes in Afghanistan and are serving jail time 
in that country.

    Answer. There were approximately 760 arrests and 306 convictions of 
narcotics traffickers by Afghan authorities from September, 2006, to 
September, 2007. However, the U.S. Embassy cannot state with certainty 
how many are currently serving jail time. Once a defendant's conviction 
is upheld by the Supreme Court, he/she is transferred to his/her 
province for the duration of his/her term of imprisonment.


    The following high-level narcotics criminals are awaiting trial or 
have been convicted:


   Misri Khan--convicted of heroin possession, sales and attempted 
        exportation

   Bahram Kahn--convicted of heroin possession, sales and attempted 
        exportation

   Noor Ullah--convicted of heroin possession, sales and attempted 
        exportation

   Abdul Malik--convicted of kidnapping and murdering of two Afghan 
        National Interdiction Unit (NIU) officers in August, 2005

   Babah Khan--arrested in June, 2007. Opium and heroin trafficker; 
        awaiting trial

    Salam Khan--arrested in June, 2007. Opium and heroin trafficker; 
        awaiting trial

   Haji Salam--arrested on October, 2007, for sale of drugs. Believed 
        to be a Heroin lab operator and money launderer


    The following high-level narcotics criminals have been extradited 
to the United States:


   Haji Bashir Noorzai--convicted for smuggling heroin into the U.S.

   Haji Baz Mohammad--pleaded guilty to conspiracy to import heroin 
        into the U.S.


   Mohammad Essa--charged with conspiring to import approximately $25 
        million of heroin into the U.S.

   Khan Mohammad--charged with narco-terrorism


    Question. According to the State Department's 2006 Human Rights 
Report for Afghanistan, women continue to face serious barriers to the 
improvement of their rights and opportunities: ``Societal violence 
against women persisted, including beatings, rapes, forced marriages, 
kidnappings, and honor killings.'' Citing non-governmental organization 
reports, the State Department indicates that ``hundreds of thousands of 
women continued to suffer abuse at the hands of their husbands, 
fathers, brothers, armed individuals, parallel legal systems, and 
institutions of state such as the police and justice system. Violence 
against women was widely tolerated by the community and is widely 
practiced. Abusers were rarely prosecuted and investigations were 
rarely carried out for complaints of violent attacks, rape, murders, or 
suicides of women. If the case did come to court, the accused were 
often exonerated or punished lightly.''
    What efforts has the U.S. Government undertaken to help the Afghan 
government specifically address the serious problem of violence against 
women? How, if at all, does the widespread prevalence of violence 
against women hinder women's participation in and/or support for U.S.-
led initiatives to enhance democracy and stability in Afghanistan?
    Which regions might you anticipate a need for funding that is not 
in the current budget request?

    Answer. We are committed to addressing the widespread problem of 
violence against women in Afghanistan. In 2005, the State Department's 
Bureau for International Narcotics and Law Enforcement Affairs (INL) 
supported the Afghan Ministry of Interior in establishing the first 
Family Response Unit in Kabul to help address domestic violence against 
women. Today, there are 24 Family Response Units attached to police 
stations in seven Afghan provinces that are staffed primarily by women 
police. The Family Response Units offer women a place of refuge from 
kidnappings, spousal abuse, rape/sexual abuse, forced marriage, and 
other gender crimes and rights violations. They provide women, 
children, and families a safe place to file a police report and also 
offer mediation and resources to families to prevent future violence. 
Since the creation of the Family Response Units, the number of domestic 
violence investigations opened by the police has steadily increased due 
to enhanced police capacity and heightened public awareness about 
domestic violence. Furthermore, the presence of a female staff member 
serves to showcase the opportunities for women in the Afghan National 
Police and promotes the need for their participation in Afghanistan's 
security forces. The Afghan Government plans to establish additional 
Family Response Units at all provincial headquarters and in larger 
districts and will continue to staff them primarily with women police.
    Since their establishment, we have provided material and mentoring 
support to the Family Response Units. Each week, American police 
mentors meet with the Family Response Unit's female officers, identify 
individual and unit needs, and provide skills training and guidance on 
case resolution. Police mentors are actively working to link Family 
Response Units increasingly with shelters, social services, and 
prosecutors who can try gender-based violence cases.
    After consultations with an Afghan women's shelter director, the 
U.S. has funded a transit shelter for women and girls in Kabul in 
September 2007. This shelter provides domestic violence victims, 
including those requiring drug treatment services, with temporary safe 
haven, health care, psychological support, and legal aid while a long-
term care strategy is being crafted. Victims needing longer-term 
shelter are referred to those facilities.
    A key component of preventing and responding to violence against 
women in Afghanistan is ensuring that women and girls know and 
understand their rights under the law. To this end, since 2004 we have 
has supported the efforts of a non-governmental organization that has 
partnered with Afghan women judges to conduct legal awareness training 
for more than 1,400 high schools girls and their teachers about their 
constitutional rights under the new Afghan Constitution. Additionally, 
in late 2007 we collaborated with and provided funding to the Afghan 
Ministry of Women's Affairs to run a print and radio information 
campaign to raise public awareness of family violence and the rule of 
law according to the Afghan Constitution, the Penal Code, and Sharia. 
USAID programming has also worked to enhance Afghan women's 
understanding of their rights under the law through roundtables, public 
discussions, and television and radio dramas on topics such as women's 
rights in Islam, forced marriage, and the right to education.
    The State Department's Bureau for Democracy, Human Rights, and 
Labor (DRL) programming uses radio as a means of communicating with the 
Afghan people about human rights, women's rights, and democracy issues 
within the context of Islam. The project combines interviews and 
discussions with Afghan religious scholars about human rights within 
Islam and the role of women in Islam with examples from the Koran. DRL 
programs also include convening women's and human rights non-
governmental organizations in order to develop grassroots leadership 
training specifically for women from regions severely impacted by human 
rights abuses.
    Violence against women is a human rights violation and a serious 
obstacle to enhancing democracy and stability in Afghanistan. Such 
violence discourages half the population from participating fully in 
society. Nonetheless, Afghan women have proven that they are 
increasingly ready to assume their rightful role in rebuilding their 
country. For example, record numbers of women registered to vote 
(accounting for 43 percent of all registered voters) in the September 
2005 parliamentary elections, and over 600 women ran for parliamentary 
office. Girls are attending school at historical levels and women, 
particularly in urban areas, are pursuing professions denied them under 
Taliban rule. Education will be critical in transforming society in 
Afghanistan. USAID has made Afghan women and girls a major target of 
its literacy and other educational projects (e.g., ``Learning for 
Life'' and the Women's Teacher Training Institute in Kabul).
    To underscore U.S. government support for women's rights, for the 
second year in a row, Secretary Rice will present a prestigious 
``International Women of Courage'' Award to an Afghan woman who 
operates a domestic violence shelter.


    Question. In 2004 the Afghan government established the first unit 
of female police officers to assist women and children who are victims 
of crimes.
    Has the U.S. Government provided or offered to provide any training 
of police or prosecutors regarding domestic violence and sexual 
assault? If so, please describe that training. If not, are there plans 
in place to explore opportunities where our law enforcement and 
prosecutorial expertise on domestic and sexual violence may be helpful 
to Afghan authorities?

    Answer. In 2005, the State Department's Bureau for International 
Narcotics and Law Enforcement Affairs opened the first Family Response 
Unit in Kabul to help address domestic violence and gender crimes 
against both women and men and other family issues. Today, there are 24 
Family Response Units attached to police stations in seven provinces. 
U.S. civilian police mentors provide training and mentoring to female 
officers from each Family Response Unit, including specialized 
assistance in addressing domestic violence cases. Since their 
establishment, the Family Response Units have handled an increasing 
number of domestic violence cases. For example, in 2007 female officers 
in the Family Response Units collectively addressed 348 cases of 
domestic violence nationwide, up from a total of 199 cases in 2006.
    In September 2007, the State Department provided funding to a 
women's issues non-governmental organization to establish a transit 
shelter for female victims of gender violence. As part of this grant, 
the shelter designed a domestic violence training curriculum for police 
officers that introduces types of gender violence, women's rights under 
the law, procedures for dealing with victims of domestic violence with 
sensitivity and respect, and available government and non-governmental 
resources for women in need, including how to use the shelter's 
referral system. The shelter will hold five of these workshops, the 
first of which will occur in late February 2008, for male and female 
police in Kabul during the course of the initial one-year grant. Based 
on the outcome of this pilot training program, we will consider how 
best to alter or expand this program to police outside of Kabul.
    In addition to the on-the-job training the police of Afghanistan 
receive to enhance their response to cases of gender violence, we have 
integrated domestic violence and human rights components into our 
police training program. To date, over 50,000 Afghan National Police 
officers have gone through the Department funded basic eight-week 
police training curriculum, which covers human rights and domestic 
violence issues. The two-week Transitional Integration Program training 
course on policing in a democratic society, which nearly 25,000 
intermediate Afghan National Police have completed to date, includes 
additional coursework on domestic violence and human rights in the 
Afghan context. Domestic violence modules inform police trainees about 
the causes of domestic violence and the role of law enforcement 
authorities in responding to it. We are currently exploring additional 
ways to integrate gender issues and domestic violence responses into 
training opportunities for police at all levels.
    To complement its efforts to train police about domestic violence, 
the Department is actively engaged in the broader effort to reform and 
build Afghan justice sector institutions' capacity to respond to 
violations of the law, including gender crimes. To date, hawse have 
spearheaded several efforts specifically geared toward building the 
justice sector's capacity to respond to cases of gender crimes and 
domestic violence, including:


   Enhancing police-prosecutor coordination on domestic violence 
        issues in Balkh province in early 2008. The Bureau for 
        International Narcotics and Law Enforcement Affairs' police-
        prosecutor coordination training in Balkh directly led to the 
        province's decision to create the position of provincial family 
        violence prosecutor. The new family violence prosecutor, who 
        was a student in the training, has convened several meetings to 
        date with the female police officers that staff Balkh's Family 
        Response Units in order to gain evidence to support the 
        prosecution of domestic violence cases.

   Supported the creation and distribution of 46,000 booklets on 
        treatment of gender crimes under Afghan and Sharia law for use 
        by police and prosecutors in late 2007. The booklet for 
        prosecutors cites specific sections from the Constitution, 
        Penal Code, and the Hadith and Sharia while the one for the 
        police uses basic language and contains pictures due to low 
        levels of literacy among police.

   Mentoring female defense attorneys throughout Afghanistan. 
        Approximately 10 female defense lawyers who represent indigent 
        female defendants throughout Afghanistan were provided weekly 
        training sessions during summer 2006.

   A gender justice training program for 45 justice sector 
        professionals and community members--including 35 women and 10 
        men--at the Ministry of Women's Affairs in Wardak province. The 
        training included lectures and small-group discussions on 
        domestic violence, forced marriage, and women's legal rights 
        and legal remedies available to women under Islam, Sharia, and 
        Afghan statutory law.


    The State Department's Bureau for International Narcotics and Law 
Enforcement Affairs is currently examining the feasibility of 
developing additional training and assistance programs for prosecutors 
working on domestic violence cases and remains committed to further 
enhancing the capacity of the broader justice sector to respond to 
gender crimes and domestic violence.


    Question. Women's progress in Afghanistan is particularly dependent 
on the security situation in the country. In the words of former acting 
minister of women's affairs, Masuda Jalal, ``Women's future depends so 
much on security. As much as security deteriorates, women's situation 
deteriorates. At the first sign of insecurity, the head of the family 
protects his women and children, and the first measure they take is to 
keep them inside the house.'' In recent months we have seen press 
reports of teachers being targeted and of girls being murdered outside 
their schools. A recent news article reports that 130 schools have been 
burned down, 105 students and teachers killed and more than 300 schools 
closed down--many of those schools were for girls.
    How are considerations about the security of women and girls 
incorporated into U.S. efforts to ensure the overall security of the 
population? And specifically, what steps, if any, has the U.S. 
government taken to improve the safety of women and girls in 
Afghanistan, particularly in areas where the Taliban is regaining 
ground?

    Answer. The United States places great priority on enhancing 
security for Afghans, including women and girls. Security is an 
indispensable prerequisite for improving everyday life of women and 
girls, most notably school attendance and access to medical care. U.S. 
troops, our NATO Allies and partners, and the Afghan Security Forces 
have achieved sustained successes against the Taliban on the 
battlefield helping expand Afghan Government presence so the population 
can recover from decades of war and conflict. The U.S. and our Allies 
will continue to train the army and police so they can respond 
effectively and professionally to security and criminal threats to the 
population. Human rights education, including the rights of women and 
girls, are included in army and police training. Properly trained 
police and army soldiers will expand the reach of security services to 
areas that are currently underserved, particularly in southern 
Afghanistan. In addition, U.S. and other NATO-led Provincial 
Reconstruction Teams have built or rebuilt schools throughout 
Afghanistan, including girls' schools, and supported other development 
activities. Although the needs are still great, these efforts represent 
increased opportunities for improvement in the lives of Afghan women 
and girls.


    Question. There are several obstacles for women in accessing the 
justice system in Afghanistan. Women often face hardship in the 
enforcement of family law and criminal law, and there often is a lack 
of sensitivity in cases involving women, especially in crimes of sexual 
nature, like adultery. Furthermore, informal justice sectors like local 
councils often discriminate against women. For example, I am aware of a 
recent reported case in the Province of Badakhshan in which a woman was 
stoned to death for adultery, while the man was only whipped. What 
steps, if any, is the U.S. government taking to help women access the 
justice sector without discrimination?

    Answer. Enhancing women's access to the justice sector is a high 
priority goal for the United States. Strengthening the capabilities of 
the justice sector and increasing the number of women legal 
professionals in it will have a positive impact on women's access to 
justice. The Department of State runs a justice sector reform program 
that has provided training in accounting and management to ten female 
defense attorneys with a local Legal Aid Organization, and is providing 
ongoing mentoring. The Department conducts provincial training seminars 
on human rights topics, such as gender justice and victim's rights. A 
gender curriculum is being integrated into the Attorney General's 
Office continuing legal education course, and specifically includes 
training on sexual assault prosecution. Ten female prosecutors have 
gone through this continuing legal education course. Another 15 female 
prosecutors, to date, have participated in a Department-sponsored 
police-prosecutor training in Balkh, Herat, and Nangarhar. The Bureau 
for International Narcotics and Law Enforcement Affairs is also 
developing a Victim-Witness Support and Prosecution initiative to more 
effectively prosecute sexually related crimes.
    In addition, since 2005, Afghan women judges have visited the 
United States for judicial training, including on family law. Back 
home, these women judges receive professional development training and 
34 female judicial candidates have also received judge candidate 
training under USAID programming.
    Working to increase knowledge of their rights is also essential to 
efforts to help women secure their legal rights. In addition to 
publishing 46,000 booklets on laws against gender-based violence for 
use by police and prosecutors, we are funding radio spots and 6,000 
street posters on gender crimes that target the general population. We 
have also supported legal rights courses, including accessing the legal 
system, for over 1,400 high school girls and their teachers in Kabul. 
In an example of provincial outreach, 35 female members of the 
community (teachers, members of the provincial council, women 
corrections officers, etc.) attended a legal aid training session 
focused on women's rights in Wardak province.
    USAID is also active in efforts to promote women's legal rights. It 
is sponsoring a ``women's-rights-under-Islam'' program that works with 
religious leaders and human rights activists to develop and disseminate 
progressive messages about the rights of women under Islam. For 
example, the program supported the formation of a 45-member 
consultative group of local scholars and experts to assist with message 
development. That group has assisted in the production of 19 radio and 
television roundtables, and dramas, and three televised public service 
announcements on women's rights in Islam that were broadcast 
nationwide. The program is actively producing and distributing printed 
women's rights materials in the provinces via its 32 community cultural 
centers and other means. The program has taken Islamic scholars on 
study tours to more moderate predominately Muslim countries and is 
performing an assessment of access of women to justice and prospects 
for women in the legal profession to help target future programming. 
This program is undertaken within USAID's larger program to support the 
Supreme Court's efforts to strengthen the capacity of the formal court 
system, engage the informal justice system, educate Afghans on their 
legal and human rights and help the Ministry of Justice collect, index 
and disseminate Afghan law.

                               __________

Responses to Additional Questions Submitted for the Record to Assistant 
         Secretary Richard Boucher by Senator Christopher Dodd


    Question. Secretary Boucher, according to the Government 
Accountability Office, the Department of Defense mismanaged the 
procurement and transfer of approximately 200,000 assault rifles and 
90,000 handguns to the Iraqi Security Forces. These weapons were not 
tracked and it is unknown in whose hands they have wound up. Moreover, 
section 1228 of Public Law 110-181 mandates an accounting for these 
misplaced arms as well as future such transfers.


          1. Can you provide specific assurances to this committee that 
        all weapons being provided to the Afghan National Army and the 
        Afghan National Police are being properly catalogued and 
        tracked?

          2. Is the training and equipping program for these forces 
        being carried out under the auspices of the State Department?

          3. What role is the Department of Defense playing in these 
        efforts?


    Answer. Since 2005, the Department of State has engaged in a 
partnership with the Department of Defense and the Combined Security 
Transition Command-Afghanistan, which has responsibility for the Afghan 
National Security Forces development program. The Department of State 
coordinates closely with the transition command to implement the U.S.-
funded program to train the Afghan National Police at the eight 
Department of State training facilities across Afghanistan. The 
Department of Defense executes the equipping of the Afghan National 
Police through the transition command. The resource and logistics 
division of the command and the Afghan Ministry of the Interior provide 
a dual-chain process to monitor police equipment accountability. A 
combined inventory is recorded on both Afghan and U.S. accountability 
forms. The U.S. has recently embedded over 800 U.S. military personnel 
with the police to further improve end-use monitoring.
    The Department of Defense directs and executes the training and 
equipping of the Afghan National Army. Questions concerning the 
training and equipping of the army can be best answered by the 
Department of Defense.

                                 <all>

</pre></body></html>
